<html>
<title> - CENTRAL ASIA AND THE ARAB SPRING: GROWING PRESSURE FOR HUMAN RIGHTS?</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                   CENTRAL ASIA AND THE ARAB SPRING:
                   GROWING PRESSURE FOR HUMAN RIGHTS?

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-1-3]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via http://www.csce.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-877 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    BENJAMIN L. CARDIN, Maryland,
Chairman                             Co-Chairman
JOSEPH R. PITTS, Pennsylvania        SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama          TOM UDALL, New Mexico
PHIL GINGREY, Georgia                JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas            RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida           ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,           SAXBY CHAMBLISS, Georgia
New York                             MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina        KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
              MICHAEL C. CAMUNNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  (ii)












                   CENTRAL ASIA AND THE ARAB SPRING:
                   GROWING PRESSURE FOR HUMAN RIGHTS?

                              ----------                              

                              May 11, 2011
                              
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3

                               WITNESSES

Ambassador Robert O. Blake, Assistant Secretary of State for 
  South and Central Asian Affairs, U.S. Department of State......     4
Paul Goble, Professor, Institute of World Politics...............    13
Dr. Stephen J. Blank, Professor of National Security Affairs, 
  U.S. Army War College..........................................    17
Dr. Scott Radnitz, Assistant Professor, University of Washington.    19
Gulam Umarov, Sunshine Coalition, Uzbekistan.....................    21

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    38
Prepared statement of Hon. Benjamin L. Cardin....................    39
Prepared statement of Hon. Alcee L. Hastings.....................    40
Prepared statement of Amb. Robert O. Blake.......................    41
Prepared statement of Paul Goble.................................    44
Prepared statement of Dr. Stephen J. Blank.......................    47
Prepared statement of Dr. Scott Radnitz..........................    64
Prepared statement of Gulam Umarov...............................    67

                                 (iii)

 
                   CENTRAL ASIA AND THE ARAB SPRING:
                   GROWING PRESSURE FOR HUMAN RIGHTS?

                              ----------                              


                              May 11, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room 2322, Rayburn House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Steve Cohen, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Ambassador Robert O. Blake, Assistant 
Secretary of State for South and Central Asian Affairs, U.S. 
Department of State; Paul Goble, Professor, Institute of World 
Politics; Dr. Stephen J. Blank, Professor of National Security 
Affairs, U.S. Army War College; Dr. Scott Radnitz, Assistant 
Professor, University of Washington; and Gulam Umarov, Sunshine 
Coalition, Uzbekistan.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    The Commission will come to order.
    Good afternoon. Sorry for the delay to all of our witnesses 
and guests; the House is in a series of votes. Matter of fact, 
I'm going to head back momentarily; we'll suspend. And 
hopefully, the other members will be able to come back and join 
us for the remainder of the hearing.
    Welcome to this hearing on the potential impact of the 
Middle East revolutions on Central Asia. Though it is far too 
early to know what will come of the Arab Spring even in the 
Middle East itself, it is clear that the revolutions and 
uprisings have already changed the Middle East, and it may well 
yet change other parts of the world.
    This hearing will inquire whether the uprisings and protest 
movements in the Middle East and North Africa might inspire and 
invigorate popular movements for democracy in post-Soviet 
Central Asia, or even trigger similar uprisings and crackdowns, 
and what our government's policy ought to be.
    Obviously, much distinguishes the countries and peoples of 
Central Asia from those of the Middle East, but they also have 
a lot in common, especially in what they have suffered. Broadly 
speaking, in both regions, people are ruled by undemocratic and 
corrupt dictators, many of whom have been in power for decades. 
Where they exist, parliaments are largely rubber-stamp 
institutions, and the judiciary is either corrupt or beholden 
to the executive. National resources and state authority have 
been illegitimately appropriated by small groups of people 
closely bound to the ruling class.
    There are many differences between Kazakhstan, Kyrgyzstan, 
Tajikistan, Turkmenistan and Uzbekistan, but presidential 
longevity in office is a defining regional characteristic. 
Central Asian dictators have monopolized power for two decades 
since the independence movement began, while the public has 
effectively been removed from politics. Only Kyrgyzstan is a 
striking exception to this rule: In that country, street 
protests have toppled two heads of state since 2005, and last 
year, the country commenced parliamentary governance.
    Sadly, in most of Central Asia, democratic reform and 
observance of human rights commitments have progressed little 
in the 20 years since independence. In general, elections have 
been controlled and rigged; rarely has the OSCE given them a 
passing grade. Opposition parties have been harassed--where 
they are permitted at all--and independent media, where it 
exists, has been put on a very short leash.
    In the most repressive states, there is little or no space 
for civil society to function. Access to the Internet is 
tightly controlled; religious liberty, particularly for 
nontraditional religious groups, is constrained; torture and 
mistreatment in custody are routine; corruption is common at 
all levels, and thwarts not only human rights but also economic 
development.
    Central Asian leaders often claim that their citizens are 
not ready for democracy because of their history and culture. 
This is insulting, bigoted, unacceptable and absolutely untrue. 
It is also sadly familiar: Many Middle Eastern tyrants said the 
same thing about their peoples, but the recent events in the 
Middle East show once again that it is not democracies that are 
unstable, but dictatorships.
    The conventional wisdom is that similar protest--popular 
protest movements are unlikely in Central Asia. Yet a few 
months ago, that was the accepted wisdom for the Middle East as 
well. It is time that we rethink and we need to challenge our 
conclusions on both regions; gross and systematic human rights 
violations have surely created a just sense of popular 
grievance in Central Asia. And Tunisia showed that it is 
impossible to predict when a people will decide that a 
situation is, indeed, intolerable.
    Of course, it is our hope that there will be peaceful, 
democratic movements in Central Asia, and equally that the 
governments will respond peacefully and with significant 
reforms. Yet we need to think about the potential for violent 
crackdowns and what our government policy ought to be in the 
region.
    I'd like to introduce our--maybe I'll wait until the other 
members get back; I think that would be better. But I want to 
thank Secretary Blake and our other witnesses for your 
patience. And I apologize again; there is a series of votes on. 
How many votes do you think?
    [Off-side conversation.]
    Mr. Smith. I think we have four remaining votes, and then 
the Commission will convene once again. We stand in recess.
    [Break.]
    Mr. Smith. The chair recognizes--reconvenes its sitting, 
and recognizes Mr. Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Thank you, Mr. Chairman. I appreciate your recognition, and 
I appreciate the opportunity to sit here. This is my first 
meeting as a member of this Commission. And it's an honor to 
have been appointed by my leader and the speaker. I look 
forward to working together on issues of importance to the 
United States and Europe, and our joint solidarity and 
cooperation in human rights as we see them, and the need to go 
forward.
    This panel today on what's occurred in Northern Africa and 
the Middle East is most germane. And I welcome the testimony, 
and I'm very interested to hear what you say. It's been 
inspiring to see all of the folks who seem to be yearning for 
democracy, and I think they are--and they should. But it's 
always a constant battle; we have to be vigilant and make sure 
that the bad guys don't take over.
    So I look forward to learning today, and then working with 
the Chairman who I have great respect for, and his work on 
human rights over the years. And with that, I thank you for 
allowing me to come here. I also look forward to the second 
panel where Mr. Umarov will be testifying; he's a graduate of 
the University of Memphis, which is above water and doing well, 
as is our city. And I look forward to his story. And I yield 
back for the remainder of my time.
    Mr. Smith. Mr. Cohen, thank you very much. I'd like to now 
introduce Bob Blake, who is a career foreign service officer. 
Ambassador Blake entered the foreign service in 1985; he has 
served at the American embassies in Tunisia, Algeria, Nigeria 
and Egypt. He has held a number of positions at the State 
Department in Washington, including senior desk officer for 
Turkey, deputy executive secretary and executive assistant to 
the undersecretary for political affairs.
    Ambassador Blake served as deputy chief of mission at the 
U.S. mission in New Delhi, India, from 2003 to 2006, and as 
ambassador to Sri Lanka and the Maldives from 2006 to May 2009, 
and as assistant secretary for South and Central Asian affairs 
from May 2009 to the present.
    Ambassador Blake earned his B.A. from Harvard College in 
1980, and an M.A. in international relations from Johns Hopkins 
School of Advanced International Studies in 1984.
    Mr. Ambassador, welcome. And thank you for your patience as 
we went through a long series of votes.

 AMBASSADOR ROBERT O. BLAKE, ASSISTANT SECRETARY OF STATE FOR 
   SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Well, thank you so much, Mr. Chairman. It's a great 
pleasure to be here with you and Mr. Cohen today, and I 
appreciate the invitation to discuss this very important topic.
    With your permission, I have a longer statement for the 
record, and I'll just make a shorter statement.
    Mr. Smith. Without objection, so ordered.
    Amb. Blake. Mr. Chairman, differences in history, culture 
and circumstances make direct comparisons between the Middle 
East and Central Asia difficult. However, in some important 
respects, the Central Asian countries of Kazakhstan, 
Kyrgyzstan, Tajikistan, Turkmenistan and Uzbekistan share a 
dynamic similar to those causing the upheavals in the Middle 
East, including unemployment, poverty, corruption, little 
outlet for meaningful political discourse, and a lack of 
opportunity particularly for young people.
    However, there are also significant differences with the 
North African and Middle East countries, which in our view make 
popular uprisings in the near term less likely in Central Asia. 
First, the economic situation is not as dire in Central Asia. 
IMF unemployment projections for 2011 in Central Asia range 
from a low of .2 percent in Uzbekistan to a high of 5.7 percent 
in Kazakhstan, compared to 9.2 percent and 14.7 percent in 
Egypt and Tunisia respectively--of course, that's all official 
data.
    Second, significant proportions of the workforce in poor 
countries such as Tajikistan and Kyrgyzstan have found work 
outside the country, primarily in Russia, easing unemployment 
and providing a very valuable source of remittances for those 
poor countries.
    Third, the hydrocarbon wealth of countries like Kazakhstan 
and Turkmenistan has enabled them to cushion the impact of 
economic hardships in those countries.
    While citizens in Egypt and Tunisia and elsewhere have 
turned to Facebook and Twitter as forums through which to 
interact, organize and exchange ideas, the vast majority of 
Central Asia lacks access to the Internet, with 14 percent 
Internet penetration in Kazakhstan in 2008 marking the highest 
of all the Central Asian countries.
    Although Internet access has since grown, governments have 
succeeded in blocking outside influences and tightly 
controlling domestic media through harassment, prosecution and 
imprisonment of journalists. The lack of independent media 
allows governments to control the dissemination of news and 
information.
    Another factor is the lack of meaningful political 
opposition in most of Central Asia. With the exception of 
Kyrgyzstan, significant opposition parties are largely 
nonexistent, and organized opposition groups are for the most 
part either illegal or tightly constrained by the authorities. 
While these same conditions seem oppressive to Western 
observers, residents in some parts of Central Asia value this 
stability and are wary of the turmoil and unpredictability in 
recent years in neighboring Afghanistan and, to a certain 
extent, Kyrgyzstan.
    Still, the profound change that is taking place across 
North Africa and the Middle East has profound lessons for 
Central Asian governments and societies. One of the messages we 
have given to our friends in Central Asia is that they need to 
pay attention to these events and to their implications.
    In my meetings with Central Asian leaders over the last 
several months, I have encouraged them to provide more 
political space and allow for more religious freedom to allow 
for the development of robust civil society and democratic 
institutions, and to chart a course for economic reform.
    Leaders in Central Asia express support for gradual change, 
and concern that too much freedom too fast could lead to chaos 
and upheaval. They are suspicious of democratic reforms, and 
with some exceptions have maintained tight restrictions on 
political, social, religious and economic life. We think that's 
mistaken. Democracy, as we advocate it, is not violent or 
revolutionary. It is peaceful, tolerant, evolutionary, and 
demonstrated primarily through the ballot box and a free civil 
society.
    To strengthen our engagement in Central Asia, we instituted 
in 2009 annual bilateral consultations that I chair with the 
foreign ministers and deputy foreign ministers in each of these 
countries. I'm happy that Helsinki Commission staff have 
participated in many of these meetings. Each of these 
consultations constitutes a face-to-face, structured dialogue 
based on a jointly developed, comprehensive agenda that 
includes human rights and media freedom.
    We've also used the annual consultations as a forum to 
engage civil society and the business community in the Central 
Asian countries. In the annual consultations that we held 
earlier this year in Kazakhstan, for example, the Kazakhstani 
deputy foreign minister co-hosted with me a meeting with 
Kazakhstani civil society in the foreign ministry, a welcome 
precedent that we hope to duplicate elsewhere.
    In the 20 years since independence, the leaderships in 
Kazakhstan, Uzbekistan, Turkmenistan and Tajikistan have 
frequently and publicly called for building democratic 
institutions. They have given speeches and issued decrees, but 
have done little to put them into practice.
    As you've said, Mr. Chairman, Kyrgyzstan has been the 
primary exception in Central Asia. The democratic gains there 
made since the April 2010 events are cause for optimism, even 
as the ethnic violence in June of last year demonstrates the 
fragility of democracy in that country.
    Kyrgyzstan faces its next test in presidential elections 
scheduled for later this year. We look forward to working with 
the Helsinki Commission and others to help organize 
international support and monitoring efforts.
    Other Central Asian states are at different stages in their 
democratic development, but there are signs of some hope in 
all. Kazakhstan hosted the first OSCE summit in 11 years last 
December, which included a robust civil society component which 
Secretary Clinton found extremely encouraging. Kazakhstan has 
also made some progress towards meeting its Madrid commitments 
on political pluralism and reform of media and electoral law, 
although much more needs to be done.
    President Karimov of Uzbekistan gave a speech in November 
of 2010 calling for greater political pluralism and civil 
society development. Uzbekistan has done little thus far to 
turn this vision into a reality, but we will encourage the 
president and his team to meet the commitments that he made in 
that speech.
    Tajikistan has the region's only legal Islamic party, the 
Islamic Revival Party of Tajikistan, even though that party and 
other opposition officials continue to be subject to various 
forms of harassment.
    Even in Turkmenistan, President Berdimuhamedov has spoken 
publicly of the need to expand space for other voices in the 
political system.
    Mr. Chairman, in conclusion, nearly 36 years ago, leaders 
from North America, Europe and the Soviet Union came together 
to sign the Helsinki Accords, committing themselves to a core 
set of human rights, including the fundamental freedoms of 
association, expression, peaceful assembly, thought and 
religion.
    As Secretary Clinton presciently asserted at last year's 
OSCE summit in Astana, and as events this spring underscore, 
these values remain relevant today and are critical to the 
building of sustainable societies and nations that are 
committed to creating better opportunities for their citizens.
    I thank you, Mr. Chairman, and I look forward to your 
questions.
    Mr. Smith. Ambassador Blake, thank you very much for your 
work and for your testimony here today. And I do want to thank 
you for, you know, being so effective over these many years of 
a very, very stellar foreign service career.
    Amb. Blake. Thank you.
    Mr. Smith. I do want to ask you just a couple of questions. 
When Kazakhstan was seeking to be chair-in-office of the OSCE, 
I opposed it and spoke out repeatedly against it, both at the 
parliamentary assemblies and through our venues that we would 
hold as part of a commission.
    I made it very clear to Kazakh government here in 
Washington that significant progress needed to be made before 
they got that position. Obviously, I didn't win; they got the 
chairmanship-in-office. And frankly, hopefully, the message or 
the consequences will be positive ones.
    But I would appreciate your take on how well or poorly 
they've done with regards to making improvements in human 
rights. I mean, you hope they catch the good infection working 
with ODIHR and working with other instrumentalities of the 
OSCE, working with other governments. But you know, the record 
seems not to point in that direction. Your view?
    Amb. Blake. Well, thank you, Mr. Chairman. Let me just say 
with respect to Kazakhstan that we did support their 
chairmanship-in-office, and we did support their holding a 
summit. And I think in retrospect that we feel that was a good 
decision on our part.
    I think in the run-up to the OSCE summit, Kazakhstan played 
quite a significant role on many human rights issues. They 
hosted a conference on tolerance in Astana; they allowed a 
whole series of quite robust civil society events, again, in 
the week running up to the conference itself, I think 
surprising many of the skeptics. And I think they have taken 
some steps, but not all steps, to fulfill their Madrid 
commitments, as I said.
    They've allowed at least two political parties now to serve 
in the Majilis, and so the--in the next elections that will 
take place next year in 2012, for the first time will provide 
automatically for another opposition party in the Majilis.
    They've eliminated some forms of criminal liability for 
libel, which if you talk to civil society in Kazakhstan, as we 
do frequently, that's their number-one demand. And now they're 
also looking at implementing their own national human rights 
action plan, which was drafted by Yevgeny Zhovtis who remains 
in jail and is, again, a case that we bring up frequently with 
our Kazakhstan friends.
    So I think there is progress. Could there be more progress? 
Definitely. And we will continue to work towards that.
    Mr. Smith. Let me ask you with regards to--I know we now 
have an ambassador-at-large for religious freedom. And 
certainly, Uzbekistan remains one of the most egregious 
violators as it relates to the International Religious Freedom 
Act. They are a country of particular concern.
    I don't think it's likely they will be soon taken off that 
list. And I'm wondering what we convey to Karimov with regards 
to religious persecution, what his response is.
    And in light of what is, again, happening in Egypt and 
elsewhere where the violence against the Coptic church, for 
example, has gotten worse rather than ameliorate or get better, 
are they cracking down? Are they getting worse? What's the 
glide slope there?
    Amb. Blake. Thank you for that very important question. I 
was--[chuckles]--just talking about religious freedom with 
somebody from the Commission on International Religious 
Freedom. And as you know, both Uzbekistan and Turkmenistan are 
countries of particular concern. We have not made any decisions 
about the designations for this year, but they will be made 
shortly.
    With respect to all of the countries in Central Asia, but 
particularly those two and Tajikistan, we have made the point 
that it is very, very important for all of these countries to 
allow peaceful worship, and that it's a mistake to try to 
constrain or ban that in any way because it's only going to 
drive it underground and make it even more destabilizing, and 
in fact provide an opening for extremists who might try to 
exploit that.
    So we have urged that religious freedom really be one of 
the pillars of what we see as a good opportunity for an 
opening. And again, this is a very important part of our 
dialogue. Just yesterday, our office that handles religious 
freedom was meeting with the Uzbek ambassador about this, so 
this remains a very important subject for us. As I say, I don't 
want to try to predict what our decision is going to be on 
this, but again, let me just tell you that it remains a very 
important part of our dialogue.
    Mr. Smith. Understood. Let me just ask you one something 
along those same lines--I'll never forget years ago in Moscow, 
learning from a China watcher that the Chinese government--
Beijing--had learned from what happened in the East bloc with 
the break--or the demise of the Soviet Union that one of the 
mainstays that gives people the ability to endure just about 
anything is faith, and that--especially, beginning with 
Solidarity, and the Catholic church and then the other 
churches, obviously, throughout all of the East bloc that 
remained truly faithful--that there were a number of people who 
were not motivated by faith, but many others, including Lech 
Walesa, who were able--and the Pope--to bring about a 
remarkable stunning change from dictatorship to democracy and 
that the Chinese government had learned this will not happen 
here, which is why they have significantly ratcheted up their 
persecution of all things that is faith-based, including the 
Falun Gong, because they're seen as threats. If they can 
control it, they allow it; if not--the ``-stans,'' the--each of 
them--what do you think they're learning in terms of further 
repression on religious believers, but also on any pro-
democracy individuals who might want to--in Uzbekistan, the 
People's Movement of Uzbekistan, they're calling for a[n] act 
of civil disobedience on June 1st. How do you think these 
countries will react when some of these kinds of manifestations 
take place: iron fist or open hand?
    Amb. Blake. I think it's a combination of both, Mr. 
Chairman, to be honest. I think the countries of Central Asia 
are not so much looking at what's happening in the Arab Spring, 
although they are certainly aware of it; they're looking much 
more at what's happening in Afghanistan.
    And they are very focused on both the transition that is 
taking place in Afghanistan now--they see that our troops are 
making advances in Helmand province, Kandahar, they see that a 
lot of the Taliban and others that are working with them are 
being driven into the north and are there now--therefore now 
beginning to rub up against their own borders in Turkmenistan 
and Uzbekistan and Tajikistan. They're worried about--
particularly--the porous border in Tajikistan where people are 
going back and forth without too much in the way of border 
security on the part of the Tajiks, just because it's a 1,400-
kilometer border and very difficult to patrol.
    So they are very aware of this and, again, I think we make 
the point to them that it's very, very important to draw a 
distinction between those who are engaged in terrorism and 
violence and those who are engaged in--who want to engage in 
peaceful worship and peaceful political discourse and that, if 
you drive the latter category underground and don't allow them 
to do that--as you yourself said, Mr. Chairman--that's going to 
be destabilizing. And so it's very, very important to allow 
these release valves, if you will.
    With respect to religious freedom, I think again, it's a 
fairly nuanced situation. I mean, even in a place like 
Kazakhstan, you see that Catholics and Protestants and Jews all 
have freedom of worship there, and it's kind of the smaller 
sects that are quite strictly controlled. Even in a place like 
Turkmenistan, which is otherwise quite controlled, they made a 
decision in 2010 to allow--to open a Catholic church there.
    So, again, I think we have openings to try to work with all 
of these countries, and we do, and I think that the recent 
appointment of our international religious freedom ambassador 
is really going to help because we're going to be working very 
closely with her. I'm going to be meeting with her next week to 
figure out a strategy now on how to, again, work with these 
countries to persuade them that it's in their own interest to 
do this--not because it's something that's some favor to the 
United States--and we really believe that it is in their 
interests to do it.
    Mr. Smith. Thank you. Mr. Cohen?
    Mr. Cohen. Thank you, Mr. Chairman. I appreciate the 
testimony, and then just looking over this--kind of hard to 
fathom that in 2011 that this--the--``-stans'' have such a poor 
record on human rights. And from my notes I've got here, it 
suggests that the worst--it's hard to--really, I guess, 
distinguish too much, but Uzbekistan is one of the worst, most 
repressive, and Turkmenistan--I think they win the prize as the 
most repressive. We have relations with all these countries, do 
we not?
    Amb. Blake. We do.
    Mr. Cohen. Do we have any restrictions whatsoever on what 
we do them?
    Amb. Blake. We do. [Chuckles.] There are some quite 
significant restrictions. In Uzbekistan, for example, there's 
now a prohibition on military assistance to Uzbekistan because 
of the events in Andijan in May of 2005 when officially 187 
people were killed, but unofficially, many more. So yes, there 
are restrictions.
    Mr. Cohen. But that's military.
    Amb. Blake. Correct.
    Mr. Cohen. But otherwise we engage in trade.
    Amb. Blake. We do.
    Mr. Cohen. Do we give foreign aid to these countries?
    Amb. Blake. We do. We think it's quite important. Mr. 
Cohen, many of these countries--in fact, almost all of them--
are very important partners for us in Afghanistan. The majority 
of supplies that are now going in for our troops in Afghanistan 
transit through Central Asia, through what's known as the 
Northern Distribution Network.
    Mr. Cohen. So to bring democracy and the 21st century or 
the 20th century into Afghanistan, we make friends with folks 
that don't really do much for democracy or care too much about 
human rights.
    Amb. Blake. Well, we do what we need to do to support our 
troops. And, again, I think the situation is more nuanced than 
you might think and, as the Chairman said in his opening 
statement, most of these countries are governed by people who 
came up under the old Soviet Union and remain in power, and 
they're suspicious of a lot of the things that we're trying to 
encourage.
    But at the same time, I think it's important to recognize 
that there's an entire new generation that has grown up since 
the breakup of the Soviet Union, that are now 20 years old, and 
these are people who are quite agile with the Internet. They 
know how to get around Internet restrictions, they watch 
television, they watch closely what's going on in the Middle 
East.
    And so, again, I think it just underscores that all of 
these leaders in all of these countries have to pay attention 
to what's happening in the Middle East and North Africa, and 
they have to provide openings--political openings, religious 
freedom openings and also economic openings to allow 
opportunities for these young people.
    Mr. Cohen. I realize your specialty and your unique area 
right now is in this area. Have you ever had responsibilities 
in the--in Latin America or the Caribbean?
    Amb. Blake. I have not.
    Mr. Cohen. You haven't? I visited Cuba recently, and when I 
was there, I was told by the bishop that they have pretty much 
religious freedom, and they can worship wherever they want and 
that members of the Jewish faith can worship and really there 
was freedom of religion.
    They're starting to have some opportunities for people to 
engage in free enterprise and have more of a market economy.
    I don't know how you quantify or--the conditions compare to 
Cuba, but it's just kind of--I'm just thinking here about how 
we don't deal with Cuba at all.
    How does Cuba compare as far as human rights and religious 
freedoms with this next to most repressive nation?
    Amb. Blake. [Chuckles.] I'm not much of an expert on Cuba, 
Mr. Cohen. But, again I think we're--
    Mr. Cohen. But if it was a given that they do allow--that 
the bishop says that they can worship wherever they want and 
that--our representative there in Cuba from our government who 
said, I go to every Catholic church in the--Havana's province 
and we have worship every Sunday, and it's not a problem. If 
that--with that as a given, where would they rank compared to 
these countries on a level of religious freedoms?
    Amb. Blake. Well, again, I think there's quite a variance 
in between the countries.
    A country like Kazakhstan has got a reasonably good record 
on the major religions, but again there's still problems with 
respect to these sects, as they call them.
    Even Turkmenistan, which is probably the most controlled of 
all the countries, as I said, has allowed the Catholic church 
now to begin to operate and so--and we are engaged right now in 
a dialogue with Turkmenistan about getting the Commission on 
International Religious Freedom to go to Turkmenistan, and I 
think they've agreed to allow that.
    So we're just sort of setting up the parameters to make 
sure that the visit, when it does take place, will actually 
have real results and will not just simply be a one-off visit 
in which, you know, nothing really results from it. So I think 
that's a good example of the kind of engagement that we're 
really trying to promote and we ourselves attach a lot of 
importance to this.
    Mr. Cohen. Which of these countries, if not all of them, 
have nuclear weapons?
    Amb. Blake. None.
    Mr. Cohen. None.
    Amb. Blake. Kazakhstan had nuclear weapons and renounced 
them, and that was obviously a major nonproliferation step 
forward.
    Mr. Cohen. That's reassuring.
    Amb. Blake. Yes.
    Mr. Cohen. And in reading these notes that the previous 
president--it doesn't give his title, I don't know if he's 
president or whatever--``dictator'' is what he has here--
Niyazov ?
    Amb. Blake. Niyazov.
    Mr. Cohen. He eliminated open law--successor has 
eliminated--oldest policy, such as banning the opera? And 
circus? What did he have against the opera and circus?
    Amb. Blake. [Chuckles.] You'll have to ask him that, Mr. 
Cohen. I don't know.
    Mr. Cohen. Yeah. Well, I'm not too keen on the opera 
either, but banning it? Banning it's certainly a mistake. I 
yield back the remainder of my time.
    Mr. Smith. Let me ask you one final question, Mr. 
Ambassador, and that is on the issue of human trafficking.
    Amb. Blake. Sure.
    Mr. Smith. We know that the TIP report will be coming out 
very shortly----
    Amb. Blake. Yes, sir.
    Mr. Smith. ----early June. And I just wanted to ask you-- 
Uzbekistan, Turkmenistan, Kazakhstan and Tajikistan--are all 
watch list countries, and obviously we're now at that point 
where they need to be moving up or down. It's no longer a 
parking lot, and I'm just wondering what your sense is as to 
progress that they are making, each of those countries.
    Amb. Blake. Thank you very much for that question, Mr. 
Chairman, and let me just say that on trafficking in persons, 
this is something that I personally and that my bureau has 
attached a lot of importance, and we've made this a real 
priority of ours over the last two years--not just in Central 
Asia, but in South Asia where India and Bangladesh are also 
Tier 2 watch-list countries.
    And you know, I think that our efforts and of course those 
with Luis CdeBaca and his whole team have borne some fruit. 
Obviously I don't want to get ahead of the decisionmaking 
process here, but I'm proud to say that we've made a lot of 
progress in Tajikistan. I think we've made good progress in 
Uzbekistan as well where, for the first time--and you'll 
appreciate this, Mr. Chairman, because you worked a lot on 
these issues--Uzbekistan has agreed to set up a committee--an 
interagency committee--to implement and establish an action 
plan to implement its ILO convention requirements. And so, 
that's a fairly significant statement, because in the past, 
we've had problems even getting them to allow the ILO into the 
country to do this kind of stuff.
    So I think that, again, Uzbekistan--and now, they still 
have to do that, of course--but the fact that they're talking 
about now, again, an action plan and really taking steps 
forward on this--they've always had a pretty good record on the 
sex trafficking side, and they've done quite a lot on that, but 
the labor, as you know, particularly on the cotton harvest, has 
been a real issue.
    And so I think that this is a real step forward. Now we're 
going to have to decide how we therefore factor that into our 
rankings and that's a subject that's under discussion.
    Likewise, I can't say we've made as much progress on 
Turkmenistan. I mean, I think there we got to do more. But 
overall our record, I think you'll see, in the SCA bureau's 
going to be--we're going to have a pretty positive record in, 
if not graduating several countries, at least keeping them on 
Tier 2 watch list with kind of solid action plans to move them 
up. So this is something we've really worked hard on and will 
continue to work hard on.
    Mr. Smith. Appreciate that. Appreciate your work on that. 
Is your sense that the possibility of being sanctioned if they 
were to drop to Tier 3, did that play any role? I mean, 
hopefully you used it to its maximum--
    Amb. Blake. Yeah. I'm not so sure it's the sanctions part 
of it. It's just sort of being the Tier 3, being put in the 
international penalty box that really worries a lot of 
countries, and so in that sense, it can be useful in some ways. 
And we try--and certainly we try to leverage that as best we 
can.
    Mr. Smith. [Chuckles.] Leverage away. Mr. Ambassador, thank 
you so much.
    Mr. Cohen. One other question--thank you, Mr. Chair--I've 
got a learning curve. As I said, this is my maiden voyage----
    Amb. Blake. Please, please.
    Mr. Cohen. ----and I read here how this--the president here 
in Uzbekistan got his sole challenger to say he would vote for 
the incumbent. You know, that's terrible, but nevertheless I 
kind of like it with my elections coming up--[laughter]--[you 
know ?] how he achieved that?
    [Laughter.]
    Mr. Cohen. What did he--how did he--that's pretty strange, 
isn't it?
    Amb. Blake. I--I don't know--I would be hard-pressed to 
name who that challenger even was, Mr. Chairman, so I'm not--
Mr. Cohen--
    Mr. Cohen. He was a long shot.
    Amb. Blake. [Chuckles.]
    Mr. Cohen. And then he's got these two daughters he put in 
nice spots in Geneva and Paris; the one was named one of the 
``world's worst daughters.'' I didn't know there was such a 
list. Does Mr. Trump have any children on that list?
    Amb. Blake. I have no comment on that, sir. [Chuckles.]
    Mr. Cohen. You're a good State Department employee. I'm 
going to check that list out, though. Interesting, thank you.
    Mr. Smith. Mr. Ambassador, thank you again so much and look 
forward to working with you going forward.
    Amb. Blake. Thank you very much, Mr. Chairman.
    Mr. Smith. And call us if we can ever be of any 
assistance--
    Amb. Blake. I appreciate it. Thank you so much.
    Mr. Smith. Thank you.
    Mr. Cohen. [Off mic.] That's some bad stuff.
    Mr. Smith. Thank you. I'd like to now welcome our second 
panel, beginning with a man who is no stranger to our 
Commission, Paul Goble, who is a renowned specialist on ethnic 
and religious questions in Eurasia, whose daily blogs are read 
by experts and journalists all over the world.
    He is currently a professor at the Institute of World 
Politics in Washington. Previously, he served in various 
capacities in the State Department, CIA and International 
Broadcasting Bureau, as well as Voice of America and Radio Free 
Europe, Radio Liberty and the Carnegie Endowment for 
International Peace. He writes frequently on ethnic and 
religious issues, and has edited five volumes on ethnicity and 
religion in the former Soviet space.
    Paul Goble is an old friend, as I said. Matter of fact, 
I'll never forget when we had--when I had one of my first 
hearings on the issue of the rising tide of anti-Semitic 
behavior in the OSCE and the U.S. back in the '90s right after 
the Soviet Union's demise, or soon thereafter. It was Paul 
Goble who talked about how it had been privatized, if my memory 
is correct, and that what used to be done by governments was 
being taken over by private citizens with the acquiescence of 
government. And it was a very, very keen insight, and certainly 
was accurate then, and unfortunately in some places remains 
accurate.
    Dr. Stephen Blank is a professor of national security 
affairs at the Strategic Studies Institute at the U.S. Army War 
College in Pennsylvania--since 1989. In 1998 to 2001, he was 
Douglas MacArthur professor of research at the War College. He 
has published or edited 15 books and hundreds of articles and 
monographs on the Soviet, Russian, U.S., Asian and European 
military and foreign policies, as well as testifying frequently 
for Congress on Russia, China and Central Asia, and consulting 
for the CIA, major think tanks and foundations.
    Scott Radditz--Radnitz, I'm sorry--is assistant professor 
in the Jackson School of International Studies at the 
University of Virginia--sorry, the University of Washington, 
Seattle. I was working with somebody from Virginia--
University--earlier; I apologize. So that's the University of 
Washington in Seattle.
    He received his Ph.D. in political science at MIT in 2007. 
His research deals with protests, state building and 
authoritarianism, with an emphasis on Central Asia and the 
Caucasus. Dr. Radnitz's book ``Weapons of the Wealthy: 
Predatory Regimes and Elite-Led Protests in Central Asia'' was 
published by Cornell University Press in 2010.
    This is Dr. Radnitz's first appearance before the 
Commission. And the other Commissioners look forward to what he 
has to say.
    And then finally, we'll hear from Gulam Umarov, who was 
born in Uzbekistan and attended high school in Starkville, 
Mississippi. After graduating from the University of Memphis, 
he returned to Uzbekistan where he launched the first Uzbek-
owned private telecommunications company.
    In 2005, Gulam's father Sanjar Umarov founded an 
independent political movement called the Sunshine Coalition. 
After the Andijan events in May of 2005, widespread repression 
of human rights activists began. Gulam left Uzbekistan for the 
U.S. in September, and Sanjar was arrested in October.
    In March of 2006, he was convicted and sentenced to 14-and-
a-half years in prison. In the United States, Gulam tried to 
get his father released while representing the Sunshine 
Coalition. He also managed various programs funded by the 
National Endowment for Democracy, the Center for International 
and Private Enterprise and Freedom House.
    Sanjar Umarov was released from prison in November of 2009. 
Since then, Gulam has been serving as president of the Silk 
Road Group. I'm very pleased to welcome him to the Commission, 
and look forward to each of our very distinguished panelists' 
comments today before the Commission.
    We'll begin with Paul Goble.

       PAUL GOBLE, PROFESSOR, INSTITUTE OF WORLD POLITICS

    Thank you, Mr. Chairman.
    Mr. Smith. Without objection, the full statement will be 
made a part of the record.
    Mr. Goble. Nowhere in the world has the Arab Spring given 
greater promise of real political change for democracy and 
freedom than in the authoritarian states of post-Soviet Central 
Asia. The reasons for that are clear, but not always clearly 
understood. It is not because these countries are also Muslim-
majority states, and it is not because they too are ruled by 
brutal authoritarian regimes.
    There are Muslim-majority states where the Arab Spring has 
not had an impact, and is unlikely to. And there are 
authoritarian regimes which either by brutality or accident 
have blocked the spread of the ideas of the Arab spring.
    Rather, it is because the events in the Arab world have 
dispelled the myth promoted by the governments of the region 
that fundamental change is impossible or dangerous, and that 
the populations there must put up with the status quo because 
the regimes that rule over them enjoy international support as 
bulwarks against Islamic fundamentalism and supporters of the 
international effort against terrorism in Afghanistan and 
elsewhere.
    It is important to understand that this development is not 
something that is going to lead to immediate change, or to 
demonstrations in the street, and overthrow governments in 
weeks or months. But it is a fundamental change in mental 
attitudes, which matters a great deal.
    The argument that the governments in Central Asia are using 
did not save the authoritarian regimes in Egypt, Tunisia, Libya 
and elsewhere, and they will not save the authoritarian regimes 
in post-Soviet Central Asia, although it is entirely possible 
that the support they've received from abroad and will continue 
to receive from abroad, as well as their own repression, will 
keep them in office for some time. But when a people changes 
its views of what is possible, that is the beginning of the 
change in the societies and the polities on the ground.
    But just as the Arab Spring has affected the peoples of 
this region, so too it has impressed the rulers there. It has 
convinced them that they must take even more draconian measures 
in order to retain their hold on power. And the changes the 
Arab Spring have wrought in the consciousness of the peoples of 
Central Asia thus pose a serious challenge to us. Some of the 
regimes there may believe that they can get away with 
suppressing the opposition with extreme violence as long as 
they blame Islamists or outside agitators, as Uzbekistan 
president Islam Karimov did this week, everything will be well, 
and as long as they support the northern supply route into 
Afghanistan.
    Consequently, it is terribly important that the United 
States find a way of encouraging these governments to yield to 
democracy rather than taking actions to defend their own power 
that will ultimately lead to a conflagration which will produce 
in Central Asia exactly what they say they are fighting 
against. They are the biggest producers of an Islamist threat 
by their own repressive policies. That is not something we are 
very articulate about as a government and as a people, and it 
is absolutely essential we say that.
    That is no easy task, but the Obama administration, I 
believe, deserves a great deal of credit for the way in which 
it managed the situation in Egypt. With all the to-ing and fro-
ing, nonetheless this combined message was conveyed. And that 
approach, one that led to the exit of an increasingly weak 
authoritarian president and has opened the way for the 
possibility of genuine democratic change, I believe, provides a 
model for what we should consider doing when as is inevitable 
the peoples of Central Asia move to demand their rights. 
Whether that will happen this year or next, I do not know. What 
I do believe is that the changes in the minds of these people 
will change the way in which the future of that region 
proceeds.
    First and foremost, the people of Central Asia now know 
that a spring in their countries is no longer impossible. They 
have not believed that for 20 years. There was great hope after 
1991 that they would be in the position to create democratic 
societies, even though in almost none of these countries was 
there a genuine national movement seeking independence.
    In Uzbekistan, it is sometimes said that Uzbekistan did not 
leave the Soviet Union; the Soviet Union left Uzbekistan. But 
over the intervening period, we have seen the governments of 
these regions, and, it should be said, some of their foreign 
supporters indicate that the current arrangements must be 
maintained because any possible change risks something even 
worse: Especially since 9/11, there has been the view that any 
change from authoritarianism could open the way to Islamist 
fundamentalism, which gets it exactly wrong: It is the absence 
of change toward democracy, it is the absence of being willing 
to make concessions, that makes Islamist fundamentalism more 
likely in Central Asia in the coming years.
    The reason that authoritarian leaders use such arguments 
and come down so hard on any display of collective demands for 
freedom is that such demands are contagious. When people in any 
country dare to be free, to live not by lies, as Solzhenitsyn 
said, or to be not afraid, as the Holy Father said in Poland.
    Others elsewhere are inspired to do the same, and that is 
why there have been waves of democratization. We saw a wave of 
democratization in '91 and '92 which was beaten down in the 
name of stability; we are now going to see another wave 
inspired by outside events that will spread through the region.
    I think we have to understand that the greatest defeat to 
al-Qaida in the last month was not so much the execution of 
Osama bin Laden, as welcome as that event was; it is rather the 
movements of the peoples in the Middle East demanding the 
rights of electoral democracy and the basic human rights that 
no one should take away from them. That is the true answer to 
what bin Laden has been propagating.
    But if we understand that for the Middle East, we should 
understand it in spades for Central Asia rather than assuming 
that we have no choice but to support authoritarian regimes who 
promise minimal stability short term so that we can supply our 
troops in Afghanistan. That is a recipe to creating eventually 
states in this region which will be more hostile to us than 
anyone can imagine.
    Clearly, as the events of the Arab Spring showed, the 
peoples of Central Asia are going to need friends and support 
from abroad. What happened in Cairo was the action of the 
Egyptian people, but it was with the support of millions of 
others around the world who were watching television and 
reading and sending text messages. And we need to be open to 
the possibility that we can do the same, and will do the same, 
in Central Asia. Unfortunately, there are reasons to think that 
we are going to be less likely to do that in Central Asia, 
which puts the timing of the Arab Spring for Central Asia off 
some time. On the one hand, we know a great deal more as a 
country and a government about Egypt than we do about the 
countries in Central Asia. It is still unfortunate that in our 
government, these countries are routinely collectively linked 
as the 
``-stans,'' or even worse in some quarters, not thought of as 
countries. We still are talking about former republics, almost.
    And it is the case that we are increasingly taking a short-
term approach to dealing with them, and worrying about 
Afghanistan above everything else. I'm quite concerned that if 
that continues, we will see in Central Asia within finite 
time--that is, within several years--at least one Islamist 
state, and probably more. And that is something that would be 
much worse than any instability that would be produced by 
support for basic human rights.
    We need to get beyond focusing on specific problems like 
drug flow, human trafficking, corruption and the like, and 
start--and as important as all of those things are--but rather 
begin to understand that they are integral parts of the corrupt 
authoritarian regimes that exist in this part of the world, and 
we need to begin addressing the fundamental problem. That is 
something which unfortunately many in this city do not yet 
appear to grasp.
    But if we are to be a true friend to the Central Asians, we 
need to understand that the only approach which gives hope of a 
truly better freedom--or future for them is a commitment by us 
to the careful and continuing promotion of human rights and 
democracy in that region, rather than assuming that occasional 
statements are enough.
    Again, I want to stress that what I'm talking about is a 
mental change, is a mental sea change in the attitudes of 
people. That happened in Eastern Europe in the early '70s; it 
was not for some years later that we saw the fruition of 1989. 
It happened in the Soviet Union, perhaps we can say in 1985; it 
did not reach fruition there until 1991.
    But we should remember a story which circulated in Eastern 
Europe in 1968 because it tells us exactly what all this means. 
There was a Soviet anecdote at that time about two dogs meeting 
at the border of Poland and Czechoslovakia, the time of the 
Prague Spring. The Polish dog in this story is sleek and fat, 
while the Czechoslovak dog is skin and bones. The Czechoslovak 
dog, who is heading toward Poland, asked the Polish dog why he 
was heading toward Czechoslovakia. The Polish dog replies that 
he is doing so because he would like just once in his life to 
bark.
    What we are beginning to see is that people are beginning 
to have an understanding that they may have a chance to bark--
[chuckles]--and that is the real message of the spring, rather 
than the details. It is the beginning of a sea change, a 
recognition that that which is on the ground now need not 
remain there in the future.
    Thank you, Mr. Chairman.
    Mr. Smith. Well, thank you very much for your testimony. 
Dr. Blank?

 DR. STEPHEN J. BLANK, PROFESSOR OF NATIONAL SECURITY AFFAIRS, 
                     U.S. ARMY WAR COLLEGE

    Thank you, Mr. Chairman. Congressman Smith, it is once 
again a great honor to testify to this Commission on a matter 
of critical importance. The Arab revolutions of 2011 have 
captured the world's attention and demonstrated the power of 
the revolutionary idea to spread like wildfire.
    In this regard, they resemble Europe's revolutions of 1848 
and 1989 that were also analogized to the spring. But it is 
precisely this very capacity for rapid spread, and as in 1848, 
for subsequent resistance by imperiled autocracies, that is on 
Russia, China and every Central Asian government's political 
agenda even if those states will not admit it. And Russia and 
China are important here because they stand behind the 
governments of Central Asia.
    Even if these governments suppress news of these 
revolutions, they and their partners in the Russian and Chinese 
governments are extremely concerned about the possibility of 
this crisis spreading to their doorstep. Indeed, we already see 
demonstrations in Azerbaijan, hardly the worst of these 
regimes, and there is talk of demonstrations in Uzbekistan, one 
of the very worst regimes in the area.
    As of May 2011, governments have fallen in Tunisia and 
Egypt, and are on the point of falling in Yemen. However, 
violence has been used or imported by rulers with some success 
in Syria, Libya and Bahrain, attesting to the determination of 
these pillars of the old order to retain their power and 
prerogatives, and perhaps their staying power.
    Indeed, even in the newly constituted governments of 
Tunisia and Egypt, it is by no means certain that democracy in 
one of its variants will ultimately prevail. It already appears 
that the best-organized party and movement in Egypt is the 
Muslim Brotherhood and the constellation of Salafist 
organizations around it.
    As happened in 1848, democrats could fail, and new 
despotisms backed by force could come to the fore, or old ones 
could reconstitute or reinvent themselves. It is indeed quite 
conceivable that despite the excitement of the Arab Spring, the 
practical alternatives before different Arab societies could 
boil down to the new form of military authoritarianism, or 
Islamic and clearly anti-liberal and anti-democratic parties.
    For a revolution to break out in Central Asia in the 
immediate or foreseeable future, it is likewise by no means 
certain that it would bring liberals or convinced democrats to 
power. Democratic outcomes cannot be taken for granted, and 
euphoria is clearly unwarranted.
    Moreover, these regimes have very powerful advantages: They 
exercise total control over their media, and are intensifying 
those controls. They have organized their own forces to 
suppress not only external threats, but also internal 
uprisings.
    As Secretary Blake testified, they have a safety valve as 
long as the Russian economy continues to grow because they can 
then export many of their unemployed young men, the usual 
incendiary element in demonstrations, to Russia for work, and 
benefit from their remittances. And most crucially, they can 
count on Russian and possibly Chinese military protection 
should there be a revolutionary crisis.
    They may well also be able to count on U.S. political 
support as well if they can credibly argue that their 
opposition is Islamist and affiliated with terrorism. This 
would be an especially strong argument in the context of the 
war in Afghanistan.
    There are also other factors working for them: Liberal 
democratic political activists on the ground in Central Asia 
who command genuine authority and mass support are scarce; they 
have been subjected to 20 years of unrelenting and ruthless 
suppression. Moreover, it is by no means clear, neither should 
it be taken for granted, that Central Asian populations embrace 
our concept of liberal democracy and want what we want.
    And past mistakes have undermined the attraction of U.S. or 
European models. There is nothing in their experience to 
justify the simplistic, unfounded and misleading policy 
advocacy that Central Asians want what the United States has.
    Nonetheless, they do want freedom, even if the middle 
classes, the historical mass support for liberal democracy, are 
weak, dependent and lack organizational resources and 
traditions. And civil society may be a concept without a deeply 
rooted reality except in limited situations. These governments 
are, as Paul said, undermining their own position and sawing 
off the limb on which they stand by their repression, and are 
making it more and more inevitable that the day of reckoning 
when it comes will be longer, more protracted and more violent 
than would otherwise be the case.
    Furthermore, these regimes, backed up by Moscow and 
Beijing, have learned from the color revolutions of 2003 to 
[200]5, the Moldovan and Iranian elections of 2009, 
demonstrations in Tibet in 2008 and Xinjiang in 2009. They have 
learned the importance of blocking media transmission of 
foreign news, of repressing or threatening to repress media 
owners and transmission agents. They've learned to tighten up 
their control over their armed forces and police, and to 
stimulate xenophobic backlashes against minorities and to 
batten down the political hatches on their precarious ships of 
state.
    My longer written statement goes into detail concerning 
those tactics. But what has long been clear is the fact that 
these policies not only make it likely that the inevitable day 
of reckoning for them will likely be even more violent an 
upheaval than would otherwise be the case, and that their 
repressive policies create serious obstacles, not just to 
democratization and democracy promotion, but also to regional 
security and to U.S. policy.
    Therefore, the U.S. Government must, under the 
circumstances, balance its priority attachment to these 
governments' valued allies in the war in Afghanistan with a 
robust and visible commitment to democratization and its 
insight into the fact that these regimes are ultimately 
undermining their own term--their own long-term security by 
their increasing harshness and greed.
    Thank you.
    Mr. Smith. Blank, thank you very much, and, without 
objection, your full statement will be made a part of the 
record as well. Doctor Radnitz.

     DR. SCOTT RADNITZ, ASSISTANT PROFESSOR, UNIVERSITY OF 
                           WASHINGTON

    Thank you, Mr. Chairman. Thank you, Mr. Chairman, and 
members of the Commission for letting me testify at this very 
important hearing on the potential impact of the Arab Spring in 
Central Asia, a region vitally important to American interests, 
but one that is poorly understood and often neglected by 
scholars and policymakers. If you have no objection, I'd also 
to read a shorter version of my statement.
    Mr. Smith. No objection.
    Dr. Radnitz. Thank you.
    Mr. Smith. Statement will be made part of the record.
    Dr. Radnitz. The Arab Spring is a watershed event in the 
history of the Middle East, a part of the world that was 
unfortunately bypassed by the global trend of democratization 
of the past several decades. The events in Tunisia and Egypt 
offer new hope to millions whose future prospects have long 
been stifled by corrupt and repressive elites. The tremendous 
force behind these grassroots uprisings caught many off guard, 
not least the rulers themselves.
    The people of post-Soviet Central Asia have also endured 
hard times over the past two decades. These countries are led 
by some of the most repressive leaders on the planet. Human 
rights abuses are rampant and basic freedoms are severely 
curtailed.
    Yet people in Central Asia, like others around the world, 
yearn for democracy.
    Unfortunately, I believe the grassroots uprisings in the 
Arab world, while inspirational to many, are unlikely to take 
root in Central Asia due to the region's inhospitable soil.
    I want to highlight two sets of factors that I think are 
most relevant. First is a weakness of linkages between the 
Middle East and Central Asia. Second is the capacity of 
authoritarian regimes in Central Asia to withstand challenges 
from below.
    A critical feature of the spread of protest movements 
across the Arab world is the dense cultural and economic ties 
between societies. Like the Eastern European revolutions in 
1989, the Arab Spring is being driven by citizens separated by 
national boundaries who have never met, but nonetheless face 
similar challenges and share a common identity. Arab 
citizenries also share connections through various channels of 
communication. People in one Arab country could rapidly learn 
of protests in other states through international travelers 
such as businessmen or labor migrants, by telephone or email, 
and through blogs, social networking websites, and cable 
channels like Al-Jazeera.
    The effect of these dense networks of communication were 
visible in the spread of protests from Tunisia to Egypt, Libya, 
Yemen, Bahrain and beyond.
    But these forces run up against major obstacles when they 
reach the former Soviet Union. Even 20 years after the breakup, 
the attention of former Soviet states and citizens is still 
directed inward, toward the territory of the former empire. 
These states share similar kinds of regimes and forms of 
corruption. Their citizens still speak Russian as a first or 
second language and watch Russian television, including pro-
government news broadcasts. Russian news, unsurprisingly, has 
portrayed events of the Arab Spring as chaotic, violent, and 
provoked by Islamic radicals. People in the former Soviet Union 
continue to interact personally through ties of trade and labor 
migration, and virtually through the Russian-language 
blogosphere.
    When events happen in the Middle East, dissidents and 
opportunistic politicians in post-Soviet states may take 
advantage by organizing rallies as they have done in Armenia 
and Azerbaijan thus far and are rumored to be planning in other 
states. But the Arab Spring is unlikely to embolden the mass 
public. A success in one Arab state has a galvanizing effect on 
other Arab societies, but people in the post-Soviet region have 
no reason to believe that the constraints on their political 
and civil liberties in their own countries have changed 
significantly.
    Even the societies of Central Asia, which are predominantly 
Muslim, tend to look north rather than south or west. Economic, 
cultural and political ties with Russia remain strong, despite 
efforts of the region's leaders to distance themselves from the 
former imperial corps. Young people seeking work abroad from 
Central Asia learn English, or sometimes Turkish, but rarely 
Arabic.
    There is a recent precedent, though, for the spread of 
protests between former Soviet states, and that is the so-
called ``color revolutions'' in Georgia in 2003; Ukraine, 2004; 
and Kyrgyzstan, 2005. These uprisings happened in a short time 
period and involved similar dynamics, in part because activists 
communicated across borders and learned from one another.
    At the same time, however, the region's governments also 
showed a willingness to apply lessons from the mistakes of 
their counterparts, and this brings me to my second point: the 
resilience of Central Asian regimes. In response to these color 
revolutions, rulers took measures to shore up their power. 
Examples included the closure of Western nongovernmental 
organizations; the expulsion of the Peace Corps from Russia; 
the arrest and harassment of journalists and human rights 
activists; the use of violence against peaceful demonstrators 
in Azerbaijan and Belarus; the Kremlin's creation of the pro-
government youth movement Nashi and copycat groups in other 
states; the investment and building up of ruling parties in 
Russia, Kyrgyzstan, Kazakhstan, Tajikistan, Georgia, and 
Azerbaijan; the use of surveillance technology to monitor 
public gatherings and Internet activity; and the 
nationalization or increased state control of private 
businesses.
    The upshot of all these measures is more resilient 
authoritarian regimes. Regime strength can be viewed as a kind 
of natural selection, in which the weakest ones were 
overthrown, while those that adapted survive.
    Central Asia also suffers from a deficit of civil society 
in comparison with the Middle Eastern states. Despite their 
limited political freedom, Tunisia, Egypt and others in the 
Middle East have organized trade unions, a history of student 
activism, Islamic movements, and political parties with 
grassroots appeal. Central Asia, in contrast, has few 
organizations that are independent and have popular support so 
that they can facilitate mass protests.
    To conclude my remarks, I just want to say a word about 
Kyrgyzstan, which is an exception in a lot of ways--people 
believe it may give cause for hope. However, although the 
country has seen many protests, these are mostly not grassroots 
demands for democracy. The 2005 Tulip Revolution occurred when 
businessmen and politicians led protests against Askar Akayev, 
the president, after losing parliamentary races, inadvertently 
causing his downfall. Since then, politician and businessmen 
have continued to use street protests to advance their 
interests. Ordinary people, although they sometimes protest on 
their own, still find it hard to make their voices heard.
    Kyrgyzstan, rather than Egypt and Tunisia, may be the most 
instructive case for the future of Central Asia. As Kyrgyzstan 
shows, opposition may not come from below or occur through 
conventional channels such as political parties or grassroots 
organizations. Threats to regimes can also come from above: for 
example, rival political elites or businessmen who 
strategically ally with the president, but also have their own 
power base.
    If the president's coalition collapses abruptly, it will 
not necessarily lead to democracy, but may, in fact, be 
violent. For 20 years, the rules of managing power in countries 
such as Kazakhstan, Uzbekistan and Turkmenistan have worked to 
safeguard elite interests. But these elites have no experience 
in dealing with rapid political change, and may not be able to 
resolve their differences peacefully when the old rules no 
longer function.
    In short, political change will come eventually to Central 
Asia, however their governments--however stable their 
governments appear on the surface. But change will not 
necessarily come from below. It may instead come from within 
the regime. And if this happens, we will see new opportunities 
for democratization, but also a new set of challenges.
    Thank you, and I look forward to answering your questions.
    Mr. Smith. Doctor Radnitz, thank you for your testimony and 
insights. I'd like to ask to Mr. Umarov if you would proceed.

          GULAM UMAROV, SUNSHINE COALITION, UZBEKISTAN

    Thank you Mr. Chairman, Mr. Cohen, for the opportunity to 
discuss the future of democracy in my homeland. I would like 
also to take this opportunity to personally thank the members 
and staff of the Commission for their assistance and support in 
securing the release of my father, Sanjar Umarov, from an 
Uzbekistan prison in 2009. Our family is forever grateful for 
the unwavering support of the members of Congress: Senator 
Alexander, Senator Corker, representatives Mr. Cohen and Mr. 
Tanner; State Department overseeing Central Asia region headed 
by Honorable Assistant Secretary of State Robert Blake; and all 
the governmental agencies working closely with National 
Endowment for Democracy, Human Rights Watch, and other human 
rights groups around the world. We particularly want to 
recognize U.S. Ambassador Richard Norland and his staff at the 
U.S. embassy in Tashkent for their enormous support in securing 
my father's release and bringing him safely back to on American 
soil.
    In thinking about the impact that the Arab Spring may have 
on the Central Asia republics, one needs to remember the recent 
history of our region. My country, Uzbekistan, was founded on 
the ruins of Soviet Union. As a result, we have never had a 
tradition of democracy, individual rights, freedom of assembly, 
or freedom of speech. We have always been ruled from top with 
no opportunity for average people to impact our government. 
Sure, people are tired of permanent rulers and tyranny. But 
there is no tradition of free speech, and there is certainly no 
room for any expression of dissent.
    It is also important to remember that the vast majority of 
Uzbekistan citizens are very, very poor. Tunisia, Egypt, Libya 
and Syria, on a relative scale, possess much more wealth than 
people of Uzbekistan. Their citizens, therefore, have a closer 
connection to the modern world and great expectations for the 
future.
    Moreover, because of the terrible poverty in Uzbekistan, 
young people have left the country for work in Russia and other 
faraway places. Those that are left behind, especially in the 
countryside, are elderly women and men. This does not mean that 
people are happy with existing regime. It means their 
livelihood is suppressive to this regime. Discontent grows 
widespread, but almost everyone is too preoccupied trying to 
put food on the table to think of anything else.
    We also need to remember some of the specific 
characteristics of the Uzbek regime. Time and time again, 
entire extended families are destroyed because a son, a nephew 
or cousin has offended even the most junior of bureaucrats in 
the local administration. The use of violence, terror and 
torture are so common that they have ceased to shock the 
society and are, in a very sad way, accepted as the regular 
order of things. It is no surprise that people stay off the 
streets, fearful that the events that took place six years ago, 
in May 2005, will repeat again.
    Nonetheless, there is a growing expectation of change in 
Uzbekistan that is based not on democratic events, but on 
demographics. The current leadership is old, and behind-the-
scenes struggle for power has begun.
    Evidence for this power struggle can be seen in the often 
irrational actions of the government. While 2011 was supposed 
to be the year of the support for small and medium businesses, 
at the same time, the government began to destroy all the 
marketplaces, bazaars, in major cities including the capital 
city of Tashkent. This policy was adopted in the name of ``city 
beautification'' and ultimately destroyed thousands of jobs and 
raised the cost of living for everyone. Why? One can only 
deduce that the disruption will enrich one faction of the 
governing elite at the expense of another.
    As a change in the government is inevitable, it will be 
useful to think about ways in which the United States can 
further engage with the government as it evolves.
    From our experience in the field of human rights, we took 
cases to the United Nations, engaged in extensive advocacy in 
the United States, and pursued international legal remedies. 
But of course, it would be better if you could achieve the same 
aims through an open dialogue with authorities. The imposition 
of sanctions or even the threat of sanctions has proven to be 
counterproductive. As a result, the United States should 
consider a series of incentives that could be implemented, 
provided that Uzbekistan accepts responsibility for its action.
    Of primary importance is a continued assistance for use--
assistance reducing threat posed by religion extremism. Let 
there be no mistake: There is an active, an increasingly 
assertive extremism threat in Uzbekistan. In order to address 
this threat, United States needs to focus not only on police 
and military action, but also on underlying causes of religious 
extremism in Uzbekistan.
    Among these are a widespread sense of injustice caused by 
the absence of functioning civil institutions, monopolies in 
virtually all spheres of business and the destruction of 
Uzbekistan's most popular, most important asset: its 
agriculture. There are specific initiatives that might begin to 
address these issues:
    A concerted effort to support the authority and operation 
of the parliament. If Uzbekistan can make a real transition 
towards democracy, a truly functioning parliament is essential.
    Demonopolization. Over the past few years, the United 
States has invested tens of millions of dollars in the 
development of the Northern Distribution Network to support 
operations in Afghanistan. Almost all of the economic benefits 
occurring from operation of the NDN benefit a very small group 
of insiders. The United States should use its investment in the 
Northern Distribution Network to encourage the growth of 
competition in Uzbekistan.
    Finally, as has been noted by the Senate Foreign Relations 
Committee, the mismanagement of the water resources in Central 
Asia and Uzbekistan is causing great damage to agriculture, 
which accounts for two-thirds of the population's livelihood. 
The U.S. should greatly increase its support for the 
development of local, national and international water 
management, SIMS [ph], in the region.
    In conclusion, just as Egypt has been considered the 
linchpin of the Arab world, so Uzbekistan is considered to be 
the linchpin of Central Asia. All good citizens of my homeland 
fervently pray that we can avoid a situation where the people 
utterly give up hope and take the streets. Should this happen, 
it will be disaster, not only for Uzbekistan, but for the 
region as a whole.
    Thank you.
    Mr. Smith. Mr. Umarov, thank you very much. Let me just ask 
you: When you talk to the people taking to the streets, what do 
you think it'll look like on June 1st? What is this called 
civil disobedience--could you elaborate?
    Mr. Umarov. Well, civil disobedience has been called from 
abroad to Uzbekistan. In my personal belief, I don't think 
anybody will go on streets or they will protest. So, yes, this 
has been very promoted from the outside of Uzbekistan, but from 
within Uzbekistan, no one really knows about it other than 
militia, police, and the people who have access to the 
Internet, which is very limited number of people.
    Mr. Smith. Let me just ask you, in terms of how is 
information conveyed to the Uzbek people: Are the Chinese 
cyberpolice advising the Uzbek government in a way that 
Lukashenko in Belarus is being, we're told, mentored in how to 
use the Internet for those few people who might have it so that 
dissidents are spotted and apprehended as they do in China, in 
Vietnam and elsewhere? How do people get information? Is it all 
through the state-run media?
    Mr. Umarov. I'm sorry.
    Mr. Smith. No, please.
    Mr. Umarov. If this is the fact, I'm not aware of any 
Chinese representatives advising our government. I just know 
that our secret service is very good in making sure that 
they'll stop whatever is going--whatever might happen before it 
will happen. They're very good at it.
    Mr. Smith. Let me just ask you, and the others who might 
want to respond to any of this. Was Andijan kind of like the 
Tiananmen Square of--did that send a message that if you take 
to streets, you'll be killed, you'll be slaughtered? We know 
that the Chinese government has had numerous--matter of fact, 
the biggest was in response to the one-child-per-couple policy 
where a mini-Tiananmen Square occurred and people were just 
brutalized, especially women, and I held a hearing on that a 
year and a half ago. But I'm wondering, did Andijan have that 
chilling effect that they were looking for?
    Dr. Blank. I think it would appear that Andijan had a 
chilling effect on domestic unrest in Uzbekistan and perhaps in 
Central Asia as a whole. But beyond that, it also crystallized 
the emergence of a kind of coalition or alliance of states 
determined to prevent the color revolutions at that time, or 
anything like that from coming on. If you follow what these 
governments learn from the color revolutions, and what they 
have learned from China's and Iran's efforts to deal with 
internal unrest in the examples I cited, it's very clear--and 
for example, there's a big article in today's Financial Times 
about this in China's case--that they have emulated each other.
    There's a learning curve going on. I have little doubt that 
officials in all of these states are sharing information and 
experiences with each other in order to prevent this from 
happening. So I would suspect that Andijan had a chilling 
effect, but it also had a chilling effect not just because it 
frightened anybody who might think of opposing, but because it 
gave strength to the resistance of the counterrevolutionaries.
    Mr. Goble. I think it was a defining moment in three ways, 
just to extend what's been said. First, I think it was an 
effort that was directed at a group of people who were not 
primarily Islamist, but by using the invocation that they were 
Islamist, the government ended up becoming an advertisement for 
the worst opposition rather than the best.
    Second, I think the fact that calling the people who stood 
up in Andijan Islamists or Islamic radicals played so well in 
so many places in Europe and the United States as a 
justification, and there were a great number of people in the 
West who were saying that if these were Islamist radicals it 
was OK. It taught the people in the regimes how they could 
present what they were doing against them.
    And third, I think it is that Andijan is responsible for 
some of the things that we're talking about today. And that is 
the notion that societies in Central Asia, which lack many of 
the traditions that we know about in Eastern Europe, are likely 
when they go--when there is a public manifestation--that it 
will turn to violence. And that has made it even more 
difficult.
    And I'd just like to footnote the business about June 1st, 
I believe that has probably been arranged as a lost battalion 
strategy by the Uzbek security forces that is only going to be 
too pleased to say, look, no one showed up, as a way of 
demobilizing the opposition.
    But all of these things, all these things taken together, 
have the effect of meaning that those who will continue to 
oppose the regime will be the people we say we most don't want 
to see in power. And that the people that we would like to be 
able to see come to power will be less likely to take action. 
But I really think that we're, as much as these governments 
move to control the media and the Internet, the amount of a 
success they have in that direction should not be overstated.
    The splash effect from a small number of people, who have 
access to information to spread it in society, is rather larger 
than we suspect. And if you look at the way in which 
revolutionary information or transformational information has 
spread, you don't need all that many people to be the primary 
nodes; then it becomes spread elsewhere. And I think we make a 
mistake if we simply measure the number of people who have an 
Internet account and say that's the measure of the impact of 
the Internet on that society.
    Dr. Radnitz. So I think the Andijan Massacre was also an 
attempt by the government to set an example, and in particular 
because the Andijan protests occurred two months after the 
Kyrgyzstan revolution of 2005. And at the time there was real 
fear in Uzbekistan and other places that there was another 
domino to fall. And so I think at that moment the president of 
Uzbekistan decided to put his foot down and say, right, this is 
where it ends.
    But it's also instructive of how, under certain 
circumstances, people are willing to come out onto the streets 
and assert their demands even though it might be dangerous. In 
Andijan these protests, as Mr. Goble mentioned, occurred 
without the use of technology. Facebook wasn't even around in 
2005.
    Word spread from person to person, through local 
neighborhoods, perhaps through mosques even though Imams are 
appointed by the state, and gradually it built up. And I think 
somewhere around 10,000 people ended up joining these protests 
in the central square in Andijan. And it was at that point, I 
think, that they decided, you know, if we let this go on longer 
it's going to get out of hand.
    It's also worth noting that these protests didn't spread 
beyond Andijan, it was a localized event. It was people 
rallying around a local grievance; that is, local community 
benefactors had been arrested. So it was important for Andijan, 
but people in neighboring provinces of Uzbekistan perhaps saw 
what was going on but didn't see that it was so relevant for 
them and that's why it didn't spread more widely.
    Mr. Smith. Let me ask the next question with regards to the 
consequences of having the Kazaks in the chair-in-office, have 
any of you looked at whether or not that had any positive 
consequences or was it nothing?
    Mr. Goble. Mr. Chairman, I can only agree with your 
opposition to Kazakhstan being a member of the--to getting the 
chairmanship-in-office. One of the great tragedies that has 
happened since 1991 is propensity on the part of Western 
governments to label as democracies countries that are anything 
but. To act as if having ceased to be communist, the only 
remaining option is to be a liberal democratic free-market ally 
of the United States, and to call people democrats just because 
they're not communists anymore is one of the things that we 
have done that has devalued democracy in the eyes of many 
people.
    I believe that kind of activity played a significant role 
in the recession of interest in promoting democracy in these 
countries because democracy came to be seen--as defined by us 
for them, as opposed to defined by us for us--as not all that 
wonderful. I think that it's useful if Kazakhstan is in the 
chair that people can say, you are in the chair, therefore you 
should do certain things. But I think the idea that we should 
reward a country that is, shall we say, far from democratic in 
any real sense with that position was a mistake. And is part of 
a much larger set of mistakes to label as democratic things 
which are not.
    I wish we would be willing to say that just because you're 
[sic] a communist doesn't make you a democrat. And that's 
something we have been very, very reluctant as a country to say 
in this part of the world.
    Dr. Blank. Yes, fine. I'd like to add that I think your 
opposition to giving this plum to Kazakhstan was completely 
justified. We heard that they made some minor steps forward, 
but in reality during this period when they were, as you might 
say, on probation, before assuming the leadership and then 
after the leadership, they passed draconian Internet and media 
laws, they had an election which made the president president-
for-life--they just had a snap election, and Mr. Zhovtis, who 
is the author of this human rights plan, is sitting in jail on 
trumped-up charges, although he was in an automobile accident.
    And even more now the government is talking about creating 
what can only be described as a Potemkin opposition, the 
government's own opposition party, in order to ensure somehow 
that when President Nazarbayev leaves office that he can be 
certain that the, as the Russians would say, the dacha stays 
within the family. [Laughter.] And that nothing untold would 
happen to jeopardize the elite's security.
    Rewarding Kazakhstan by making it OSCE chairman I think 
undermines the credibility of the OSCE, it weakened its ability 
to stand up for human rights under its mandate, and I think 
suggests to other governments who are members of the OSCE, but 
whose record leaves something to be desired, that the mandate 
for human rights is not something they have to take all that 
seriously.
    Mr. Smith. I appreciate that. I have a markup in the 
Foreign Affairs Committee on Libya resolution and the vote is 
at 4:45, but Commissioner Cohen has graciously agreed to chair 
the remainder of the hearing. And I do thank you for your 
extraordinary insights; it does help us do our job better, and 
also by extension all who will read the transcript because it 
does get widespread publication. So I want to thank you so much 
and please continue providing those--the information to our 
Commission, it is most helpful. I thank you. Commissioner.
    Mr. Cohen. Thank you, sir. Mr. Umarov, where is your father 
now?
    Mr. Umarov. He's in Germantown.
    Mr. Cohen. Germantown?
    Mr. Umarov. Germantown, yes sir.
    Mr. Cohen. He didn't want to get complete freedom and move 
to Midtown?
    Mr. Umarov. [Chuckles.] No, not yet. He's thinking about 
downtown though.
    Mr. Cohen. Tell me, what did he tell you about his time 
when he was in prison? How was he treated?
    Mr. Umarov. He wasn't treated very well. I mean, though it 
was a very long time where he had no communication with anyone 
at all. His last three months before he was released he was 
placed in psychiatric department in the prison hospital. I 
mean, he was talking about all sorts of torture that was 
applied to him where they would basically cuff him to the bed 
and there was--it's not a very pretty picture.
    If you look at him right now, though, he's already got the 
belly and he's looking great. The only mark of the torture is 
his voice; he still has the harsh voice. I mean his voice cords 
were torn apart due to torture. That's the only physical--
    Mr. Cohen. Was he beaten?
    Mr. Umarov. Oh he was beaten and--I mean, all sorts of 
things. Yes, beaten as well, on several occasions, not once.
    Mr. Cohen. And his crime was forming this political party?
    Mr. Umarov. Well, officially they put all different crimes, 
of course. But, it was very interesting, all the problem--
trouble began right after he announced about a political 
movement, Sunshine Coalition. So it was, like, literally right 
afterwards. And nothing happened before and then all of a 
sudden all of the relatives began having troubles. And it's not 
just our family but our extended family. They were forced to 
leave the country and they're still in many, many places, I 
mean, different places.
    Mr. Cohen. Was that typical of how the prisoners were 
treated or was he treated particularly worse?
    Mr. Umarov. It is typical for political prisoners. For 
other prisoners, it's not quite that typical but, I mean, they 
also have other ways to get even the food to them. I mean, 
their relatives, their family members, at least are able to 
pass the food--some packages from home to them. In our case we 
couldn't even do that.
    Mr. Cohen. Did you get a chance to visit your father during 
those four years?
    Mr. Umarov. My mother did, I hadn't had a chance because it 
was too dangerous for me to go back there and it was 
unpredictable if I would be arrested or not due to my activity 
here in the United States.
    Mr. Cohen. Where are you spending--are you spending time 
totally in the United States now or are you over there as well?
    Mr. Umarov. I'm totally here in the United States.
    Mr. Cohen. OK. Has there been cessation of activities 
against your family since your father's release?
    Mr. Umarov. We haven't experienced any yet, but we'll see 
what's going to happen after this public event. We'll see.
    Mr. Cohen. You don't expect much on June 1st?
    Mr. Umarov. On June 1st? No.
    Mr. Cohen. What is this--the group that's putting this 
together, the--what's the name, the People's Movement?
    Mr. Umarov. The People's Movement, people from--basically 
it's still the same people. I mean, one day they--it's called 
one movement and another day it's another movement, but the 
core of the group, it's all the same. I mean, this is the same 
group of people that are trying to make a difference in the 
country. I mean, they are active. But they're outside of the 
country.
    Mr. Cohen. They're outside of the country?
    Mr. Umarov. They're outside of the country, correct.
    Mr. Cohen. I see, I see. Otherwise they'd probably be 
arrested, I presume?
    Mr. Umarov. Most likely.
    Mr. Cohen. Yeah. What's happened to the group that your 
father was involved with or started? Was it the Sunshine Group, 
or--?
    Mr. Umarov. Sunshine Coalition? The people are still there, 
they're just--it's wiser not to talk about it; at least openly. 
But folks are there, organization is not functioning, but 
whatever everyone else can do they're trying to do in terms of 
influencing the direction that the country is going to be 
going, because it's--we also, we don't want to see Uzbekistan 
to become the next Afghanistan.
    Mr. Cohen. When you say the next Afghanistan, and this 
could be for anybody on the panel, what I find interesting is 
that these countries are so repressive and have such a poor 
record on human rights, political freedoms, anything we find 
basic to civilization. And yet, we support these countries. Mr. 
Goble, you were saying we're creating the seeds of an Islamic 
takeover by not permitting democracy, these countries are--
    Mr. Goble. That's right.
    Mr. Cohen. And by supporting these countries in essence 
we're somewhat sureties for [inaudible] to come.
    Mr. Goble. I think it could be said that we are 
facilitating in some respects, by looking the other way or 
talking about nuanced changes, rather than being very clear 
that what these countries are doing, in many cases, are 
creating--are taking the kinds of actions that will lead to 
eventually exactly what they say they, and we say we, are 
against.
    If you do not allow any kind of organized opposition, if 
you make all opposition illegal, then anyone who opposes the 
system is engaged in an illegal activity. What that means is 
that people who are angry enough will be underground, or they 
will be out of the country and come in underground. People who 
are in that kind of environment are vastly more likely to 
pursue an authoritarian agenda, a revolutionary agenda, that 
would bring--that would, when/if it achieved power be as 
repressive or even more repressive than the existing regimes 
and lead to a whole variety of violence.
    What we need to do, and what I fear we are unwilling to do 
because we take a very short-term approach to these things, is 
to make it very, very clear any time we interact with them that 
they are taking steps that are against their own interests, 
their own interests of stability and progress of their country, 
and making the likelihood of extreme radicalism more--its 
emergence more likely.
    One of the reasons that we see the emergence of very 
radical groups around the world is because they come out of 
societies where basic possibilities of participation are 
prevented, and therefore people seek other ways. I once had 
occasion to tell the former president of Azerbaijan, Heydar 
Aliyev, that the best thing that could happen to Azerbaijan was 
his reelection with 60 percent of the vote, because if he got 
60 percent of the vote that would mean there would be other 
people who got 40 percent. But he came out of a society which 
thought that elections are referenda and therefore 90 percent 
plus is the only possible answer.
    The consequence is that you deprive yourself of, not only 
safety valves, not only the expression of multiple points of 
view, but what is especially serious, and it's been alluded to 
in several of the comments here, democracies make possible 
succession. No other system does that very well. Except, 
perhaps, a monarchy if you have enough children and even that 
doesn't always work, as we have reason to see.
    If you have elections, you have a process by which you can 
replace people and go forward. We are looking in a number of 
these countries to aging leaderships which will eventually go 
away because the actuarial tables will kick in. And if there is 
no process, there will be instability, which some of the worst 
elements will exploit.
    And then, when the worst elements exploit it, those who 
want to maintain an authoritarian system will invoke that fact 
as justification for behaving even in a more authoritarian 
fashion. And we will see this cycle up in exactly the wrong 
way. Because we have certain short-term goals with respect to 
these countries, and because we have, I think, utterly failed 
as a society in the post-communist world to make clear that 
just because you're not a communist doesn't make you a 
democrat, because we say some very strange things about people 
who are anything but democrats, with a small ``d.''
    We have made that process less--that transition in a 
positive direction--less likely. We're not to blame for all of 
this, we're not to blame for Islam Karimov's thuggishness. What 
we're to blame for is failing to give aid and comfort by our 
statements that Islam Karimov's regime is not a democratic 
regime. That what it is doing is producing the extremism that 
it says it is fighting. And that if it wants to fight extremism 
in a serious way, it's got to open up to a more democratic 
system, or you will get extremism. That is the lesson of 
authoritarian regimes around the world.
    Mr. Cohen. Dr. Radnitz, you wanted to comment?
    Dr. Radnitz. In terms of American policies towards the 
region, because you asked, why is the U.S. still working with 
these authoritarian regimes. If you look over the past 20 years 
the U.S. has actually pursued a wide variety of policies 
towards the Central Asian countries, sometimes more engagement, 
sometimes less, sometimes more incentives and foreign aid, 
sometimes sanctions or the threat of sanctions.
    And the result, more often than not, has been they will--
those regimes will continue to do what they're doing because 
the leadership has their own interests and they do pretty well 
from the system as it is; mostly thinking short-term. They also 
get support from Russia and China when the U.S. withdraws our 
foreign aid. And so, in the long run, I think we've discovered 
that our leverage is quite limited.
    I think the Obama administration's sense of its policy 
toward is that, we tried emphasizing democracy and human rights 
previously, we tried speaking out, shaming regimes for their 
human rights abuses. In the end it hasn't made any difference 
to human rights on the ground. And so the Obama administration 
has been prioritizing operations in Afghanistan over all else.
    Whether that's the correct policy or not, I'm not sure. But 
I think we've been extremely frustrated over many years by the 
fact that we tried everything and everything in the middle and 
we're still stuck where we began.
    Mr. Cohen. Let's assume that tomorrow Jimmy McGovern and 
Dennis Kucinich take over the world and we withdraw from 
Afghanistan, and then the day after that we go back to the 
government like it is today. How does our government deal with 
the 
``-stans'' in Central Asia if Afghanistan is not a factor?
    Dr. Blank. If I may, if Afghanistan is not a factor then 
our current strategy towards Central Asia, regardless of who 
the president may be, has disappeared because if--every 
statement of official U.S. policy toward Central Asia, not just 
by this administration but by the Bush administrations, both 
terms, and even before that the Clinton administration, took as 
a priority geopolitical interests of the United States.
    Since 2001 that has been the war in Afghanistan and it is 
understandable that this war, which is very important to us, 
has taken priority and we can see that it has taken priority 
over the promotion of democracy. Indeed, Secretary Blake's 
statement today is very clear, where he said in summation, and 
I quote, ``In conclusion, we seek a future in which the United 
States and the countries of Central Asia work together to 
foster peace,'' that means victory in Afghanistan, ``security, 
economic development and prosperity, and advance the democratic 
values and human rights that unite free nations in trust and 
respect.'' Democratic values comes last.
    And that, unfortunately, has been the case, despite the 
fact that many private and public organizations within and 
without the government have and are continuing to make efforts 
both privately and publicly to advance human rights. So it's 
not a question of Congressman Kucinich or former Senator 
McGovern or, let us say, the extreme right-wing of the 
Republican Party. It is rather the national interest of the 
United States. It's not a partisan political--
    Mr. Cohen. Oh, I understand that, but it's all about 
Afghanistan, really.
    Dr. Blank. It is.
    Mr. Cohen. So I'm saying--but if Afghanistan disappears--
    Dr. Blank. Then we have no strategy for Central Asia, plain 
English.
    Mr. Cohen. You don't think--but do we withdraw some of our 
foreign aid, do we eliminate our air base in--
    Dr. Blank. Well, on the conditions of--given the economic 
conditions in the country now, and some statements to the fact 
that we are going to withdraw from Central Asia and the fact 
that, in the case of Manas in particular in Kyrgyzstan, there 
is ferocious Russian pressure to get it out. It strikes me as 
being entirely plausible that if the Afghanistan were to go 
away, hypothetically, then the base in Manas would leave with 
it, and with it a lot of U.S. military and economic influence 
including the Northern Distribution Network.
    Mr. Cohen. So we could save a lot more money with getting 
out of Afghanistan than just simply the money we're spending in 
Afghanistan. We could save money throughout the Central Asia 
territories as well.
    Dr. Blank. No, because what you would do then is probably 
create a situation that brings about much more security dangers 
within the region. I mean, there is a threat from Afghanistan 
to the governments and that's real enough threat. But the real 
threats in Central Asia are from within and between states.
    If you look at Uzbekistan, for example, Uzbekistan has 
terrible relations with all of its neighbors and almost went to 
war with them last year. As I pointed out in my paper, all of 
these states are spending more and more money on military 
budgets because of, A, their determination to repress domestic 
unrest and B, they feel threatened by their neighbors.
    So even if Afghanistan were somehow to be converted into a 
Jeffersonian democracy, that would not alleviate the 
fundamental security equation in Central Asia. We would save 
money from combat operations in Afghanistan, but the amount of 
money being spent to maintain Manas or other government 
programs in Central Asia is quite small relative to that sum. 
And by creating, excuse me, a field for larger security crisis 
we don't end up saving very much at all. This is not a question 
of dollars and cents but of fundamental strategic conception 
and policy.
    Mr. Goble. It also is terribly important to understand that 
making the Afghan war go away means getting the Americans out 
of it. We've left Afghanistan before. The fundamental strategic 
problem that Afghanistan presents is that Afghanistan and the 
Pashtuns spread into the North-West Frontier province of 
Pakistan which has nuclear weapons. And that the instability 
that would happen in Pakistan with our departure would 
necessitate ultimately some kind of re-American intervention 
down the pike which would probably be even more expensive.
    It is the inconstancy of our policy, our in-and-out in 
Afghanistan, our in-and-out advocacy of democracy that has, 
more than anything else, subverted what we say we want to 
achieve. I'm much more worried about Afghanistan spreading into 
the North-West Frontier provinces of Pakistan because Pakistan 
does have nuclear weapons, than I am about its impact north. 
But it will spread north, because the Northern Alliance is a 
heavily Tajik organization with people across the boarder--
there the IMU is in the North-West Frontier provinces and also 
in Afghanistan, which means you're talking about an Uzbek 
threat emerging if there is no longer an American force to 
contest it.
    If we define what we were going into as only being a 
counterterrorist operation that's one thing. We have now faced 
a counterinsurgency which is something quite different. And 
we're also facing the possibility of what is in effect an 
internationalization of the war with the North-West Frontier 
province being drawn in.
    Now, if we make a decision that we want to save money by 
not fighting in Afghanistan now, that is a decision that I can 
imagine being made. The consequences of that, however, will be 
that there will be the spread of the fighting that is in 
Afghanistan and it will go into Pakistan and it will constitute 
a greater security threat to the United States. And as we pull 
out of Central Asia, as in our eyes we draw down we will see 
others all too willing from the Shanghai Cooperation 
Organization's end to invest in there.
    And if, as we do all of this, we do not make very clear 
what it is we want, I've often had the opportunity to testify 
before Congress and my usual response to--the first question I 
get is, what do we do? And I would say the first thing we do is 
we don't lie. Don't lie to ourselves. Do not kid ourselves in 
thinking that these countries are democracies because they're 
no longer communist. Do not think that Afghanistan is about 
us--not just about us. It is about Pakistan. And Pakistan is 
decisively about American strategic interests in the Indian 
Ocean area.
    Mr. Cohen. Thank you, sir. Dr. Radnitz?
    Dr. Radnitz. Just to bring things back to Central Asia 
briefly, if the war in Afghanistan were to end, we do still 
have ongoing democratization policies in Central Asia. We still 
have--we give $10 or $20 million to each country a year in 
foreign aid through USAID, through organizations like the 
National Endowment for Democracy, NDI, IRI, we have these 
ongoing programs.
    It doesn't add up to a strategic vision of what we want to 
happen in Central Asia, but on the level of our governments and 
quasigovernmental organizations to their societies, there are 
still connections that have been made and that are still being 
developed. And below the radar the U.S. is still working, I 
think, toward strengthening civil societies toward at least the 
possibility of future democracy and toward greater development 
of their societies. It's not prioritized, but this still goes 
on.
    And regarding the issue of the base in Central Asia, that 
is, Manas Base in Kyrgyzstan, I actually don't think that that 
constitutes much of stabilizing force in terms of the region. 
The U.S. presence in Kyrgyzstan is very contained on the base, 
it acts as a logistical stepping stone to Afghanistan and 
perhaps my colleagues know better than I do, but I think if the 
U.S. were to remove that base perhaps the Russians would like 
to move in. But I don't see any immediate destabilizing impact, 
if the war in Afghanistan had ended already, if the U.S. were 
to withdraw its troops from Kyrgyzstan.
    Mr. Goble. I don't think--I agree that the simple closing 
of a single base would not necessarily be destabilizing, 
although it could entail destabilizing consequences over time. 
I would suggest that many of the programs that have just been 
mentioned are very good. However, they are often predicated on 
three things which I think are not true.
    The first is that a DONGO or GONGO is not an NGO. A donor-
organized or government-organized nongovernmental organization 
is not a nongovernmental organization. And yet we make our 
assessments, in many cases, about how much progress there is to 
democracy by counting DONGOs and GONGOs as if they were NGOs. 
They aren't; they're something else. Otherwise you have to say 
the Soviet Peace Committee was a NGO, which I don't think 
anyone would really want to do.
    Second, I think that the--we are very, very--we as a people 
are very good at individual cases. I've said to I don't know 
how many national movements, give me an Anne Frank. If you can 
give me an Anne Frank for your nationality then people will pay 
attention because we're very good at focusing on individual 
cases, which is a good thing. The consequence, however, is that 
we can be manipulated into looking at certain cases and we have 
been.
    And the third thing, I think, is that precisely because 
these things are below the radar screen, precisely because 
they're not what's being done by the top leadership and we 
aren't saying these things very clearly about our broad vision 
of social transformation and political opening, that people in 
these regimes treat this as a necessary evil rather than as a 
fundamental thing.
    There are many people in these regions who say, they hear 
something from our ambassador but they hear something else from 
the secretary of state and if that's the case, guess who they 
decide they should pay attention to? It's a high-level thing, 
and if you do the under-the-radar things, which sometimes you 
have to do--they're not alternatives--if you do only that, you 
may find at the end of the day that you accomplish less than 
you intended, than the more public kinds of expressions of 
where we want to go.
    Mr. Cohen. I understand we've got this room until 5:00. I 
don't know what happens and who comes in at 5:00, but obviously 
we go out. But let me ask you this. I know we used to have a 
Radio Free Europe and now we've got--what, Radio Free Asia--
    Mr. Goble. We've still got RFE/RL, it still exists.
    Dr. Blank. We do have Radio Free Asia, that's more recent.
    Mr. Cohen. Right. Are they at all effective at maybe 
opening up--Dr. Radnitz? Are they effective in Central Asia, do 
you think?
    Dr. Radnitz. I have strong feelings toward the American 
broadcasting programs.
    I think they're extremely important, especially in these 
societies where the media environment is deteriorating rapidly, 
especially in rural areas of Central Asia where people may not 
even be learning Russian, may not even be able to watch Russian 
television broadcasts, flawed as they are. They'll instead 
become captive to their own government's horrible 
propagandistic news.
    Mr. Cohen. Do the governments try to block the broadcast of 
these--of those radio signals?
    Dr. Blank. Absolutely. In the last several--and it's not 
just Central Asia, it's Russia and China, and their practices 
then are emulated by the local governments. Uzbekistan and 
Turkmenistan have essentially created a blackout of what's 
going on in the Middle East now.
    Mr. Goble. I was director of research at Radio Liberty and 
I was later director of communications for RFE/RL, and I'd like 
to speak to this. We have created a situation which is where 
the governments are in--have much greater ability to shut down 
the messages. A decision has been made to shift from shortwave 
broadcasting to FM broadcasting. And one of the consequences, 
if you're going to broadcast on FM, what you have to do is do 
it from a base somewhere in the country which means you have to 
have a license from people.
    In the old days, in the Cold War, Radio Free Europe/Radio 
Liberty broadcasted in short-wave. We've moved away from short-
wave which is a mistake because lots of people in these 
countries still have it, and we have not moved, which would be 
the next revolutionary step, to direct-to-home satellite 
television. If that happens, if we get to that--and that's an 
expensive thing, mind you-- we would be able to have the same 
kind of penetration.
    And one last point about these broadcasts. The most 
striking thing I have ever seen in my relations with the 
leaders of these countries came when the president of Estonia 
showed me the notebooks in which he had recorded each day from 
1953 until 1989 whether he could listen through the jamming to 
our RFE/RL, Voice of America, Deutsche Welle, and the BBC.
    This is important for the following reason, and this is 
something that the domestic-radio-driven policies of the BBG 
have gotten us away from. What you want to do with 
international broadcasting is a long-term strategy rather than 
a short-term commercial selling of soap. And second, it's about 
influencing key elites. It's about influencing people who are 
going to matter. It is not, by the nature of things, going to 
be something where you're talking about a mass audience. What 
we have done in the last decade is to shift away from a concern 
from reaching key elites, which is what we always did during 
the Cold War--we were much more interested that--[inaudible]--
and Sakharov listened to Radio Liberty than we were that 18-
year-olds on the streets of Moscow.
    I was once told by the member of the BBG that an 18-year-
old who listened to us counts just as much as the president of 
the country. Well, I think that's silly, saying things like 
that. I don't care whether we have 6 percent of the audience of 
18-year-olds in a population, but if you can give half of the 
political elite and you'll let me get them on a regular basis 
to communicate the kinds of thing that RFE/RL and the Voice of 
America can do well, BBC used to, we can transform the world. I 
think international broadcasting played a key role in the 
spread of democracy into Eastern Europe and some of the former 
Soviet space and I think it can do the same elsewhere.
    But we have now moved away from shortwave, which means 
we're dependent on licensing in local countries, we have 
shifted in many cases away from broadcasting entirely to 
Internet delivery. And those are very different things in terms 
of your ability to reach populations and they're very different 
things in terms of host governments being able to block them.
    And that's something I would hope that you and the Congress 
would look at this as an issue because I think we completely 
need to revisit the question of how we try to reach audiences, 
rather than assuming that the proper model is the model of 
selling soap on AM/FM radios in the United States.
    Dr. Blank. I might add that if you go through the expert 
literature on this question, it is now quite clear that 
governments who have a vested interest in suppressing freedom 
of information have capabilities that are no less impressive 
than we do for disseminating information, and as a result, the 
idea that the Internet--that because people have Internet, or 
that the Internet is present in their country, that somehow 
this is what's going to drive the revolution or make them 
liberals and democrats and that's because they're on Facebook 
and Twitter, that doesn't hold water.
    It's not empirically proven and it's not factually 
grounded. Certainly you can use those technologies to 
disseminate information, but these governments have at their 
disposal the means, effectively, to suppress and counter these 
techniques and to essentially put a whole province, like the 
Chinese did in 2008 and 2009 in Xinjiang, under lockdown from 
the information point of view.
    Mr. Goble. It is like military action, it is a constant 
struggle of offence and defense, that each side can make 
progress. We surrendered largely in a wholesale fashion by 
deciding to go over to FM radio broadcasting in these countries 
because it gave these countries the right to take away the 
license anytime. And it meant that RFE/FL broadcasts in many 
countries, the first question journalists and editors ask is, 
will this cost us our license? That changes the nature of what 
you're communicating and that's a huge thing which the drawdown 
from shortwave broadcasting has cost us enormously.
    Mr. Cohen. Well, I thank each of you for your testimonies 
and for giving us--and for educating me some, particularly on 
this issue of Radio Liberty and--because that's something I 
visited when I was in Prague, and have got some interest there. 
And particularly, Mr. Umarov, nice to see you, thank you on 
behalf of all the members of the Tennessee delegation who 
worked, and others, on your father's release, for your 
statement. I'm happy--and Germantown's a wonderful place. 
[Laughter.] One of the--I have a precinct in Germantown, it's a 
fact that I won't--but it's a wonderful place. I live in 
Midtown.
    But I want to thank each of you for your testimony and I 
believe--I presume like any other committee, the Commission 
could possibly have questions that could be submitted later and 
you'll have time to respond and then if you--all your 
statements will be made a part of the record. And with that I 
will declare this meeting--[sounds gavel].
    [Whereupon, at 5 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to this hearing on the potential impact of the Middle 
Eastern revolutions on Central Asia. Though it is far too early to know 
what will come of the ``Arab Spring,'' even in the Middle East itself, 
it is clear that the revolutions and uprisings have already changed the 
Middle East--and it may well yet change other parts of the world.
    This hearing will inquire whether the uprisings and protest 
movements in the Middle East and North Africa might inspire and 
invigorate popular movements for democracy in post-Soviet central 
Asia--or even trigger similar uprisings, and crackdowns--and what our 
government's policy should be.
    Obviously, much distinguishes the countries and peoples of Central 
Asia from those of the Middle East. But they also have a lot in 
common--especially in what they have suffered. Broadly speaking, in 
both regions people are ruled by undemocratic and corrupt dictators, 
many of whom have been in power for decades. Where they exist, 
parliaments are largely rubber-stamp institutions and the judiciary is 
either corrupt or beholden to the executive. National resources and 
state authority have been illegitimately appropriated by small groups 
of people, closely bound to the ruling elites.
    There are many differences between Kazakhstan, Kyrgyzstan, 
Tajikistan, Turkmenistan and Uzbekistan, but presidential longevity in 
office is a defining regional characteristic. Central Asian dictators 
have monopolized power for the two decades since independence while the 
public has effectively been removed from politics. Only Kyrgyzstan is a 
striking exception to this rule--in that country street protests have 
toppled two heads of state since 2005, and last year the country 
commenced parliamentary governance.
    Sadly, in most of Central Asia, democratic reform and observance of 
human rights commitments have progressed little in the 20 years since 
independence. In general, elections have been controlled and rigged; 
rarely has the OSCE given them a passing grade. Opposition parties have 
been harassed--where they are permitted at all--and independent media--
where it exists--has been put on a short leash. In the most repressive 
states, there is little or no space for civil society to function. 
Access to the Internet is tightly controlled. Religious liberty, 
particularly for non-traditional religious groups, is constrained. 
Torture and mistreatment in custody are routine. Corruption is common 
at all levels and thwarts not only human rights but also economic 
development.
    Central Asian leaders often claim that their citizens are ``not 
ready'' for democracy because of their history and culture. This is 
insulting, bigoted, unacceptable, and untrue. It is also sadly 
familiar--many Middle Eastern tyrants said the same thing about their 
peoples, but the recent events in the Middle East show, once again, 
that it is not democracies that are unstable but dictatorships.
    The conventional wisdom is that similar popular protest movements 
are unlikely in Central Asia--yet a few months ago that was the 
accepted wisdom for the Middle East. It is time we re-think and to 
challenge our conclusions on both regions--gross and systematic human 
rights violations have surely created a just sense of popular grievance 
in Central Asia. And Tunisia showed that it is impossible to predict 
when a people will decide that a situation is intolerable.
    Of course it is our hope that there will be peaceful democratic 
movements in central Asia, and, equally, that the governments will 
respond peacefully and with significant reforms. Yet we need to think 
also about the potential for violent crackdowns, and what our 
government's policy should be in the region.

Prepared Statement of Hon. Benjamin L. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    Mr. Chairman, this hearing raises an important and timely topic. 
The events in the Middle East and North Africa have already redrawn the 
geopolitical map, evoking fears of worse instability and religious 
radicalism but also raising hopes of democratic development that will 
lead to a more peaceful world.
    Perhaps the main lesson from the last six months is that where 
politics does not offer citizens a say in governance and redress of 
grievances, the street is the only outlet. Corruption and lack of 
economic opportunity fuel public resentment towards those in power, who 
use their positions to line their own pockets. Unfortunately, these 
conditions also characterize much of Central Asia, where leaders have 
generally consolidated super-presidential systems that allow them to 
remain in office while impeding the rise of any competing institutions. 
The question naturally arises if similar unrest could erupt in that 
region.
    In many post-Soviet states over the last few months, officials have 
leaped to deny the possibility of such events in their countries. ``It 
could never happen here'' they claim, citing the popularity of their 
presidents or the public's fear of instability or the absence of some 
other prerequisites for mass demonstrations of discontent.
    It is not surprising that officials in Central Asian countries 
would reject the possibility that their regimes are vulnerable to the 
wave that has swept over the Middle East and North Africa. Our task is 
to investigate to what degree their assurances are well-founded or 
whether we have reason to expect protests in Central Asia. What seems 
clear already is that some leaders are concerned enough to tighten 
control of new technologies--such as mobile devices that can access the 
Internet--which were used in North Africa and the Middle East. For 
example, Uzbekistan recently instructed mobile operators to notify 
regulators of any bulk distribution of text messages with ``suspicious 
content,'' to monitor social networking sites, and to be prepared to 
immediately switch off their Internet networks if directed by 
authorities.
    Events in North Africa and the Middle East have taken many by 
surprise, including the region's rulers--some of whom are now ex-
rulers. This hearing will elucidate whether Central Asian leaders have 
good reason to be nervous. I look forward to hearing the views of our 
witnesses.

     Prepared Statement of Hon. Alcee L. Hastings, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Thank you, Mr. Chairman. I commend you on holding this hearing. The 
ongoing drama of the Arab Spring is clearly the most important story of 
the year and possibly of our time. It is at least as significant, in my 
view, than our great success in finally ridding the world of Osama bin-
Laden. In fact, developments in the Middle East and North Africa, where 
people have arisen to pursue democratic change, undercut al-Qaeda's 
entire narrative, while rejecting its methods. Whether these events 
might spur similar outcomes in other parts of the world, specifically 
Central Asia, is a natural question for this Commission to investigate.
    As former President and current Special Representative on 
Mediterranean Affairs of the OSCE Parliamentary Assembly, I have 
visited all the states of Central Asia, as well all of those of the 
OSCE's Mediterranean Partners. Throughout my travels in these regions, 
I have been struck by certain structural similarities between them. 
Setting aside Israel, both regions are primarily Muslim. Both, you 
might say, are struggling with the consequences of colonialism. Both 
have large and growing young populations, which are to varying degrees 
frustrated by the lack of opportunity, and which have faced entrenched 
elites that resist systemic reforms, even when they talk about their 
necessity.
    On the other hand, the states of Central Asia are full-fledged 
members of the OSCE, which they voluntarily joined in 1992. They 
thereby promised to carry out the organization's commitments in the 
human dimension. How well they have done can be gauged in the State 
Department's annual reports, which on the whole, present a pretty 
depressing picture.
    It is easy to become discouraged. We should remember, however, that 
Central Asian countries have been independent for not quite 20 years. I 
say that not to excuse their well-known shortcomings in democratization 
and human rights but simply to state a fact. The lands of the Middle 
East and North Africa have had far more time to build a modern polity 
with accountable government and rule of law but sadly, little has been 
accomplished. Only now, because of the stirring courage displayed by 
many thousands of people, has the opportunity for a real paradigm shift 
finally emerged.
    The obvious question that arises is whether possibilities for 
reform, without major uprisings, exist in Central Asia. I'm sure our 
witnesses have strong opinions about that key issue but I just want to 
say that I hope the answer is ``yes.'' In my contacts with Central 
Asian leaders, I have always stressed the need for gradual, positive 
change.
    Today, everyone knows instantly what is happening all over the 
globe. Both for societies seeking examples of successful pressure on 
governments and for regimes determined not to yield to such pressure, 
the power of precedent is important. Experiences in one country or 
region naturally engender hopes or fears in others. But nothing is 
inevitable and that doesn't necessarily mean similar conditions will 
lead to similar conclusions.
    Moreover, Tunisia and Egypt have responded quite differently to the 
popular call for change than Syria or Libya, and they have more in 
common with each other than any of them has with Central Asian states. 
It is not so easy to make predictions about how events in one region or 
country might influence outcomes in another.
    These are difficult questions to answer; frankly, I am glad I don't 
have to. That is precisely why we're here--to hear from smart people 
who have thought long and hard about the issues. I salute their 
willingness to tackle such knotty topics and I look forward to learning 
from them.

 Prepared Statement of Ambassador Robert O. Blake, Assistant Secretary 
 of State for South and Central Asian Affairs, U.S. Department of State

    Chairman Cardin, Chairman Smith, members of the Commission, thank 
you for inviting me to discuss with you the potential implications for 
Central Asia of the ongoing events in North Africa and the Middle East. 
I welcome this opportunity to consider with you the contours of U.S. 
engagement in Central Asia that will most effectively promote peaceful, 
democratic development.
    Mr. Chairman, we are witnessing with cautious optimism events 
unfolding across North Africa and the Middle East, but truly regret the 
lives that have been lost and the extent to which some governments have 
resorted to greater repression and violence in response. Though it is 
easy to say in retrospect that these changes were going to take place 
eventually, no one could have predicted the pace with which citizens of 
these long repressed countries could turn the tide.
    Differences in history, culture and circumstances make direct 
comparisons impossible. However, in some important respects the Central 
Asian countries of Kazakhstan, Kyrgyzstan, Tajikistan, Turkmenistan, 
and Uzbekistan, with the partial exception of Kyrgyzstan, share 
dynamics similar to those causing the upheavals in the Middle East, 
including unemployment and chronic underemployment, poverty, corruption 
at all levels of society, little or no outlet for meaningful political 
discourse, and a lack of opportunity, particularly for young people. 
Over 50 percent of the populations in Uzbekistan, Tajikistan, and 
Turkmenistan are under the age of 25, and these youths face closed and 
inefficient economies, with few prospects for personal advancement. If 
not addressed by these governments, these circumstances are likely to 
present considerable social, political, and economic challenges in 
coming years.
    There are also significant differences with the North Africa and 
Middle East countries, which in our view make popular uprisings in the 
near term less likely in Central Asia. First, the economic situation is 
not as dire in Central Asia. IMF unemployment projections for 2011 in 
Central Asia range from a low of 0.2% in Uzbekistan to a high of 5.7% 
in Kazakhstan, compared with 9.2% and 14.7% in Egypt and Tunisia, 
respectively-based on official data. Second, significant proportions of 
the work force in poor countries such as Tajikistan and Kyrgyzstan have 
found work in Russia, easing unemployment and providing a valuable 
source of remittances. Third, the hydrocarbon wealth of countries such 
as Kazakhstan and Turkmenistan has enabled those countries to cushion 
the impact of economic hardships. Unlike North Africa and the Middle 
East, regions which have maintained considerable ties to the United 
States and the West, the Central Asian states remain relatively less 
exposed to the West and its history of democratic institutions, 
personal freedom and liberty. Instead of travelling to the United 
States or to Western Europe for employment, educational, or 
recreational purposes, most citizens of Central Asia instead head north 
to Russia. This lack of exposure is exacerbated by government controls 
over the internet and social media.
    While citizens in Egypt, Tunisia, and elsewhere have turned to 
Facebook and Twitter as forums through which to interact, organize, and 
exchange ideas, the vast majority of Central Asia lacks access to the 
internet, with 14 percent internet penetration in Kazakhstan in 2008 
the highest of all the Central Asian countries (according to the 
International Telecom Union). Governments have succeeded in blocking 
outside influences and tightly controlling domestic media through 
harassment, prosecution, and imprisonment of journalists. The lack of 
independent media allows governments to control the dissemination of 
news and information.
    Another factor is the lack of meaningful political opposition in 
most of Central Asia. Significant opposition parties are largely 
nonexistent, and organized opposition groups are for the most part 
either illegal or tightly constrained by the authorities.While these 
conditions seem oppressive to a western observer, residents in some 
parts of Central Asia value the stability and certainty afforded by 
their otherwise undemocratic governments. In Kazakhstan and Uzbekistan 
the governments derive some measure of legitimacy, at least for now, 
from their emphasis on stability as residents warily monitored the 
turmoil and unpredictability in recent years in neighboring Kyrgyzstan 
and Afghanistan.
    Still, this profound change taking place across North Africa and 
the Middle East demonstrates equally profound lessons for Central Asian 
governments and societies. One of the messages we have given to our 
friends in Central Asia is that they need to pay attention to these 
events and their implications. Leaders everywhere, not just in Central 
Asia, should heed the lessons of the Arab Spring. In my meetings with 
Central Asian officials over the last several months, I have encouraged 
them to provide more space for political, personal, and religious 
freedoms, allow for the development of a robust civil society and 
democratic institutions, and chart a course for economic reform.
    Leaderships in Central Asia express support for gradual change, and 
concern that too much freedom too fast could lead to chaos and 
political upheaval. They are suspicious of democratic reforms, and with 
some exceptions have maintained tight restrictions on political, 
social, religious, and economic life in their countries. We think this 
is a mistaken view. While democracy can be messy and at times appear 
chaotic, it nevertheless provides for greater stability and security as 
it provides societies a necessary and peaceful release valve for 
political and economic tensions. Democratically elected governments 
that respond to unfettered public opinion build greater trust and 
confidence between peoples and their governments. Democracy as we 
advocate it is not violent or revolutionary. It is peaceful, tolerant, 
and evolutionary and demonstrated primarily through the ballot box and 
a free civil society. Democracy does not equate to street violence and 
economic chaos. Quite the contrary-- democracy provides hope and 
realistic, peaceful approaches to address pent up problems.
    We view this moment as an opportunity to re-inforce our engagement 
with Central Asia on issues related to religious, political, and 
personal freedoms. To strengthen our engagement in Central Asia, we 
instituted in December 2009 Annual Bilateral Consultations with each 
country. Each bilateral consultation constitutes a face-to-face 
structured dialogue, based on a jointly developed, comprehensive agenda 
which facilitates candid discussions on the full spectrum of bilateral 
priorities, including human rights and media freedom. These discussions 
result in work plans to address key priorities and outline practical 
steps to advance U.S. policy goals. While pursuing these goals often 
poses serious challenges, our robust engagement and assistance to 
Central Asia have yielded important results, including support for 
ongoing efforts in Afghanistan. We have also used the annual 
consultations as a forum to engage civil society and the business 
community in the Central Asian countries. In the annual consultations 
we held earlier this year in Kazakhstan, for example, the Kazakhstani 
Deputy Foreign Minister co-hosted with me a meeting with Kazakhstani 
civil society in the Foreign Ministry, a welcome precedent that we hope 
to duplicate elsewhere.
    In the twenty years since independence, the leaderships in 
Kazakhstan, Uzbekistan, Turkmenistan, and Tajikistan have frequently 
and publicly called for building democratic institutions in their 
countries. They have given speeches and issued decrees, but they have 
done little to put them into practice. The parliaments, media, and 
public institutions are still dominated by the head of state and his 
views. In our engagement with these leaders, we challenge them to make 
the choice for the greater stability and security that real and 
responsible democracies provide. We also continue to provide support 
for those elements in civil society who remain committed to building 
democracy peacefully albeit under restrictive and even harsh 
conditions.
    Kyrgyzstan has been the primary exception in Central Asia. The 
democratic gains recently made in Kyrgyzstan since the April 2010 
events--the passing of a new constitution establishing a parliamentary 
republic and the subsequent elections of a President and Parliament--
are cause for optimism even as the ethnic violence in June of last year 
demonstrates the fragility of democracy in the country. As President 
Obama told President Otunbaeva earlier this year in Washington, we are 
prepared to support democratic institutions to help Kyrgyzstan succeed 
as a democratic example in the region. Kyrgyzstan's democracy requires 
substantial international support to build strong, publicly accountable 
institutions. We estimate the U.S. provided over $140 million in 
humanitarian aid, economic development, support for democratic 
elections and good governance, and other foreign assistance in response 
to the events in FY 2010, and we urged others to provide such support. 
Kyrgyzstan faces its next test in presidential elections slated for 
later this year. We look forward to working with the Helsinki 
Commission and others to help organize international support and 
monitoring efforts.
    Other Central Asia states are at differing stages in their 
democratic development, but there are some signs of hope in all. 
Kazakhstan hosted the first OSCE Summit in 11 years last December, 
which included a robust civil society component which Secretary Clinton 
found extremely encouraging. Kazakhstan has also made some progress 
toward meeting its Madrid commitments on political pluralism, and 
reform of media and electoral laws, although much more needs to be 
done.
    President Karimov of Uzbekistan gave a speech in November 2010 
calling for greater political pluralism and civil society development. 
Uzbekistan has done little to turn this vision into a reality thus far, 
but we will encourage President Karimov to meet the commitments he made 
in that speech. Tajikistan has the region's only legal Islamic party, 
the Islamic Revival Party of Tajikistan (IRPT), even though IRPT and 
other opposition officials continue to be subject to various forms of 
harassment. And even in Turkmenistan, President Berdimuhamedov has 
spoken publicly of the need to expand space for other voices in the 
political system.
    To be clear: I am not predicting extensive changes in the near 
term. The Arab Spring notwithstanding, democracy is a long-term 
process, and we will work with all of our Central Asian partners to 
help them develop stronger democratic institutions and more open 
societies.

Conclusion

    Mr. Chairman, nearly thirty-six years ago leaders from North 
America, Europe, and the Soviet Union came together to sign the 
Helsinki Accords, committing themselves to a core set of human rights, 
including the fundamental freedoms of association, expression, peaceful 
assembly, thought, and religion. It was argued by those gathered in 
Helsinki in 1975 that security among states was directly connected to 
the way that those states treat their own citizens. AsSecretary Clinton 
presciently asserted at last year's OSCE summit in Astana and as events 
this Spring further underscore, these values remain relevant today and 
are critical to the building of sustainable societies and nations that 
are committed to creating better opportunities for all of their 
citizens.
    In conclusion, we seek a future in which the United States and the 
countries of Central Asia work together to foster peace, security, 
economic development and prosperity, and advance the democratic values 
and human rights that unite free nations in trust and in respect. We 
recognize that the pace of change will be defined by the citizens of 
the countries of Central Asia and that our efforts must focus on long-
term, meaningful results.
    The most important lesson gleaned from the events that have 
occurred in Tunisia, Egypt, Libya, and elsewhere is that governments 
must respond to the needs and the desires of their people. People 
everywhere want to provide for their families and to ensure that their 
families have proper education, and adequate livelihoods. And people 
everywhere want to have basic democratic freedoms.
    Thank you. I look forward to your questions.

Prepared Statement of Paul Goble, Professor, Intitute of World Politics

A Renewed Sense of the Possibility of Change: The Peoples of Central 
        Asia Respond to the Arab Spring

    Nowhere in the world has the Arab Spring given greater promise of 
real political change toward democracy and freedom than in the 
authoritarian states of post-Soviet Central Asia. The reasons for that 
are clear but not always clearly understood. It is not because these 
countries are also Muslim majority states, and it is not because they 
too are ruled by brittle authoritarian regimes. There are Muslim 
majority states where the Arab Spring has not had an impact, and there 
are authoritarian regimes which, either by brutality or accident, have 
blocked the spread of the idea people in the Middle East are seeking to 
promote.
    Rather it is because the events in the Arab world have dispelled 
the myth promoted by these governments that fundamental change is 
impossible or dangerous and that the populations must put up with the 
status quo because these regimes enjoy international support as 
bulwarks against Islamist fundamentalism and supporters of the 
international effort against terrorism in Afghanistan and elsewhere.
    Those arguments did not save the authoritarian regimes in Egypt, 
Tunisia, Libya and elsewhere in the Middle East, and they will not save 
the authoritarian regimes in post-Soviet Central Asia. The peoples of 
those countries have been transfixed and transformed by the Arab 
Spring. They see that the arguments of their rulers no longer are 
convincing, and they see that the West and above all the United States, 
which often has pursued a policy of convenience with regard to these 
regimes, has changed as well. As a result, an increasing number of the 
people of these countries are ready to try to gain what is their 
natural right, freedom and democracy.
    But just as the Arab Spring has affected the people, so too it has 
impressed the rulers in Central Asia. It has convinced them that they 
must take even more draconian measures in order to retain their hold on 
power. And the changes the Arab Spring have wrought in the 
consciousness of the peoples of Central Asia thus pose a serious 
challenge to Western governments including our own. Some of the regimes 
in that region may believe that they can get away with suppressing the 
opposition with extreme violence and that as long as they blame 
Islamists or outside agitators, as Uzbekistan President Islam Karimov 
did this week, all will be well. Consequently, the United States must 
find a way of encouraging these governments to give way to democracy 
rather than taking actions to defend their own power that will 
ultimately lead to a conflagration.
    That is no easy task, but the Obama Administration deserves a great 
deal of credit for the way in which in managed the situation in Egypt. 
And that approach, one that led to the exit of an increasingly weak 
authoritarian president and opened the way to the possibility of 
genuine democratic change, in which the next elections will not be the 
last ones, provides a serious model for how the United States should 
behave when, as I hope and believe, the Arab Spring will be succeeded 
by a Central Asian Spring, allowing the peoples of that region at last 
to gain what they were denied in 1991--genuine freedom, real democracy, 
and the human rights that all peoples should enjoy.
    In my brief remarks today, I would like to focus on three things: 
first, the way in which the Arab Spring has affected thinking in 
Central Asia both among the populations and among the powers that be, 
underscoring the differences among the peoples of those states; second, 
the particular risks of regime change in the countries of that region, 
again country by country; and third, the way in which the U.S. and the 
international community can best proceed to ensure the next step toward 
genuine freedom for the peoples of this region.
Spring is Not an Impossible Dream
    The peoples of the post-Soviet countries of Central Asia have been 
told by their rulers that they must accept the status quo both because 
it is the only one that can prevent still worse things, including the 
imposition of Islamism, and because it enjoys widespread international 
support from Western democracies who for one reason or another believe 
that such authoritarian regimes are either useful or even more 
necessary for peoples like themselves. But the events in the Arab 
Spring have made such arguments less compelling than they were. After 
all, the governments that have been toppled in the Arab world made 
exactly the same arguments with perhaps even greater effec--until it 
became obvious that the peoples of that region no longer accepted them 
and that the West had begun to recognize that these claims were 
unjustified and wrong.
    The reason that authoritarian leaders use such arguments and come 
down so hard on any display of collective demands for freedom is that 
such demands are contagious. When people in country dare to be free, to 
live not by lies, and to not be afraid, others elsewhere are inspired 
to do the same. That is why there have been waves of democratization 
across large parts of the world at various points in the last 
generation, and it is why there is a new wave which has started in the 
Middle East but which will not end there.
    In defense of their positions, authoritarian regimes rely not only 
on propaganda and police methods. They also rely on direct control of 
what people can find out about what is going on elsewhere. But the 
ability of these regimes to do that is small and declining. The 
Internet and other forms of social media mean that it is almost 
impossible to cut key groups off from learning what others are doing in 
other countries. That does not mean that regimes won't try--almost all 
of the regimes in Central Asia are doing so--but rather it means that 
they will not succeed. And the splash effect of such knowledge is 
larger than many understand.
    Statistics on Internet penetration are less important than the fact 
of such penetration. If a few people can learn the truth, they can tell 
others. And that process means that even if the number of Web surfers 
in Central Asia is still small, the number of those who benefit from 
such knowledge is far larger. Indeed, one can argue that in many of 
these countries, it has reached critical mass. And to the extent that 
the Internet is supplemented by international broadcasting, both 
radio--and for obvious reasons, it has to be shortwave--and direct-to-
home television broadcasting, the expansion in the spread of 
information will lead over time to the expansion of human freedom.
    On this as on all other measures, there are enormous differences 
among the countries of this region, just as there are enormous 
differences among the countries of the Arab world. Consequently, just 
as the outcomes at any one point in the Arab world have ranged from 
quiescence to peaceful demonstrations to mass violence, so too the 
range of patterns in the Central Asian countries is likely to be large. 
At the same time, however, because within the Arab world and within the 
Central Asian world, people in one country often take their cue from 
what is happening in another in their region, so too a breakthrough in 
one Central Asian country, such as Kyrgystan, in response to 
developments in the Arab world, is likely to play out across the other 
Central Asian states more or less quickly.
Elections Rather Than Bullets Defeat Islamism
    As an increasing number of American commentators are now pointing 
out, the execution of Osama bin Laden is likely to have a smaller on 
the future of terrorism than are the actions of Egyptians, Tunisians 
and Libyans who are pressing for democratic rights. Indeed, the least 
reflection will lead to the conclusion that the actions on the streets 
of Cairo are a more definitive defeat of Al Qaeda than even the 
liquidation of bin Laden. This message is increasingly being absorbed 
among U.S. government leaders, who are ever more inclined to recognize 
that the purchase of short-term stability through reliance on 
authoritarian rulers gives a false sense of security.
    That eliminates one of the key arguments that authoritarian rulers 
in Central Asia have advanced, many Central Asian populations have 
accepted, and that many Western governments including our own have made 
the basis of policy. Supporting a dictator who claims he can hold off 
Islamist extremism is a fool's errand: Such regimes are more likely to 
produce Islamist responses than are democratic ones. That does not mean 
that managing the transition from dictatorship to democracy is easy: It 
is obvious that those who support democracy must ensure that no free 
election will be the last one in any country.
    But as Washington's approach in Egypt has shown, that is not an 
impossible task. There are ways to develop safeguards against 
backsliding, and there are ways to marginalize the extremists. That is 
one of the things that democracy truly understood does best. Another 
thing democracy does extremely well is allow for succession, an issue 
that arose in the first instance in Egypt and that will arise soon in 
many Central Asian countries whose presidents are aging Soviet-era 
officials. If such individuals can be led to see that they will be 
remembered as fathers of their countries if they allow the emergence of 
a genuine opposition via elections, they will be more likely to take 
that step than if they are encouraged to ``keep the lid on'' Islamic 
assertiveness.
Everyone Needs Friends
    As the events of the Arab Spring show, people who aspire to 
democracy need friends abroad, but they need friends who understand 
that support from abroad must be carefully calibrated lest it allow 
authoritarian regimes to claim that the democratic movement is a cat's 
paw for foreigners or it provoke the regimes into even more violent 
action in ``defense of the nation.'' The United States showed that kind 
of understanding in the case of Egypt, carefully calibrating its 
statements and actions to the situation on the ground. But it has been 
less successful elsewhere in the Arab world not only because the 
leaders are less willing to see reason and yield to the people but also 
because the United States has either immediate interests it wants to 
protect or has less knowledge of the situation.
    Unfortunately for the peoples of Central Asia, both of those 
factors are even more on view there. The US relies on several of the 
Central Asian countries for the passage of logistical support to the 
US-led effort in Afghanistan and not surprisingly does not want to see 
anything happen that might disrupt the flow of needed military 
supplies. And the US knows far less about Central Asia than it does 
about the Arab world. Few American representatives there speak the 
national languages, instead continuing to rely on the former imperial 
one; few US officials appear to view the Central Asian countries as 
independent actors in their own right, instead viewing them as part of 
Moscow's droit de regard. (The infamous case in which an American 
president thanked the Russian president in public for allowing a US 
base in Uzbekistan but did not thank the president of Uzbekistan is a 
symbol of this.)
    There is little appreciation of the nature of Central Asian 
societies and the opportunities they have for development in a positive 
way. Instead, the focus in Washington is almost exclusively on the 
problems they represent: drug flows, human trafficking, corruption, 
violence, and unemployment among the urban young. All of these things 
are true, but they are neither the whole story nor can they be 
adequately addressed by authoritarian measures. Indeed, addressed in 
the ways that the regimes of this region have, these problems 
collectively can be the breeding ground for further violence and the 
replacement of the current authoritarian regimes by perhaps even more 
authoritarian Islamist ones.
    That is something that the US does not yet appear to grasp, but if 
we are to be a friend to these peoples, we must understand that the 
only approach which gives hope of a truly better future for them is a 
commitment by us to the careful and continuing promotion of human 
rights and demography. Our doing that will add to the courage of those 
who are already inspired by the Arab Spring and will thus promote a 
change of seasons in Central Asia as well.
    The authoritarian governments of Central Asia have maintained 
themselves not only by pointing to the threat that any change would 
bring Islamist regimes to power--something they make more likely the 
longer they are in office--but also by arguing that they have provided 
security and increasing prosperity for their peoples. In fact, they 
have provided neither. The peoples of Central Asia are less secure and 
less well off than they were. But even if it were true that they had 
done so, that is not enough for the peoples of the region, and it 
should not be enough for us.
    In thinking about the situation in the post-Arab Spring Central 
Asia, one cannot fail to recall a Soviet anecdote from 1968. The story 
has it that two dogs meet at the border of Poland and Czechoslovakia. 
The Polish dog is sleek and fat, while the Czechoslovak dog is skin and 
bones. The Czechoslovak dog who is heading toward Poland asks the 
Polish dog why he is heading toward Czechoslovakia. The Polish dog 
replies he is doing so because he would like, for once in his life, to 
bark.
    That message reverberated through Eastern Europe and then through 
the USSR with increasing power. It convinced many that, in Mikhail 
Gorbachev's words, ``we cannot continue to live like that''--and more 
important still it led them to conclude that they didn't have to any 
more. That is what the peoples of Central Asia are learning from the 
Arab Spring. They want what all people want and deserve, and with the 
help of the people and government who pioneered human rights, they have 
a chance to gain sometime soon what they were promised but did not get 
twenty years ago.

   Prepared Statement of Dr. Stephen J. Blank, Professor of National 
                Security Affairs, U.S. Army War College

Introduction

    The Arab revolutions of 2011 have captured the world's attention 
and demonstrated the power of the revolutionary idea to spread like 
wildfire. In these regards they resemble Europe's revolutions of 1848 
and 1989 that also were analogized to the spring. But it is this very 
capacity for rapid spread and (as in 1848) for subsequent resistance by 
imperiled autocracies that is on Russia, China, and every Central Asian 
government's political agenda even if those states will not admit it. 
Even if they suppress news of these revolutions, they and their 
partners in the Russian and Chinese governments are extremely concerned 
about the possibility of this crisis spreading to their doorstep. 
Indeed, we already see demonstrations in Azerbaijan, by no means the 
worst of these regimes. And there is talk of demonstrations in 
Uzbekistan, one of the very worst regimes in the area.\1\
    As of May 2011 governments have fallen in Tunisia and Egypt and are 
on the point of falling in Yemen. However, violence has been used, or 
imported by rulers with some success in Syria, Libya, and Bahrain, 
attesting to the determination of these pillars of the old order to 
retain their power and prerogatives and perhaps their staying power. 
Indeed, even in the newly constituted governments of Tunisia and Egypt 
it is by no means certain that democracy in one of its variants will 
ultimately prevail. It already appears that the best organized party 
and movement in Egypt is the Muslim Brotherhood and the constellation 
of Salafist organizations around it. As happened in 1848 the democrats 
could fail and new despotisms, backed by force, could come to the fore 
or old ones could reconstitute or reinvent themselves. It is quite 
conceivable that despite the excitement of the Arab spring the 
practical alternatives before different Arab societies could boil down 
to some new form of military authoritarianism or Islamic and clearly 
anti-liberal and anti-democratic parties. That outcome would 
undoubtedly retard the appearance of democratic movements across 
Eurasia and give comfort to the current upholders of the status quo. 
But even if a revolution broke out in Central Asia in the immediate or 
foreseeable future it is likewise, by no means certain that it would 
bring liberals or convinced Democrats to power.\2\ Democratic outcomes 
cannot be taken for granted and euphoria is clearly unwarranted.
    Moreover, these regimes have some very powerful advantages. They 
exercise total control over their media and are intensifying those 
controls as noted below. They also have organized their armed forces to 
suppress not only external threats but also internal uprisings.\3\ They 
also have a safety valve as long as the Russian economy continues to 
grow because they can then export many of their unemployed young men, 
the usual incendiary element in demonstrations, to Russia for work and 
benefit from their remittances.\4\ And they can count on Russian and 
possibly Chinese military protection should a revolutionary crisis 
occur. They may well be able to count on US political support as well, 
at least for a time, even though the Administraton is now counseling 
governments like Kazakhstan to undertake reforms. This would espeically 
be true if they can credibly argue that their opposition is Islamist 
and affiliated with terorrism.\5\ This would be an especially strong 
argument in the context of the war in Afghanistan.
    There are also other domestic factors working for them. Liberal 
Democratic political actors on the ground in Central Asia who command 
genuine authority and mass support are scarce and have been subjected 
to twenty years of unrelenting and ruthless suppression. Moreover, it 
is by no means clear, neither should it be taken for granted, that 
Central Asian populations want our concept of liberal democracy, i.e. 
want what we want. Moreover, past mistakes have undermined the 
attraction of the US or European models. Culturally and historically 
there is almost nothing in their experience to justify such 
simplisitic, unfounded, and misleading policy advocacy or 
prescriptions.\6\ The middle classes, the historical mass support base 
for liberal democracy, are quite weak, dependent, and lack 
organizational resources and traditions. Civil society may be a concept 
without a deeply rooted reality here except in limited situations. 
Moreover, the region faces enormous political and economic challenges 
both within each state and on a reigonal basis. Nevertheless, there is 
no doubt that these rulers are afraid.
    Tajikistan's President, Emomali Rahmon told his Parliament on April 
20, 2011 that,

          Much has been said and written about the possibility of the 
        repetition of such events in Central Asia,--I want to reiterate 
        that the wise people of Tajikistan, who were once the victims 
        of such events, know the meaning of peace and stability. They 
        are aware of the importance of peace and stability.--They have 
        gone through civil wars; therefore, they reject military 
        solutions to any problem.\7\

    Similarly Turkmen President Gurbanguly Berdymukhammedov recently 
said that abundance of goods at domestic markets, especially food, and 
cheap prices are key indicators of progress and stability.\8\ As a 
result governments in the region are doing their best to leave nothing 
to chance.\9\

The Status Quo and Its Defenders

    Twenty years after the fall of Communism at least two of Central 
Asia's states may fairly be described as failing states, i.e. 
Kyrgyzstan and Tajikistan while Paul Quinn-Judge of the International 
Crisis Group believes that Uzbekistan is not far behind.\10\ Indeed, a 
succession crisis there, which he deems inevitable given the absence of 
any discernible plan or order for succession to the seventy-two year 
old President, Islam Karimov, could throw Uzbekistan into that kind of 
tailspin characteristic of such states. But even if Uzbekistan is not 
currently failing, it, like all the other Central Asian states except 
Kyrgyzstan is a strong autocratic despotism and all of them share many 
characteristics of patrimonial or even in some cases Sultanistic 
states. Hence succession crises may be not only something they have in 
common given the nature of their governance, but also in each country 
such crises could well be the major threat to the stability of the 
state, not just the particular regime in question. In turn that 
succession crisis and ensuing crisis of the state could possibly create 
an opening for a genuine Islamic movement to attempt to seize power. 
Likewise, although it does not seem likely right now, in the future one 
or more of these states could fall prey to a form of unrest analogous 
to what we now see in the Arab world, a succession crisis could ignite 
a much deeper and broader upheaval.\11\ Kyrgyzstan's ``revolution'' of 
2010 is such an example, and as suggested below, the sudden death of 
Turkmen President Sapirmurad Niyazov in 2006 triggered widespread 
apprehensions about just such a major crisis in Turkmenistan and even 
beyond its borders.
    Therefore we should be alert to the possibility of state failure in 
one or more Central Asian states. Indeed, it could happen almost 
suddenly without warning. A recent analysis of North Korea reminds us 
that the more repressive and artificially maintained the regime is the 
more sudden and precipitous is its fall. Likewise, the worse the level 
of oppression, e.g. state violence as in Uzbekistan, is, the greater is 
the nightmare upon liberation.\12\
    For Russia, China, and the post-Soviet governments of the CIS, 
these revolutions' implications for these regimes' domestic prospects 
these revolutions represent a clear and present danger. Moreover, all 
these rulers fully appreciate the dangers they could face if these 
revolts migrate to their countries. For example, Russia's anxiety about 
the possiblity of the Arab revolutions spreading to Central Asia was 
the topic of a public discussion in the Duma. Accordingly members of 
the Duma and Deputy Foreign Minister Grigory Karasin called on these 
states to make timely reforms from above lest they be swept away like 
those in North Africa. Since Russia's goals are stability, without 
which these states cannot draw closer to Russia he recommended the 
formation from above of a civil society, international and inter-
religious peace, responsibility of leaders for the standard of living 
of the population, the development of education and work with 
youth.\13\ Clearly this is not enough and no mention is made of 
economic development or freedom or genuine political reform. In other 
words, Russia is only willing to tolerate cosmetic reforms and it is 
doubtful that Cetnral Asian leaders will go beyond those limits even if 
they approach them.
    Thus in Kazakhstan, President Nursultan Nazarbayev called for an 
instant election rather than a palpably stage-managed referendum to 
give him life tenure because that latter option was too egregious a 
move in the current climate. Meanwhile in Uzbekistan, an already 
draconian state in many ways, we see a further crackdown on mobile 
internet media along with denials by government agencies throughout the 
area that revolution is possible. Indeed, Uzbekistan has taken control 
over cellular companies there instructing companies to report on any 
suspicious actions by customers and on any massive distributions of 
text messages through their cellular lines.\14\ Azerbaijan too has 
attacked Facebook and Skype.\15\ We also see that Uzbekistan and 
Turkmenistan have instituted news blackouts.\16\
    Such moves emulate the draconian laws put in place by Russia and, 
Iran, and Kazakhstan as a result of the earlier color revolutions of 
2003-05, the Iranian elections and Xinjiang uprisings of 2009, and 
China's move to intensify its already harsh controls on the Internet in 
2011.\17\ These harsh moves against electronic media come on top of a 
situation demonstating that press freedom in Eurasia is at its ``lowest 
ebb'' in over a decade.\18\ Meanwhile, in Azerbaijan, where unrest has 
been growing since late 2010 in repsonse to the regime's moves to crack 
down on dissent and Islamic agitation (not necessarily the same thing), 
large demonstrations are now occurring. Thus the Azeri government, 
seeing the failure of earlier tactics is now trying to work with 
influential Western media outlets to change public opinion so that it 
will believe no changes are expected even as mild criticism is 
tolerated. Similarly the government will organize tours from Western 
elites to perusade people that the West is cooperating with Baku, and 
it will raise pensions, salaries, and social services while either 
coopting or suppressing the opposition.\19\
    Clearly these regimes are whistling in the wind and have good 
reason for anxiety. Such events undoubtedly stimulate Moscow's and 
Beijing's anxities as well. They might also stimulate US anxieties 
since the US has inclined to support these regimes as allies in the war 
in Afghanistan despite their checkered domestic records, thereby 
showing the military priority of US policy over the impulse towards 
democracy promotion.\20\ Furthermore were a revolution to break out in 
Azerbaijan there would be major grounds for foreign concern for there 
is very good reason to believe that Iran is a major force behind the 
opposition AIP party whose leader was imprisoned for advocating the 
regime's overthrow.\21\
    Certainly there are points of similarities between Arab and Central 
Asian societies, e.g. youth bulges with large ranks of unemployed young 
men and ``starkly autocratic regimes.'' \22\ Based on statistical 
analysis Ralph Clem recently wrote that,

          The empirical data available suggest a very close fit between 
        socioeconomic conditions in Egypt and Tunisia on the one hand 
        and the five Central Asian countries on the other, especially 
        with regard to the youthfulness of the population. In other 
        respects and in some countries, the pre-conditions associated 
        with political unrest are even more problematic in Central Asia 
        than in North Africa. Certainly Uzbekistan and Turkmenistan are 
        assessed to be more corrupt and less free than either Egypt or 
        Tunisia. However, Kazakhstan ranks higher than any of the North 
        African or Central Asian countries in the human development 
        indices and is less corrupt and freer than any of its 
        neighbors. Recognizing that none of these measures capture 
        perfectly the reality on the ground, and that other, non-
        quantifiable influences can be crucial to political outcomes, 
        and if conventional wisdom regarding the importance of these 
        structural factors is correct in the Egyptian and Tunisian 
        cases, then this comparison with Central Asia portends 
        turbulence ahead, particularly for Uzbekistan and 
        Tajikistan.\23\

    To be fair, Clem's conclusions are by no means universally agreed 
upon. Several writers have recently argued that revolutionary upheavals 
are unlikely in Central Asia in the immediate future. And it is clearly 
the case that internal factors rather than external ones will be the 
determining factors concerning the incidence of a revolution.\24\ But 
even if one accepts the argument that the indigenous forces of 
liberalism are quite weak and that the populations are not visibly 
disposed at present to support democracy as in North Africa, the 
domestic conditions singled out by Clem are telling in that they create 
an immense amount of internal pressure for change which, if bottled up, 
will sooner or later explode. And, of course, that explosion need not 
assume a liberal-democratic character. At the same time, however, it 
also should be pointed out that virtually every analysis of Central 
Asia confirms the incidence of these pressures that Clem listed.
    As discussed above, widespread official corruption, growing Islamic 
fundamentalism, ethnic minority and/or clan and family concerns, 
burgeoning populations the inability to provide basic social services 
for the population extant, unemployment and underemployment, large-
scale out-migration and the growing dependence on remittances, 
increasing involvement in the international narcotics trade and the 
attendant rise of domestic drug use, as well as environmental 
degradation and squabbles over increasingly scarce water supplies all 
pose significant challenges to the Central Asian states now and in the 
future. Add to this rising food prices, inflation, power outages, 
deteriorating medical care, and an underperforming educational system 
and the prospects for Central Asia appear even bleaker.\25\
    Consequently an upheaval in Uzbekistan, particularly during 
continuing conflict in Afghanistan, has immense geopolitical 
repercussions throughout the region given Uzbekistan's centrality to 
the war effort in Uzbekistan and the fact of its being the most 
geopolitically central and key prize of all the Central Asian 
states.\26\ Indeed, despite Uzbekistan's rank misrule it is sustained 
by its alliances with all of the major powers having interests in 
Central Asia and its key position astride the Northern Distribution 
Network to Afghanistan (NDN) has led US diplomats, who are fully aware 
of this misrule, to stress the necessity of maintaining at least 
``minimally decorous relations'' with it to sustain the NDN.\27\
    But Uzbekistan might be the worst governed of these states only in 
a relative sense. Governance in all of these states displays the 
triumph of informal relationships: clan, tribe, and/or family, 
triumphing over formal and legal ones. That trend is the opposite of 
most modern states. So we see in Central Asia at best an incomplete 
modernization and the persistence of archaic social structures and 
practices that have nonetheless become functional in these states. 
Moreover, because these rulers fear any reform there is a constant 
temptation and tendency towards the accumulation of ever more power and 
wealth at the expense of the nation and ever-present tendencies towards 
more, not less authoritarian or even quasi-totalitarian forms of rule. 
Nepotism and systematic corruption are rife everywhere. And with the 
rise of narcotics trafficking, widespread criminality pervades several 
governments. Alternative forms of corruption and predation lead to the 
same conclusion. These states' rulers enjoy control over or access to 
hugely disproportionate amounts of the state's economy which in many 
cases are dominated by one or two crops or raw materials like oil, gas, 
cotton, copper, gold, etc. At the same time they have preserved 
previous socio-economic structures like the Soviet system of cotton 
farming in Uzbekistan as highly serviceable forms of socio-political 
control and exploitation, e.g. child labor in Uzbek cotton farming.\28\ 
This phenomenon too exemplifies the melange of old and new that 
characterizes the region's socio-political structures and creates so 
much difficulty for analysts and external policymakers wishing to 
ameliorate conditions there.
    Thanks to their ability to forge this control over people and 
resources Central Asian leaders have translated that power and access 
into personalized forms of rule and rent seeking that displays and 
characterizes all the pathologies listed above. There is abundant 
evidence of widespread corruption, accelerating income differentials in 
income and extremely unbalanced concentrations of wealth, and pervasive 
signs of anomie and anomic behavior. Those signs take the form of 
family breakdowns, huge increases in drug addiction, criminality 
(including official corruption), torture of dissidents, more brutal 
forms of sexual discrimination and exploitation of women, ecological 
devastation, widespread poverty, ethnic intolerance (as in Osh in 
2010), etc. Consequently most foreign observers see this region as 
being plagued by multiple overlapping structural crises embodying all 
these pathologies if not more.
    Kyrgyzstan, which is anything but an autocracy, is perched 
precariously on the brink of ungovernability and subject at any times 
to mass unrest either ethnic or political, as its own officials admit. 
And while its leaders claim to be building democracy, this only applies 
to the ornamental or dignified parts of the state not its effective 
governing aspects. And in its case these effective aspects of 
governance are often carried out not just on the basis of regional, 
clan, tribal, or ethnic affiliation, but also by thinly disguised 
criminal enterprises.\29\ Therefore rhetoric aside, we cannot and 
should not term Kyrgyzstan a democracy or a state that is building one. 
Indeed, it is barely a consolidated state.
    Tajikistan, though clearly an autocracy, is on the verge of 
economic and presumably political collapse.\30\ It permanently 
confronts multiple, reinforcing, and often overlapping pressures: 
economic, political, climactic, and external. Even without the spark 
provided by the Arab revolution it exists in a state of permanent 
insecurity and as a result for a long time has had to outsource its 
security to outside powers, particularly Russia. Therefore it is at the 
mercy of these outside powers. Recently China forced Tajikistan to cede 
it about 1 percent of its territory supposedly in return for assurances 
of Tajikistan's long-term security, clearly a dubious rationale. 
Tajikistan is also on very bad terms with its neighbor Uzbekistan over 
questions of water and electricity use and almost went to war with it 
in 2010. Tajikistan's decision to restart the Rogun dam project in 2010 
triggered this spike in tensions and the Tajik media if not government 
clearly worries that a war with Uzbekistan might ensue that could then 
be exploited by unnamed third parties. Thus these media stories 
advocate mediation by neutral parties like the EU.
    Although the Sarikamysh gas fields explored by Gazprom may satisfy 
Tajikistan's power needs through 2060, these reserves do not satisfy 
Dushanbe's goal of using water-generated hydropower to become an energy 
exporter in Central and south Asia. Thus Tajikistan and Uzbekistan 
still confront each other, increasing the need for outside mediation. 
But Tajikistan's problems do not end here. Instead they only begin 
here. Its regime is notoriously corrupt with President Ermomali Rahmon 
having built a $300 million presidential palace in a state whose annual 
GDP is about $700 million. He justifies this expense by claiming it is 
necessary to impress foreign heads of state. But clearly neither 
Beijing nor Tashkent is sufficiently impressed to refrain from 
threatening Tajikistan. Likewise, Russia, its main protector, has now 
raised energy tariffs on Tajikistan just before the crucial spring 
planting season when farmers need oil for their tractors. Russia used 
similar tactics in 2010 to ignite the Kyrgyz revolution of that year 
and to signal its unhappiness with Kyrgyz policies. Now Russia is 
unhappy with Rahmonov's efforts to seal of the border with Afghanistan. 
Instead Russia wants to resume control of the border, probably not just 
to curtail the drug traffic from Afghanistan against which it 
habitually rails. There are other issues wherein Moscow wants 
Tajikistan to make an overt declaration of fealty and subservience to 
it rather than pursue what its neighbors call multivector policies 
towards all the outside actors. Thus Moscow wants to confirm Tajikistan 
as a satellite of Russia, not an independent actor who can play other 
states off against each other.
    Since Tajikistan depends on Russia for its energy imports and 
support on water issues this is a strong form of pressure. But it also 
faces the specter of domestic unrest, possibly inspired by the Arab 
revolution. Media reports criticize the regime for ``cosmetic'' reforms 
that amount to very little and warn that the ``Google generation'' is 
longing for radical change and very frustrated. Journalists have also 
written recently ``the people's patience is limited.'' A recent public 
opinion survey by TOJNews Information Company concluded that the boss 
of Tajikistan's Islamic party is more trusted than is Rahmonov who got 
only 6.5% of the vote, another disturbing sign of potential unrest.
    Yet at the same time the threat paradigm in Central Asia is not 
confined to the internal pathologies of misrule and what Max Manwaring 
of the US Army War College has called illegitimate governance.\31\ 
Neither is the primary threat the possiblity of terorism emanating form 
Afghanistan. While this would be a threat should NATO withdraw from 
Afghanistan before achieving either a victory or political resolution 
there, that is currently and for the foreseeable future not the main 
external threat to Central Asian states. In fact, as discerning 
observers recognize, there is almost as much potential for inter-state 
conflict in Central Asia as there is for a domestic crisis that could 
precipitate a state's disintegration.\32\ Indeed, the two phenomena 
could overlap if an internal crisis inside one state exploded, and 
every Central Asian leader understands this linkage and consequently 
strives to the utmost to avoid it. So while security in Central Asia 
must be understood in broad, holistic terms, the interaction of these 
rivalries among the local governments, combined with this illegitimate 
governance and external interest creates a hideously complex security 
situation.

The Security Equation in Central Asia

    Therefore if we were to assess the implications of the Arab Spring 
or the Arab Revolution for these governments those implications might 
look very different to them than they do to us. While Americans 
generally welcome these trends but have some concerns for their future, 
they haunt Central Asian and Russian, and Chinese rulers with the 
specter of an unmitigated disaster. The first conclusions that they 
drew long preceded the Arab revolutions and were inspired by the only 
partially successful color revolutions in the CIS of 2003-05 if not the 
Iranian, and Moldovan unrest of 2009. These regimes then learned what 
is clearly the central lesson of the Arab upheaval, namely that victory 
goes to he who controls the loyalty of the armed forces, usually armed 
forces that are deliberately multiplied and divided into several 
different formations, many of which have a primary mission of 
preserving internal security and suppressing unrest. In Russia and 
China we see an expansion of the number of police, paramilitary, and 
miliary units and of these organizations' missions.\33\ Although little 
research has been done on these organizations in Central Asia, it is 
quite likely that they have been beefed up to squelch internal 
manifestations of dissent as in the Andijan Massacre of 2005.\34\
    Second, they have long since moved to suppress potential for 
organizing, again in response to much earlier crises. Elections 
throughout the CIS and China are a foregone conclusion and parties are 
essentially either created from above by the regime or denuded of any 
real capability for challenging the status quo.\35\ Third, they have 
moved, as noted above, like China, Uzbekistan, Azerbaijan, and 
Turkmenistan to suppress new information technologies. In fact, 
according to some commentators, Russia is working to prevent a 
``Facebook Revolution'' by proposing that the owners of online social 
media be responsible for all content posted on their web sites.\36\
    Indeed, the haste and comprehensiveness with which these regimes 
have moved since 2003 to batten down all the hatches eloquently 
testifies to the fact that the structures of governance thoughout much 
of Eurasia remain fundamentally unstable and certainly illegitimate. 
This was certainly clear in 2009 given unrest in Moldova, Iran, and 
Xinjiang. These manifestations of unrest showed the power of the new 
information technology and social networking programs, and how they can 
be used to threaten corrupt and repressive regimes that seek to rule 
through electoral fraud, repression, and internal colonialism in China. 
There is also no doubt that these manifestations of unrest have serious 
repercussions beyond their borders. Often the silence of official media 
in authoritarian states is itself an eloquent testimony to this impact 
because the rulers fear the impact of such news upon their populace. We 
have evidence of deep scrutiny of Iranian events in 2009 in neighboring 
Azerbaijan whose independent media thoroughly reported the news from 
Iran while its official media was very quiet.\37\ Indeed, the Azeri 
government actually called for stability in Iran despite its wary 
relationship with Tehran, a sure sign of its anciety over the 
demonstrations there.\38\
    This kind of reaction to signs of spreading unrest suggests not 
just that these regional governing structures are fundamentally 
unstable but also that they are prone to recurring crises and may again 
be entering a dynamic phase of political development. In fact these 
episodes testify to the inherent fragility of anti-democratic regimes 
and their recurring susceptibility to internal violence. Consequently 
these regimes will try to ensure beyond any doubt that the outcome is 
foreordained and then ratified as legitimate. In practice this suggests 
that across Eurasia, especially if domestic tensions grow stronger in 
these states we may see repeat manifestations of policies adopted 
against the demonstrators of 2009. Those policies comprise the 
following developments across Eurasia:
    We can expect increased interference with the operation of free 
media and in particular a crackdown on the information technology of 
social networking. Authoritarian regimes' success in this endeavor to 
date calls into question the previously unquestioned assumption that 
this technology inherently favors freedom and its supporters.\39\ The 
most extreme example of this kind of repression evidently occurred in 
Xinjiang in 2009.
    After ethnic riots took place in July 2009, the Internet was cut 
off in the entire province for six months, along with most mobile text 
messaging and international phone service. No one in Xinjiang could 
send e-mail or access any website--domestic or foreign. Business people 
had to travel to the bordering province of Gansu to communicate with 
customers. Internet access and phone service have since been restored, 
but with severe limitations on the number of messages that people can 
send on their mobile phones per day, no access to overseas websites, 
and very limited access even to domestic Chinese websites. Xinjiang-
based Internet users can only access watered-down versions of official 
Chinese news and information sites, with many of the functions such as 
blogging or comments disabled.\40\
    This repression can also go beyond suppression of the free use of 
the internet and of other forms of information technology and social 
networking to include periodic or at least intermittent efforts to 
isolate the country from foreign media, including expulsions of foreign 
writers, denial of visas to them, interference with the internet, news 
blackouts, and increased threats if not use of repression against news 
outlets and their reporters. These threats need not include violence, 
they can be effectively implemented by economic means, denying revenue 
from advertising, or by what Russians call telephone justice, i.e. 
telephone calls from authorities to compliant editors. This also means 
greater efforts to develop a ``patriotic'' media and mobilize popular 
support around those tamed and docile ``house organs.'' So it is quite 
likely that those repressions of new and older media will also be 
accompanied by favoritism for the ``patriotic'' media and the 
systematic inculcation of nationalist xenophobia, something we see 
already in China, Russia, and Iran. Thus Karimov, has now charged the 
West with funding the Arab revolutions to gain access to oil, gas, and 
mineral reserves.\41\
    Increased restrictions upon opposition political movements are also 
likely. This repression will occur, not just in terms of their freedom 
of communication or access to the media, but also in terms of the right 
to assembly and publicly protest their condition. Invariably this also 
entails heightened forms of repression. In Iran in 2009 the regime 
essentially blanketed the country with police forces and some officials 
threatened the opposition with heavy jail terms or even with being 
labeled enemies of the state.\42\ And in Xinjiang that year the 
authorities followed suit and threatened any demonstrators with the 
death penalty.\43\ This likely trend also means more show trials and 
repressions like that of Mikhail Khodorkovsky in 2009-10 and of Iranian 
protesters during the same period. These kinds of show trials may also 
be used to settle factional and clan scores in Central Asia whose 
states are governed by clan and patron-client politics.\44\ In whatever 
form they appear they will be educational as Soviet rulers intended, 
and a deterrent to political activity in their impact. Here we should 
remember that Russia once again has a Gulag with political prisoners in 
psychiatric institutions, repressiveness and insecurity of property and 
the reintroduction of a ``boyar''-like retinue around an all-powerful 
ruler who rules through a state-sponsored cult of personality.\45\ 
Neither can we doubt Turkmenistan and Uzbekistan's verified records of 
torture of prisoners.\46\ The numerous reports of the Russian 
authorities' fears of social unrest during a time of economic crisis, 
the government's adoption of new repressive measures to deal with them, 
and the strengthening of the CSTO's capability to intervene in Central 
Asian states suggests that a strong effort will be made to suppress any 
sign of political unrest in both Russia and Eurasia at the first moment 
lest it connect with growing economic grievances.\47\ Indeed, Russia 
has also recently enacted many new regulations designed to forestall 
and repress any expression of mass unrest due to the economic crisis.
    Besides this fact a recent study of Kyrgyz and Kazakh counter-
terrorism legislation openly links developing trends in these two sets 
of laws that are increasingly repressive in the absence of much 
terrorist activity to these states' perception of Russia whose laws 
they are clearly emulating as a ``reference group'' for them, i.e. a 
state that has crated the basis for persuading these states to 
internalize its legislation.\48\ Thus Russia's counterterror 
legislation which serves as a template for countries like Kazakhstan, 
has served as a potent instrument for the repression of democratic 
political activity in Russia and in these countries. As a recent study 
of that legislation indicates,

          Aside from provisions of counterterrorism legislation that 
        strip individuals of many of their basic rights and judicial 
        protections, the Russian law On Counteraction to Terrorism 
        contains a number of loopholes surrounding the definition of 
        terrorism. Terrorist activity, according to the Russian law, 
        includes among other things, ``informational or other types of 
        assistance'' at various stages of terrorism, as well as ``the 
        propaganda of terrorist ideas. Dissemination of materials or 
        information which urge terrorist activity, substantiate and 
        justify the need for such activity.'' The liability for 
        ``informational assistance'' threatens to become a major 
        deterrent to the circulation of unofficial information about 
        terrorist attacks by broadcasting organizations. Liability for 
        the ``justification of terrorism'' which was established by an 
        amendment to Russia's Criminal Code in July 2007, has already 
        had a chilling effect on the freedom of speech and open debate 
        concerning terrorism. There are considerable risks of a 
        politically motivated enforcement of these legislative 
        proposals. The federal law on mass media has been amended with 
        a new restriction that prohibits public justifications of 
        terrorism by mass media sources. Given that terrorism has 
        always been a politically charged item, it is very difficult to 
        separate terrorism from other manifestations of politically 
        motivated violence. The imposition of the ban the vaguely 
        defined justifications of terrorism can promote editorial self-
        censorship and restrictions on the freedom of expression. It 
        may stifle investigative journalism and promote censorship of 
        news media articles on contentious topics related to 
        terrorism.\49\

    And new legislation to silence the media even more is currently 
being proposed.\50\ Such actions betray a traditional Russian (not just 
Soviet) military-police approach not only to terrorism, but to the 
whole question of internal dissent and regime stability. Thus Andrei 
Soldatov observes that the FSB and Ministry of Interior, (MVD) reacted 
to these revolutions in Tunisia and Egypt by proposing to amend the 
criminal code to make the owners of social networks responsible for all 
content posted on their sites and to force them to register with the 
state.
    Kazakhstan's efforts to ban the book of Rakhat Aliyev, Nazarbayev's 
ex-son in law and the 2009-10 purge of former high-ranking officials on 
corruption charges also opens the door to the possibility of a larger 
campaign to stifle any potential political opposition. Similar 
phenomena can be expected and should not be ruled out in other Central 
Asian states, especially given a prolonged economic crisis that could 
shake the pillars of the state. Indeed, even though Kazakhstan was the 
OSCE Chairman in 2010 its human rights situation essentially 
deteriorated still further.\51\ The new media law and the law on 
political parties that were supposed to embody promises made to the 
OSCE for reforms signed into effect by President Nazarbayev in February 
2009 do not meet OSCE standards.\52\ Certainly Kazakhstan's earlier 
elections and the awarding of life tenure to Nazarbayev cannot be 
portrayed as manifestations of democracy. Although Kazakh authorities 
have rightly emphasized the country's basic religious tolerance, its 
freedom of religion law was found to violate the country's constitution 
and was withdrawn. Nonetheless it needs to be redone.
    Worse, the new law on the Internet restricts freedom of expression 
via the Internet and aroused a large amount of controversy.\53\ Indeed, 
according to US experts this law is even more draconian than Russia's 
law and could easily serve as a template for other Central Asian 
governments.\54\ Beyond the fact that Nazarbayev openly advocated 
limitations on the freedom of the Internet, there have been recent 
massive hacker attacks on opposition websites and Internet 
resources.\55\ Andrey Richter, an expert from the OSCE, has confirmed 
that this law completely contradicts the promises made by Kazakh 
authorities concerning civil and human rights.\56\ As Alexei Simonov, 
Head of the Glasnost' Defense Fund observed,

          Kazakhstan's desire to be a European power is quite 
        noticeable despite its Asian location. So I think that Astana 
        will have to listen to the opinion of human rights activists, 
        because the image of Kazakhstan, which is already not the most 
        glowing, will be ruthlessly torpedoed by these amendments [to 
        the law on the media and concerning the internet], Kazakhstan 
        will quickly find itself at the bottom, among states that are 
        not liked because they severely violate the human right to 
        freedom of speech and opinion.\57\

    Although Foreign Minister Marat Tazhin and Ambassador to the US 
Erlan Idrissov have repeatedly stated that a genuine multi-party 
system, independent media, and term limits for the president are or 
have been enacted into legislation and that Kazakhstan is ``determined 
to continue our policy of democratization in conformity with 
international human rights standards,'' Kazakhstan is and remains a 
Potemkin democracy.\58\
    Authoritarianism has remained inviolate and unchanged since 1991 
and much of the social science literature that could be used to analyze 
Kazakhstan's political system would point to a continuing 
authoritarianism and little reform. However, there is the possibility 
that Kazakhstan's commitment to the accords it made with the OSCE in 
Madrid in 2007 could enable activists to utilize those principles of 
international and domestic accords to launch a more vigorous campaign 
for the Kazakh government to observe human rights as it committed 
itself to doing and thus replicate the experience of Eastern Europe and 
the Soviet Union a generation ago.\59\
    It also is clearly ruled in dynastic fashion with Nazarbayev 
astutely balancing clans and factions. Niyazov's death reportedly 
forced Nazarbayev to start thinking about succession in 2007 and it 
also alerted these clans who had hitherto not challenged him or the 
regime to follow suit. The result has been something of a series of 
continuing intrigues around this issue. According to Stratfor.com,

          Nazarbayev decided to step down in 2010 in order to be able 
        to bolster whoever succeeded him and keep the peace. But the 
        infighting proved too strong and risky, compelling Nazarbayev's 
        supporters to name him ``Leader of the Nation''--meaning he 
        would always be in charge, not matter the position. The 
        declaration was more a safety net than anything. The political 
        theater surrounding rumors of succession decisions grew more 
        dramatic over the past year, leading to the decision in January 
        to call for a snap election for April.\60\

    At the same time he had originally planned to call for a referendum 
to certify his position and make it unassailable till 2020. 
Unfortunately Western governments communicated their unhappiness with 
this move and it certainly seemed impolitic as the Arab revolution 
gathered steam. So it was shelved and a snap presidential election 
called.\61\ Nevertheless the election was widely reported to have major 
shortcomings and Nazarbayev's political advisor Yermukhamet Yertsybayev 
told reporters that ``I think the president is going to run the country 
for ten years more, and if someone in the West doesn't like it, they'll 
have to get used 
to it.'' \62\
    However, in the meantime a game of balancing rival clans and 
factions continues while members of the inner circle, especially his 
daughter and son-in law, Timur Kulibayev, who are worth an estimated 
$2.5 billion, become targets of corruption investigations abroad and 
bywords for corruption.\63\ Under these circumstances it is not 
surprising that in the wake of his election Nazarbayev announced his 
intention to strengthen the Parliament and regional governments while 
deconcentrating central executive power.\64\ Whatever the democratizing 
implications of his plan may be or whatever ambitions for democracy 
Nazarbayev has, this move widens the circles of elites, dilutes the 
clans and factions close to him, and strengthens his hand to pick his 
successor while diffusing power so that nobody can amass too much power 
in the future. Nazarbayev's charge to his new government is to reduce 
corruption although that is hard to do given the corruption at the top. 
Second, Yertsybayev apparently envisages reforms from the top to create 
state-led parties of power and of opposition.\65\ This system would 
allegedly be a ``Presidential-Parliamentary system'' able to function 
in Nazarbayev's absence. And there are rumors that Kulibayev would duly 
lead the opposition party, thus confirming the continuation of a kind 
of Potemkin democracy.\66\
    This plan has apparently infuriated opponents of the regime but 
they are in no position to stop it. It would appear that Nazarbayev's 
concept of reform is to ensure a smooth transition to his successor 
whoever that may be, not to strengthen the overall system's 
responsiveness to society. Instead he apparently aims at building a 
relatively closed but seemingly self-sustaining system of presidential-
Parliamentary relationships. But this is likely to be a chimera in the 
absence of the rule of law, governmental accountability, and genuine 
reform. Indeed, it may lead to new authoritarianism or to sustained 
political strife after Nazarbayev leaves the scene.\67\ Since the 
succession remains unresolved and nobody can stop the ruling family's 
corruption or machinations to revise the constitution whenever it 
likes, it is doubtful that genuine democracy can be initiated from the 
top or that the nature of the state will change substantially as long 
as Nazarbayev rules and possibly for some time after that. Whether it 
works or not, this and other trends in Kazakhstan highlight the 
unresolved nature of the succession and the fact that the astute 
economic policies followed until now depend too much on one man's 
wisdom. Despite his great achievements this is not the best augury for 
the future. Meanwhile in Uzbekistan, Turkmenistan, Kyrgyzstan, and 
Tajikistan we do not even see this much effort to advance reforms but 
it is clear that there are struggles for power and position within the 
inner circles of these regimes.
    Finally along with the growth of repression and electoral chicanery 
we can also expect a growth in officially sponsored xenophobia and 
nationalism. We already saw that in Kyrgyzstan in 20910 and it would 
not be hard to stimulate such feelings since every government in 
Central Asia has been busily proclaiming a kind of state nationalism 
since 1991. As a result, and given the widespread phenomenon of ethnic 
diasporas and minority nationalities in Central Asia there are ready 
targets for such campaigns in almost all of these states.
    The point is that these regimes are so aware of their inherent 
fragility that they know very well that the spread of democracy or even 
of reform, not to speak of revolution in any one nearby state 
immediately puts them all at risk. To them ultimately there is no 
difference between the spread of democracy or military defeat in their 
peripheries because it will amount to the same thing, the loss of their 
power. It is not by chance that in 2006 Defense Minister Sergei Ivanov 
wrote that for Russia wrote that the greatest threat to Russian 
security was efforts to transform the ``constitution'' of any of the 
CIS members.\68\
    Therefore we can expect more resistance to the US' calls for 
democratization and human rights, which, in fact, have been attenuated 
under the present Administration. It makes no sense to demand that 
states like Turkmenistan conform to human rights obligations when we 
refuse to press China or Russia, the latter being a signatory of the 
Helsinki treaty, to uphold their treaty commitments. Since Russia is in 
many ways an alibi and a cover for other Eurasian states who are merely 
adding to their ultimate insecurity by these practices, this makes 
pressing Russia to adhere to its human rights obligations doubly 
important even if Moscow does not like to hear it. For if we refrain 
from doing so, this only tells Russian leaders that we are not serious 
in our commitment and that they can therefore disregard us with 
impunity. And we leave ourselves wide open to charges of hypocrisy 
throughout the CIS. Moreover, when the reckoning for these states 
comes, as it surely will, we will once again be caught unprepared 
without a policy response to that crisis.

Practical Policies of Repression

    Another lesson that was learned even before these Arab uprisings 
was to crack down on Islamic beliefs, practices, and institutions. For 
example, in Azerbaijan the government has struck against both Islamic 
trends and their political advocates. The latest episode in 
Azerbaijan's ``twilight struggle'' between the government and the 
Islamist opposition revolves around the government's ban of the Hijab 
for teenage girls in Azeri high schools. As we know from other Islamic 
countries like Iran, the Hijab signifies not just extreme religious 
affiliation but also a political statement about the nature of the 
society, state, and the role of women in society. Azerbaijan's 
government, with its traditional tolerance for a looser form of Muslim 
observance and Western tendencies, has opposed this kind of medievalism 
and sought to ban it from its schools. Naturally this ban aroused the 
ire of the apparently growing religious Islamic community leading to 
demonstrations at the end of 2010 and beginning of 2011. The leader of 
the outlawed and overtly pro-Iranian Islamic Party of Azerbaijan (AIP), 
Movsun Samadov was then arrested on January 7 after he posted videos 
denouncing President Aliyev. While this arrest may have violated his 
civil rights, as we understand them, Samadov was not just opposing the 
Hijab ban. Instead his screed came right out of the Iranian and Islamic 
playbook. He accused Aliyev of destroying mosques, trying to ban the 
Muslim call to prayer, harassing women who wish to wear the Hijab and 
compared him to a 7th century caliph vilified by Shi'a Muslims. He 
urged a revolution to oust the despotic regime and its personality 
cult, quoted Mohammed for people to give up their lives for religion's 
salvation, and asserted that Azerbaijan will face even bigger tragedies 
as long as the government is fully controlled by the Zionists.
    The government rightly claimed that he was not only inciting 
revolution and suicide attacks on the government but that they also 
found weapons in his home as he and over 20 other believers were 
arrested. The AIP naturally denied all these charges and from here we 
cannot ascertain who is right. But Samadov clearly was inciting 
revolution and violence and his party rejected the authority of the 
official Muslim religious leader of Azerbaijan who is appointed by the 
government. And since the controversy began, the Iranian media has 
weighed in by attacking the Azeri government for the Hijab ban, 
suggesting again that it is led by or inspired by Israel to attack 
Islam. In Tajikistan, President Ermomali Rahmonov has launched a 
crackdown on Mosques, called home 100 students from Iran who were 
allegedly being exposed to subversive religious dogmas. But over 90 
percent of them are not continuing their studies. Meanwhile Rahmonov 
also inveighs against ``alien'' religious sects that are allegedly 
active in Tajikistan.\69\ Such moves are intended to prevent any 
organized opposition from arising. Similarly in Uzbekistan the Karimov 
regime has launched a new crackdown on religious Muslims.\70\

Militarization and the Threat of Inter-State Intervention

    But Central Asian practical responses to the Arab revolution hardly 
end here. As the Arab revolution has become an international affair, 
triggering both domestic and international violence, most notably in 
NATO's Libya operation, Central Asian leaders understand that first 
they must maintain total control over the organs of force and 
repression and that if they do not do so they risk foreign 
intervention, either from Russia (and possibly China) or from their 
neighbors. Though our knowledge of Central Asian militaries is 
incomplete, it is clear that in the last few years we see a growing 
militarization of Central Asia that has expressed itself in increased 
defense spending, a tried and true method of cementing military 
loyalty. This militarization is also directly attributable to the 
rivalries among Central Asian states.
    Kiril Nourzhanov's analysis of Central Asian threat perceptions 
highlights this sense of threat from each other. Nourzhanov notes the 
need to break away from a Western-derived threat paradigm that sees 
everything in terms of the great power rivalry commonly called the new 
great game and the main internal threat to regimes, namely insurgency 
even though these are certainly real enough threats.\71\ While these 
threats surely exist, they hardly comprise the only challenges to 
Central Asian security. Thus he writes that,

          Conventional security problems rooted in border disputes, 
        competition over water and mineral resources, ubiquitous 
        enclaves and ethnic minorities, generate conflict potential in 
        the region and are perceived as existential threats by the 
        majority of the local population. One of the very few 
        comprehensive studies available on the subject arrived at the 
        following conclusions. 1) relations among the countries of 
        Central Asia are far from showing mutual understanding on the 
        whole range of economic issues; 2) the most acute 
        contradictions are linked to land and water use; and 3) these 
        contradictions have historical roots and are objectively 
        difficult to resolve, hence they are liable to be actualized in 
        the near future in a violent form.\72\

    This is not just another academic analysis. In fact, border 
problems, mainly between Uzbekistan and all of its neighbors, have long 
impeded and today continue to retard the development of both regional 
security and prosperity.\73\ Indeed, it is not too far to say that 
given the antagonism between Uzbekistan and its neighbors, especially 
Kyrgyzstan and Tajikistan, hostile relations and even the use of force 
is never far from a possibility.\74\ Nourzhanov is not alone in calling 
for this new approach to regional security. As S. Frederick Starr also 
noted,

          On the other hand this perspective on Central Asian security 
        or the second alternative of seeing it in the context of local 
        governments' internal stability is arguably incomplete. Anyone 
        studying security issues in Central Asia quickly recognizes 
        that environmental factors--the use and control of land, water, 
        energy, and other raw materials, and the reclamation of 
        polluted lands--play an extremely important role in that 
        region's security and political agendas.\75\

    Similarly the International Crisis Group likewise concluded that 
the international community must urgently approach the issues of border 
delimitiation with more urgency than before.\76\ Anyone looking at 
Central Asian security can readily see that tensions over borders, 
particularly between Uzbekistan and its neighbors, generate constant 
inter-state tensions in Central Asia.\77\ The same is true for water 
use, an issue that has already brought the EU and UN into efforts to 
help arrange multilateral solutions among Central Asian states to 
prevent what could easily become a war among or between them.
    Due to these trends a regional arms race has taken root in Central 
Asia. In 2007 alone military spending in Kazakhstan, Uzbekistan, and 
Turkmenistan rose by 48%.\78\ As Nourzhanov further notes,

          The bulk of the money would be spent on heavy weapons, fixed-
        wing planes, and navy vessels which is hard to explain by the 
        demands of a fight against terrorism alone. Remarkably the 
        danger of intra-regional armed conflict is not seriously 
        analyzed in any official document. The current Military 
        Doctrine of Kazakhstan (2000) which talks about the 
        tantalizingly abstract `probability of diminshed regional 
        security as a result of excessive increase in qualitative and 
        quantitative military might by certain states', may be regarded 
        as a very partial exception that proves the rule.\79\

    Much evidence corroborates this last point. For example Kazakhstan 
has increased defense spending by 800% in 2000-07. \80\ And the state 
defense order is expected to double in 2009.\81\ Indeed, the trend 
towards militarization was already evident by 2003.\82\ Nourzhanov also 
notes that Central Asian leaders have put themselves or been put in an 
impossible position by having to recite public paeans to regional 
cooperation when they are contradicting it in their actions. Likewise, 
their invocations of Western threat scenarios that prioritize terrorism 
and insurgency are belied by events since only in Kyrgyzstan has there 
been an 
insurgency.\83\
    Thus there is good reason to believe that Central Asian states fear 
their neighbors as much as they do the possibility of Russian and/or 
Chinese intervention. While China, in line with its overall policy 
remains wary of direct military intervention in the domestic affairs of 
a Central Asian state, Russia does not. Indeed, it clearly contemplates 
this possibility and is implementing the means to effectuate such 
intervention to prevent revolution either with a local government or 
regardless of its views. In the first case, after protracted bargaining 
in 2006 Uzbekistan granted Russia the right to use its airfield at 
Navoi as a base, but only under special conditions. Russia will only be 
able to gain access to Navoi in case of emergencies or what some 
reports called ``force majeure'' contingencies. In return Russia will 
provide Uzbekistan with modern navigation systems and air defense 
weapons. In other words Uzbekistan wanted a guarantee of its regime's 
security and Russian support in case of a crisis. But it would not 
allow peacetime Russian military presence there.\84\
    But in other cases Russia sees no reason to solicit the host 
state's cooperation. Russia, in particular seems to be so anxious about 
the possibility of unrest in Central Asia spreading from a domestically 
triggered insurgency in other states like Kyrgyzstan, that here too it 
has suggested has suggested joint intervention with Kazakhstan. Thus in 
a 2006 assessment Ilyas Sarsembaev writes that,

          Some Russian military analysts consider that if Kyrgyzstan 
        were overtaken by a complete political collapse, Russia and 
        Kazakhstan could impose some kind of protectorate until 
        stability could be reestablished and new elections held. In 
        this scenario, the United States would allow Moscow to take 
        action in Kyrgyzstan, because most of its own resources would 
        already be mobilized in Iraq and Afghanistan--and probably in 
        Iran and Syria. Russian help would then be welcomed and much 
        preferred to that of China. Indeed, if Russia did not dare to 
        put itself forward as a stabilizing force, China might use 
        Uyghur separatism.\85\

    Obviously this assessment links the prospect of state collapse in 
Kyrgyzstan to international rivalries (the so called new great game) 
and to the possibilities of separatism among China's Uyghurs. Thus it 
implicitly postulates the paradigm outlined above, i.e. a direct link 
from state failure to foreign invasion or intervention and even the 
threat of state dismemberment. And where there is not an actual sign of 
state failure but a domestic situation that could be manipulated to 
provide pretexts for intervention, Russia has already prepared the 
legal ground for doing so. On August 11, 2009, Russian President Dmitry 
Medvedev sent a letter to the Duma urging it to revise Russia's laws on 
defense. Specifically he urged it to revise the existing laws to pass a 
new law,
    The draft law would supplement Clause 10 of the Federal Law On 
Defence with paragraph 21 specifying that in line with the generally 
accepted principles and provisions of international law, the Russian 
Federation's international treaties, and the Federal Law On Defense; 
Russian Armed Forces can be used in operations beyond Russia's borders 
for the following purposes:
    <bullet>  To counter an attack against Russian Armed Forces or 
other troops deployed beyond Russia's borders;
    <bullet>  To counter or prevent an aggression against another 
country;
    <bullet>  To protect Russian citizens abroad;
    <bullet>  To combat piracy and ensure safe passage of shipping.
    The draft suggests that the Federal Law On Defence be supplemented 
with Clause 101, setting, in accordance with Russia's Constitution, the 
procedures for decisions on use of Russian Armed Forces beyond the 
country's borders.\86\
    The ensuing law goes beyond providing a ``legal'' basis for the 
offensive projection of Russian military force beyond Russia's borders 
and thus justifying the war of 2008 and any subsequent attack against 
Georgia in response to alleged attacks on ``the Russian citizens'' of 
the supposedly independent states of Abkhazia and South Ossetia. It 
also provides a basis for justifying the offensive use of Russian force 
against every state from the Baltic to Central Asia on the selfsame 
basis of supposedly defending the ``honor and dignity'' of Russian 
citizens and culture from discrimination and attack. In the context of 
our discussion attacks on Russians could well be or be twisted to mean 
that a state has lost control of the situation at home and requires or 
the situation requires direct forceful intervention from outside.
    This should not surprise us. After all, in the wake of the Russo-
Georgian war President Medvedev announced that he would form now on 
base his foreign policy on five principles. Among them are principles 
that give Russia a license for intervening in other states where the 
Russian minority's ``interests and dignity'' are allegedly at risk. 
Medvedev also asserted that Russia has privileged interests with 
countries which he would not define, demonstrating that Russia not only 
wants to revise borders or intervene in other countries, it also 
demands a sphere of influence in Eurasia as a whole.\87\
    Yet even as it postulates a diminshed sovereignty thorughout 
Central Asia, Russia has responded by strongly supporting the current 
status quo in all of these countries, clearly believing that the only 
alternative to it is worse. Thus logically, if not pragmatically its 
policy is ultimtely contradictory. On the one hand it has become the 
bastion and alibi for Central Aisan states behind which they hide and 
whose justifications for autocracy they emulate. On the other hand, it 
is a revisionist state whose policies clearly express its belief that 
Central Asian states are not truly sovereign. As Yuri Fedorov writes 
regarding the 2009 law on military intervention,

          Russia's self-proclaimed right to defend its troops against 
        armed attacks affects Moscow's relations with Armenia, Belarus, 
        Kazakhstan, Kyrgyzstan, Tajikistan and Uzbekistan, all of which 
        are parties to the Collective Security Treaty Organization 
        (CSTO) and, with the exception of Belarus, the Shanghai 
        Cooperation Organization (SCO), and which also have bilateral 
        arrangements on military assistance with Russia. Russian troops 
        and military facilities are deployed in all of these states, 
        with the exception of Uzbekistan. Neither the Collective 
        Security Treaty, nor any bilateral arrangements imply Russia's 
        right to make unilateral decisions about the form, scope and 
        very fact of employing its forces in the aforementioned states. 
        All of these issues were to be decided either by all parties to 
        the CSTO collectively, or by parties to the corresponding 
        bilateral treaty. Decisions on counter-terrorist activities in 
        the framework of the SCO are made by consensus. The new Russian 
        legislation did not cancel out the multilateral or bilateral 
        decision-making procedures yet it devalued those procedures in 
        a sense. If Russian troops deployed in some of these countries 
        are involved in international or internal conflicts, which is 
        quite possible, Moscow will have a pretext for using them and 
        duly deploying additional units in a unilateral manner. The 
        right to defend Russian troops on foreign soil is of particular 
        importance for Russia's relations with Ukraine and Moldova. The 
        Ukrainian government has demanded the withdrawal of the Russian 
        naval base after 2017, while Moldova insists on the immediate 
        departure of Russian troops from Transdniestria. In turn, 
        Moscow has set its sights on stationing its troops there 
        indefinitely. In such a context, skirmishes of any degree of 
        gravity involving Russian servicemen in these countries may 
        furnish Moscow with a pretext for military intervention.\88\

    Kyrgyzstan's revolution in April 2010 and ensuing ethnic pogroms 
against resident Uzbeks in June 2010 also exemplify Russia's propensity 
to intervene to ensure its preferred domestic outcome. Although 
Russia's fingerprints were all over the April 2010 coup, it and many 
external observers felt that the new regime was not stable enough. Even 
before the ethnic rioting began on June 10-11, Russian figures 
announced that Russia and Uzbekistan had agreed that they should 
intervene to stabilize the situation there.\89\ But Uzbekistan had 
actually refused to do so. Indeed, President Karimov openly stated that 
Kyrgyzstan's problems were exclusively its own internal affair and that 
the violence and instability were being fomented from outside, i..e 
probably Russia, a view also shared by the Tajik media.\90\
    Instead Uzbek President Islam Karimov turned to China. We can see 
this from the communiques of his meetings with President Medvedev and 
Hun Jintao as they arrived for the SCO summit on June 10-11, 2010. The 
communique with Medvedev was correct but formal. But Karimov's meeting 
with Chinese President Hu Jintao reported a fulsome communique 
extolling the millennium of relations between Uzbekistan and the 
Celestial Kingdom at the start of this meeting followed by a statement 
that the two presidents then conducted an extensive review of regional 
and geopolitical issues that could only mean Kyrgyzstan's 
stability.\91\ President Hu Jintao offered a six point formula for 
Sino-Uzbek relations where point 6 called on both countries to 
intensify multilateral coordination to safeguard both states' common 
interests and stated that both countries must cooperate against threats 
to security in Central Asia. Karimov welcomed these proposals, 
suggesting quite strongly that Uzbekistan was leaning away from Moscow 
towards Beijing, not least because of Moscow's unceasing efforts to 
obtain a second military base in the Ferghana valley around Osh so that 
it could control that valley.\92\ It also appears that Uzbekistan also 
obtained China's support for a position blocking Russian intervention 
in Kyrgyzstan in the SCO and the Collective Security Treaty 
Organization (CSTO) where China is not a member, but also where a 
clear-cut Chinese policy aligned to that of Uzbekistan, would carry 
weight.
    Possibly Russia lacks the necessary forces to conduct a peace 
support operation in Kyrgyzstan, or does not want to have to choose 
between the Kyrgyz and the Uzbeks, standard practice in Russian 
``peacemaking operations,'' or else the mission was murky, protracted, 
costly, and uncertain at best. Nevertheless troops were apparently 
ready to go to Kyrgyzstan and at least some leaders in Moscow wanted to 
carry out this operation.\93\ However, since then Moscow has prevailed 
upon its military alliance in Central Asia, the Collective Security 
Treaty Organization (CSTO) to develop both the forces and the 
conditions for domestic intervention in member states in the event of 
upheaval there.
    With Bishkek's consent, the CIS Collective Security Treaty 
Organization (CSTO) amended its charter in December 2010 to include 
intervention in internal conflicts of member states, a change clearly 
related to Kyrgyzstan's ethnic clashes.\94\
    Consequently it is not just an urgent domestic policy affair for 
Central Asian leaders to suppress unrest not to mention democratic 
reform, by all means possible, it also is also an equally urgent matter 
of the sovereignty of their states. The prospect of state failure leads 
interested external actors to prepare policies of neo-colonial 
subordination of Central Asia to their interests and ambitions. As we 
noted above the prospect of losing power due to a revolution equates to 
losing power due to defeat by an external government. Although Central 
Asian claim that they have had largely stable governments for twenty 
years and resent the implication that they have to learn governance 
from the West, in fact the paradigm of ongoing potential instability 
has much validity to it. Moreover, it teaches harsh but true lessons. 
Failure to master internal security dynamics opens the way to long-
standing hard security threats. Moreover, such interventions are hardly 
confined to Russia.
    Many observers feared Uzbek intervention in Kyrgyzstan's ethnic 
pogrom of 2010. Indeed, the default posture in dealing with major or 
potentially major Central crises in Central Asia is the expectation 
that they could jump sate lines and lead to a general regional or at 
lest interstate crises. When Turkmenistan underwent a succession due to 
the sudden death of President Niyazov in late 2006 there was widespread 
apprehension internally and in Central Asia that it could lead to war 
both at home and throughout the region. This particular crisis also 
showed that there is an all too ready acceptance by analysts and 
governments interested in the region that such crises or other kinds of 
threats to state stability justify calls for foreign intervention.
    When Niyazov died Senior Research Associate of International and 
World Economies Institute of the Russian Academy of Sciences, 
Academician Vladimir Yevseyev, argued that to prevent internal 
instability in both Turkmenistan and the region Russia and Kazakhstan 
should play a key role in the post-Niyazov Turkmenistan.\95\ This 
observation captures the fact that instability in one Central Asian 
state is widely perceived as being likely to spread to neighboring 
states. In other words, something like the mentality of the domino 
theory is deeply rooted in elite calculations here. In the Niyazov 
succession we saw a simultaneous belief in the fundamental uncertainty 
of the Turkmen and even regional security equation coupled with the 
belief that major change might be even worse. While many argued that a 
succession struggle, could, if done in a peaceful fashion, deescalate 
tensions, a violent struggle would further inflame inherent deep-seated 
tensions throughout the area. Shokirjon Hakimov, the leader of 
Tajikistan's opposition Social Democratic Party of Tajikistan, stated 
that, ``Undoubtedly, if the forthcoming political activities in 
Turkmenistan concerning the designation of the country's leader take 
place in a civilized manner, then they will certainly have a positive 
influence on the development of pluralism in the region.'' \96\ At the 
same time, Kazakhstan's Foreign Minister Kasymzhomart Tokayev revealed 
both his government's hopes and its apprehensions by saying that his 
government has an interest in Turkmenistan's stability. Therefore 
``Kazakhstan is not going to get involved in any wars for 
Turkmenistan.'' \97\ The sentiments behind this statement speak for 
themselves.
    This kind of sentiment is still the case. Uzbekistan's hostile 
relations with Tajikistan emerge from the following example. Uzbek 
papers, obviously under governmental control, openly speculate that due 
to a poor food security situation, in other terms undernourishment, 
Tajikistan's situation is potentially explosive. They charge that due 
to this poverty and hunger families sell their daughters to Chinese 
people or engage in narcotics trafficking to make money and that the 
government is not even always feeding its soldiery. Therefore they 
charge that Tajikistan might be vulnerable to an Egyptian style 
revolution.\98\ There are many such examples, most notably in the 
general skepticism and pessimism concerning the staying power of the 
new Kyrgyz government. But they are not confined, as we have seen, to 
expectations or assessments concerning Kyrgyzstan's ``democracy.''

Implications for US Efforts at Democracy Promotion

    All of these phenomena present a bleak picture for all foreign 
efforts, private or public, US or EU, or other parties' efforts to 
promote democracy in these states. To the extent that these 
organizations exist they infuriate the leaders of Central Asia, and 
provide ever ready pretexts for them to blame the US or other forces 
for attempting to undermine them. Since it is unclear if the US has a 
definite media policy for this region to make clear that such charges 
are unfounded, and essentially the work of Russian and local government 
propagandists seeking to blind people from comprehending their own 
domestic situation or the failure of the Russian efforts at 
intervention in the Ukraine and Georgia after 2003, the field has been 
left open to the purveyors of such charges. Second, more recent 
assessments of democracy promotion has suggested that they are too tied 
to the US or other foreign governments or organizations and though well 
intentioned, misconceived in terms of local realities.\99\
    To the extent that the Arab revolutions continue and possibly 
become more violent and to the degree that other governments fall 
victim to this tide, e.g. Libya and Syria, it is likely that repressive 
measures directed against these democracy promotion programs will grow. 
This will be even the case if it looks to local rulers like pressure 
for reform is growing in their own countries. This poses a serious 
problem for US policy in the region. That policy today has the 
overwhelming priority of establishing lasting ties with local 
governments, particularly in the military sphere, because of our quest 
for victory in Afghanistan. Every indicator of policy, whether it be 
the record of defense and other assistance, the statements issued after 
high-level visits, etc indicates that the priority of establishing 
lasting military, political and economic ties far outstrips the 
commitment on the ground to improving governance and human rights in 
these countries.\100\ This is said as fact, not as critique, for one 
can credibly argue that our priority is indeed the war on terrorism 
centered in Afghanistan. Nonetheless we will be blamed for democracy 
promotion whether or not the US promotes democracy. Our strategy must 
therefore not only highlight human rights shortfalls in Central Asia, 
but also in Russia and China and do so in a way more consonant with 
local realities as suggested in some of the recent critiques of those 
programs.\101\ To the degree that Central Asia becomes more important 
for the US and we seek to build a lasting, multi-dimensional US 
presence there, we have no choice but to be a strong and effective 
advocate throughout Eurasia for principles that local governments have 
accepted in solemn international accords. For if we fail in that task 
the inevitable day of reckoning that will come will also sweep aside 
our previous policy achievements that will have then be shown to be 
built on sand.

    \1\  ``Muhammad Tahir, Governments Move To Thwart `Arab Spring' In 
Central Asia,'' Human Rights Society In Uzbekistan, Blog Archive, 
http://en.hrsu.org/2011/04/28/in-the-arab-world-from-getting-a-
foothold/, April 28, 2011, and Eurasia Insight, April 28, 2011
    \2\  Yevgeny Shestakov, ``Could the Revolutionary Fervor in North 
Africa Reach the Former Soviet Central Asian States?'' The Telegraph, 
April 1, 2011; Catherine A. Fitzpatrick, ``Will the Revolutions in the 
Middle East Have an Impact on Uzbekistan?'' Eurasia Insight, 
www.eurasianet.org, February 4, 2011; Georgiy Voloshin, ``Don't Expect 
Mideast-Style Revolution in Central Asia,'' Global Asia, VI, NO. 1, 
Spring, 2011, http://globalasia.org/1.php?c=e379
    \3\  See the following articles on the Uzbek and Kyrgyz militaries, 
``Interview With Major General Kabul Berdiyev, Minister of Defense of 
Uzbekistan,'' Moscow, Krasnaya Zvezda Online, April 30, 2011, Open 
Source Center, Foreign Broadcast Information Service, Central Eurasia 
Henceforth, FBIS SOV, April 30, 2011; Sergey Sidorov, ``Interview With 
Kyrgyz Defense Minister Abibila Kudayberdiyev,'' Bishkek, V Kontse 
Nedeli, in Russian, April 22, 2011, FBIS SOV. May 3, 2011
    \4\  Gabor Stier, ``Final Warning: Central Asian Dictators Bought 
Time for Reform,''RIA Novosti, Valdai Discussion Club, April 13, 2011, 
http://en.rian.ru/valdai--op/20110413/163505830.html
    \5\  K.Kumkova, ``Kazakhstan: Astana Powerbrokers Wrestling With 
the Succession issue,'' Eurasia Insight, May 10, 2011
    \6\  Sean Roberts, Saving Democracy Promotion From Short-Term U.S. 
Policy Interests in Central Asia, A Century Foundation Report, Century 
Foundation, New York, 2009; and see the Discussions in Anna Kreikemeier 
and Wolfgang Zellner, Eds., The Quandaries of Promoting Democracy in 
Central Asia: Experiences and Perspectives From Europe and the USA: 
Report of a Transatlantic Workshop at the Center for OSCE Research in 
Hamburg, Centre for OSCE Research Working paper, No. 18, 2007
    \7\  Tahir
    \8\  Ashgabat, Turkmen TV Altyn Asyr Channel, in Turkmen, April 28, 
2011, FBIS SOV, April 29, 2011
    \9\  ``Governments Move To Thwart `Arab Spring' In Central Asia,''
    \10\  Paul Quinn-Judge, ``Conventional Security Risks To Central 
Asia: A Summary Overview,'' Paper Presented to the Conference, Energy, 
Environment, and the Future of Security in Central Asia, Understanding 
the Security Implications of Critical Energy and Environmental Issues, 
Rome, October 15-16, 2009
    \11\  Ralph S. Clem, ``From the Arab Street to the Silk Road: 
Implications of the Unrest in North Africa for the Central Asian 
States,'' Eurasian Geography and Economics, LII, NO, 2, 2011, pp. 228-
241
    \12\  Robert D. Kaplan and Abraham M. Denmark, ``The Long goodbye: 
The Future North Korea,'' World Affairs, May/June, 2011 CLXXIV, No. 1, 
pp. 12-13
    \13\  ``Sokhranit' Stabilnost' v Tsentral'noi Azii- Uchastniki 
Parlametnariskikh Situatsii v Gosdume,'' www.duma.gov.ru/news/273/
71937/print=yes, April 13, 2011
    \14\  Murat Sadykov, ``Uzbekistan Tightens Control Over Mobile 
Internet,'' Eurasia Insight, March 15, 2011, www.eurasianet.org; Fyodor 
Lukyanov, ``Learning From Libya and Singapore,'' Russia in Global 
Affairs, January 25, 2011, http://eng.globalaffairs.ru/redcol/Learning-
from-Libya-and-Singapore-15124; ``Anti-Revolution Agenda: Seize the 
Control Over Cellular Companies,'' www.neweurasia.net/cross-regional-
and-blogosphere/anti-revolution-agenda-seize the -control-over 
cellular-companies, March 15, 2011; ``Uzbekistan Zashchishchaeyet Seti 
Peredachi Dannykh ot Buntovtsikov,'' www.uznews.net, March 17, 2011
    \15\  ``Azerbaijan Puts Skype in Its Sights,'' Eurasia Insight, May 
4, 2011, www.euraisanet.org
    \16\  Tahir; Fitzpatrick
    \17\  ``China Creates Agency to Regulate Cyberspace,'' New York 
Times, May 5, 2011, www.nytimes.com
    \18\  Heather Maher, ``Report: Press Freedom `Lowest Ebb' in More 
Than a Decade,'' Radio Free Europe Radio Liberty, May 5, 2011
    \19\  Baku, Azadilq, in Azeri, April27, 2011, FBIS SOV, April 29, 
2011
    \20\  Clem, p. 236; Baktybek Abdrisaev, ``Last Flight Out of 
Kyrgyzstan,'' Washington Post, February 20, 2009, p. 23; Lora Lumpe, 
U.S. Military Aid to Central Asia 1999-2009: Security Priorities Trump 
Human Rights and Diplomacy, Open society Institute, 2010; Assistant 
Secretary of State for South and Central Asian Affairs, Robert Blake, 
``The Obama Administration' Priorities in South and Central Asia,'' 
Speech at the Baker Center, Rice university, Houston, Texas, January 
19, 2011, http://www.state.gov/p/sca/rls/rmks/2011/155002.htm
    \21\  Stephen Blank, ``Azerbaijan and Human Rights: Not As Simple 
As It Looks,'' Central Asia Caucasus Analyst, February 16, 2011
    \22\  Clem, p. 232
    \23\  Ibid., p. 234
    \24\  Roman Muzalevsky, ``Toward an Arab-Style Uprising in Central 
Asia,?''  International Relations and Security Network, May 3, 2011, 
www.isn.ethz.ch Voloshin
    \25\  Clem, p. 238
    \26\  Ibid p. 235
    \27\  Ibid p. 236
    \28\  ``Cotton in Uzbekistan,'' Environmental Justice Foundation, 
http://www.ejfoundation.org/page142.html; ``We Live Subject to their 
Orders'': A Three-Province Survey of Forced Child Labor in Uzbekistan's 
2008 Cotton Harvest, International Labor Rights Forum, http://
www.laborrights.org/sites/default/files/publications-and-resources/
UzbekCottonFall08Report.pdf
    \29\  Erica Marat, The State-Crime Nexus in Central Asia: State 
Weakness, Organized Crime and Corruption in Kyrgyzstan and Tajikistan, 
Washington and Uppsala: CACI&SRSP Silk Road Paper, October 2006; 
``Kyrgyzstan's Powerful Criminal Gangs,'' Jane's Intelligence Digest, 
February 26, 2009, http://wwwd.janes.com/subscribe/jid/doc
    \30\  Paul Quinn-Judge, Tajikistan: On the Pot-holed Road to 
Failed-State Status, International Crisis Group, 2009, http://
www.crisisgroup.org/en/regions/asia/central-asia/tajikistan/tajikistan-
on-the-pot-holed-road-to-failed-state-status.aspx; Stephen Blank, 
Tajikistan: Rahmon Facing Pressure on All Sides,' Eurasia Insight, 
March 29, 2011
    \31\  Max G. Manwaring, The Inescapable Global Security Arena, 
Carlisle Barracks, PA: Strategic Studies Institute, US Army War 
College, 2002, pp. 2-3
    \32\  Sebastien Peyrouse, ``Russia-Central Asia Advances and 
Shortcomings of the Military Partnership,'' Stephen J. Blank, Ed., 
Central Asian Security Trends: Views From Europe and Russia, Carlisle 
Barracks, PA: Strategic Studies Institute, US Army War College, 2011, 
pp. 1-2
    \33\  Stephen Blank, ``Civil-Military Relations and Russian 
Security,'' Stephen J. Blank, Ed., Civil-Military Relations in 
Medvedev's Russia, Carlisle Barracks, PA: Strategic Studies Institute, 
US Army War College 2011, pp. 1-76; Murray Scot Tanner, ``How China 
Manages Internal Security Challenges and Its Impact on PLA Missions,'' 
Roy Kamphausen, Andrew Scobell, and David Lai, Rfd, Beyond the Strait: 
PLA Missions Other Than Taiwan, Calrisle Barracks, PA, Strtegic Studies 
Institute, US Army War College, 2009, pp.. 39-97
    \34\  FBIS SOV, April 30, 2011; FBIS SOV, May 3, 2011; Erica Marat, 
The Military and the State in Central Asia: From Red Army to 
Independence, London: Routledge, 2009; Roger N. McDermott, Kazakhstan's 
Defense Policy: An Assessment of the Trends, London: Create Space, 
2009; Idem. Countering Global Terrorism: Developing the Antiterrorist 
Capabilities of the Central Asian Militaries, Carlisle Barracks, PA: 
Strategic Studies Institute, US Army War College, 2004 are the only 
extant studies of Central Asian militaries, clearly there is a lot we 
do not know about thei8r staying power in domestic crises
    \35\  Max Bader, The Curious Case of Political Party Assistance in 
Central Asia, OSCE Academy Bishkek, 2010
    \36\  Andrei Soldatov, ``Kremlin's Plan to Prevent a Facebook 
Revolution,'' The Moscow Times, February 28, 2011
    \37\  ``North of Tehran,'' Osservatore Balcani, 
www.ossevatorebalcani.org/article/articleview/11520/1/407, June 30, 
2009; Shahin Abbasov, ``Azerbaijan: Monitoring Iranian Events For 
Political Lessons,'' Eurasia Insight, June 26, 2009
    \38\  Ibid; ``Azerbaijani Foreign Minister Calls For Stability In 
Iran'' Associated Press, June 19, 2009
    \39\  ``Undermining Democracy: Strategies and Methods of 21st 
Century Authoritarians,'' Undermining Democracy, pp. 3-4; Rebecca 
Mckinnon, ``China's `Networked Authoritarianism,' '' Journal of 
Democracy, XXII, NO. 2, April-June, 2011, pp. 32-46; Xiao Qiang, "The 
Battle for the Chinese Internet," Journal of Democracy, XXII, No. 2, 
April-June, 2011, pp. 47-61; Evgeny Internet Control,? Journal of 
Democracy, XXII, NO. 2, April-June, 2011, pp. 62-72
    \40\  McKinnon, p. 40
    \41\  Richard Orange, ``Uzbek President Accuses the West of Funding 
Arab Revolts,'' The Telegraph, May 10, 2011, www.te.graph.co.news/
worldnews/asia/uzbekistan/8505104/Uzbek-president-accuses-the-West-of-
funding-Arab-revolyts.html
    \42\  Sam Dagher, ``A Peek Inside Iran Shows Protests Fading Under 
Withering Gaze,'' New York Times, July 9, 2009, www.nytimes.com
    \43\  Edward Wong ``China Official Threatens Death Penalty After 
Riots,'' Ibid.; China Says Ethnic Violence in Check Amid Heavy Troop 
Presence,''
    \44\  Joanna Lillis, ``Kazakhstan Corruption Scandals An Indicator 
Of Clan Infighting in Astana,?'' Eurasia Insight, July 10, 2009
    \45\  Jonas Bernstein, ``Lev Ponomarev, Russia has Four Categories 
of Political Prisoners,'' Eurasia Daily Monitor, February 13, 2008.
    \46\  U.S. Department of State, 2010 Human Rights Report, http://
www.state.gov/documents/organization/160515.pdf, April 8, 2011. . pp. 
15-16; Catherine Fitzpatrick, ``Norwegian Helsinki Committee on Turkmen 
Prison: ``A Clear Order Must Go Out to End These Horrible Practices,'' 
Eurasia Insight, May 6, 2011
    \47\  The CSTO is the subject of a forthcoming study by the author
    \48\  Mariya Y. Omelicheva, Counterterrorism Policies in Central 
Asia, Abingdon and New York: Routledge, 2011
    \49\  Mariya Y. Omelicheva, Counterterrorism Policies in Central 
Asia., Abingdon and New York: Routledge, 2011, p. 53
    \50\  Viktor Khanayev, ``Mass Quality Added to Mediums of 
Information,'' Moscow, Rossiyskaya Gazeta Online, in Russian, February 
24, 2011, FBIS SOV, February 24, 2011
    \51\  Ministry of Foreign Affairs of the Republic of Kazakhstan, 
``Address of H.E. Dr. Marat Tazhin, Minister of Foreign Affairs of the 
Republic of Kazakhstan 16th OSCE Ministerial Council, Helsinki, 
December 4, 2008'' MC.DEL/53/08 5 December 2008, (Henceforth Tazhin 
Address) www.mfa.kz
    \52\  Ibid.
    \53\  Ibid.
    \54\  Remarks of US NGO experts at the CSIS meeting with them in 
Washington, May 28, 2009
    \55\  Sergey Rasov, ``Outside the Access Zone,'' Moscow, 
politkom.ru, in Russian, April 21-22, 2009, FBIS SOV, May 8, 2009
    \56\  Ibid.
    \57\  Ibid.
    \58\  Remarks of Deputy Assistant Secretary of State George Krol in 
CSCE Hearings; Tazhin, Speech, Republic of Kazakhstan, Statement By 
H.E. Mr. Marat Tazhin, Minister of Foreign Affairs of the Republic of 
Kazakhstan, At the High Level Segment, 7th Session of the UN Human 
Rights Council, Geneva, March 4, 2008 (Henceforth Tazhin Speech)
    \59\  Statement of Dr. Eric M. McGlinchey Before the Commission of 
Security and Cooperation in Europe, United States Congress, Washington, 
D.C., May 12, 2009
    \60\  ``Kazakhstan's Succession Crisis: a Special Report,'' 
www.stratfor.com, March 31, 2011
    \61\  Alexei Makarin, ``Kazakhstan: President Nursultan Nazarbayev 
Will Have to Choose Successor During the New Term of Office,'' Moscow, 
Kommersant, in Russian, April 4, 20 ``Kazakhstan's Leader Pushes to 
Empower the Parliament,'' www.stratfor.com11, FBIS SOV, April 4, 2011
    \62\  Kathy Lally, ``Kazakh President Holds Fast as Arab 
Revolutions Topple Others,'' Washington Post, April 13, 2011. 
www.washingtonpost.com
    \63\  ``Kazakhstan's Succession Crisis: a Special Report''; William 
Courtney, ``The Father of Kazakhstan,'' International Herald Tribune, 
April 5, 2011
    \64\  ``Kazakhstan's Leader Pushes to Empower the Parliament,'' 
www.straftfor.com,April 8, 2011
    \65\  Vladimir Socor, ``Kazakhstan's Presidency Initiates 
Discussion on Political Reforms,'' Eurasia Daily Monitor, April 15, 
2011
    \66\  Farangis Najibullah, ``Who Would Succeed Kazakh President 
Nazarbayev,?'' Eurasia Insight, April 24, 2011
    \67\  Kumkova
    \68\  Sergei Ivanov, ``Russia Must Be Strong,'' Wall Street 
Journal, January 11, 2006, 14.
    \69\  Stephen Blank, ``Azerbaijan and Human Rights: Not As Simple 
As It Looks,'' Central Asia Caucasus Analyst, February 16, 2011; 
Stephen Blank, Tajikistan: Rahmon Facing Pressure on All Sides,' 
Eurasia Insight, March 29, 2011
    \70\  Mushfig Bayram, ``Uzbekistan: Crackdown on Devout Muslims 
Continues,'' Refworld, UNHCR, from Forum 18, January 27, 2010, http://
www.unhcr.org/refworld/topic,464db4f52,,4b604d431e,0.html
    \71\  Kirill Nourzhanov, ``Changing Security Threat Perceptions in 
Central Asia,'' Australian Journal of International Affairs LXIII, NO. 
1, 2009, p. 94
    \72\  Ibid
    \73\  Chingiz Umetov,``Uzbekistan-Kyrgyzstan: Border Hassles 
Abound,'' Transitions Online, May 4, 2009, www.tol.cz
    \74\  By June 2009 Uzbekistan had again closed its borders with 
Kyrgyzstan and the later was digging trenches along that border while 
relations with Tajikistan were hardly better.
    \75\  Starr, p. 4; see also Roy Allison and Lena Jonson, Central 
Asian Security: The New International Context, London and Washington, 
D.C.: Royal Institute of International Affairs and Brookings 
Institution Press, 2001 is an exception in this regard
    \76\  Nourzhanov, p. 94
    \77\  Umetov,
    \78\  Nourzhanov, p. 95
    \79\  Ibid.
    \80\  Almaty, Interfax-Kazakhstan Online, in Russian, January 23, 
2009, FBIS SOV, January 23, 2009
    \81\  Almaty, Kazakhstan Today Online, in Russian, February 24, 
2009, FBIS SOV, February 24, 2009
    \82\  Stephen Blank, ``Central Asia's Strategic Revolution,'' 
Regional Power Plays in the Caucasus and Central Asia, NBR Analysis: 
National Bureau of Research, Asia, Seattle, Washington, 2003, pp. 51-76
    \83\  Nourzhanov, pp. 94-95
    \84\  ``Uzbek Airfield Is Made Available to Russia in 
Emergencies,'' Ferghana.ru Information Agency, December 22, 2006
    \85\  Ilyas Sarsembaev,``Russia: No Strategic Partnership With 
China in view,'' China Perspective, Perspectives Chinois, No. 645, May-
June 2006, p. 33
    \86\  http://www.kremlin.ru/eng/sdocs/news.shtml, August 11, 2009
    \87\  ``Interview given by Dmitry Medvedev to Television Channels 
Channel One, Russia, NTV,'' August 31, 2008, http://www.kremlin.ru/eng/
speeches/2008/08/31/1850--type82916--206003.shtml;
    \88\  Ibid.
    \89\  ``Russia and Uzbekistan to Bring Stability to Kyrgyzstan,'' 
http://rt. com/Politics/2010-06-08/russia-uzbekistan-stabilize-
kyrgyzstan.html, June 8, 2010
    \90\  Moscow, ITAR-TASS, in English, June 19, 2010, FBIS SOV, June 
19, 2010; Caversham, BBC Monitoring, in English, June 19, 2010, FBIS 
SOV, June 19, 2010; Tashkent, Uzbek Television Service, in Uzbek, June 
18, 2010, FBIS SOV, June 18, 2010
    \91\  ``Uzbekistan-China: Toward Enhancing Cooperation,'' June 10, 
2010, http://www.gov.uz/en/press/politics/5730
    \92\  Beijing Xinhua Domestic Service, in Chinese, June 9, 2010, 
FBIS SOV, June 9, 2010
    \93\  Mikhail Zygar and Konstantin Gaaze, ``The Russians Are Not 
Coming,'' Moscow:  Russky Newsweek Online, in Russian, June 22, 2010, 
FBIS SOV, June 22, 2010; Moscow, Ekho Moskvy, June 14, 2010, FBIS SOV, 
June 14, 2010; Simon Shuster, ``Why Isn't Russia Intervening in 
Kyrgyzstan,?'' Time, June 16, 2010, http://www.time.com/time/world/
article/0,8599,1997055,00.html; Authors' conversations with foreign 
intelligence officials, 2011
    \94\  Bruce Pannier, ``Russia's Star on Rise Again in Kyrgyzstan,'' 
Eurasia Insight, April 9, 2011
    \95\  ``Kazakhstan Should Influence Stabilization of Situation in 
Turkmenistan, Russian Expert,'' The Times of Central Asia, December 22, 
2006, Retrieved from Lexis-Nexis
    \96\  ``Tajik Opposition Leader Mulls Impact of Turkmen 
Developments,'' Dushanbe, Asia-Plus News Agency, in Russian, December 
22, 2006, Retrieved from Lexis-Nexis
    \97\  ``Kazakhstan Not to `Get Involved in Any Wars for 
Turkmenistan','' Astana, Russia & CIS General Newsline, December 29, 
2006, Retrieved from Lexis-Nexis
    \98\  Blank, Tajikistan: Rahmon Facing Pressure on All Sides,'
    \99\  Roberts
    \100\  Lumpe, Blake,
    \101\  Roberts

     Prepared Statement of Dr. Scott Radnitz, Assistant Professor, 
                        University Of Washington

    Mr. Chairman, I want to thank you for inviting me here to testify 
about the potential impact of the Arab Spring on Central Asia, a region 
vitally important to American interests, but one that is poorly 
understood and often neglected by scholars and policy makers.
    The Arab Spring is a watershed event in the history of the Middle 
East, a part of the world that was unfortunately bypassed by the global 
trend of democratization of the past several decades. The events in 
Tunisia and Egypt offer new hope to millions whose future prospects 
have long been stifled by a corrupt and repressive elite that 
monopolizes political and economic power. The tremendous force behind 
these grassroots uprisings caught many off guard--not least the rulers 
themselves.
    The people of post-Soviet Central Asia have also endured hard times 
over the past two decades. These countries are led by some of the most 
repressive rulers on the planet. Human rights abuses are rampant and 
basic freedoms are severely curtailed. Due to the decline in their 
living standards beginning in the early 1990s, many people are 
nostalgic for the old Soviet system, where they could at least count on 
basic physical and economic security, if not political freedom.
    People in Central Asia, like others around the world, yearn for 
democracy yet face many challenges to attaining it. Could this be their 
time? I believe, unfortunately, that the barriers to democratization in 
Central Asia are overwhelming. The grassroots uprisings in the Arab 
world, while inspirational to many, are unlikely to take root in 
Central Asia due to the region's inhospitable soil.
    I want to highlight two sets of factors that I believe make 
uprisings like those in the Middle East unlikely to occur in the near 
future in Central Asia. First is the weakness of the personal and 
technological linkages between the Middle East and Central Asia. Second 
is the capacity of authoritarian regimes in Central Asia to withstand 
challenges from below. I'll close with a brief comment on the prospects 
for political change in Central Asia in the longer term.
    A critical feature behind the tendency of protest movements in one 
Arab country to migrate to another is the dense cultural and economic 
ties between societies. Like the Eastern European revolutions of 1989, 
the Arab spring is being driven by citizens separated by national 
borders, who have never met, but who nonetheless face similar 
challenges and see themselves as sharing a common predicament. Their 
political systems are characterized by presidents who have held power 
for decades, economies that are dominated by a narrow ruling elite, 
entrenched corruption that needlessly raises the cost of public 
services, and a pervasive but antiquated apparatus of propaganda that 
people encounter on a daily basis on television, in newspapers, and on 
billboards on their way to work.
    In addition to sharing similar life experiences, Arab citizenries 
are also connected to one another through various channels of 
communication. People in one Arab country could rapidly learn of 
protests in other states through international travelers such as 
businessmen and labor migrants; by telephone and e-mail; and through 
blogs, social networking websites, and cable channels like al Jazeera. 
The effects of these dense networks of communication were visible in 
the spread of protests from Tunisia to Egypt, Libya, Yemen, Bahrain, 
and beyond. Protesters in different countries, sharing common cultural 
references and life experiences, framed their grievances in similar 
ways, in terms of demands for justice, of the people against the ruling 
class, and as an expression of the frustrations of the young 
generation, which has been prevented by older generations from sharing 
in the benefits of the system.
    There was also a common repertoire of protest that included an 
emphasis on non-violence and a visible role for people who would draw a 
sympathetic reaction from the public. Demonstrations involved humor 
directed against cloistered, out-of-touch autocrats; and posters and 
signs highlighting injustice and the illegitimacy of the incumbent 
regime. Clearly, the perception of common identity among Arab citizens, 
especially youth, was crucial in the rapid and unrelenting spread of 
uprisings across national boundaries.
    But these forces run up against major obstacles when they reach the 
former Soviet Union (FSU). Even 20 years after the breakup, the 
attention of ex-Soviet states and their citizens is still largely 
directed inward, toward the territory of the former empire. States in 
Central Asia, the Caucasus and the Western part of the FSU share 
similar regime types and forms of corruption. Their citizens still 
speak Russian as a first or second language and watch Russian 
television, including pro-government news broadcasts. Russian news, 
unsurprisingly, portrayed the events of the Arab Spring as chaotic, 
violent, and provoked by Islamic radicals. People throughout the FSU 
continue to interact through ties of trade and labor migration, and 
virtually, through the Russian-language blogosphere. They commiserate 
by relating their experiences of post-Soviet social disruption and 
financial hardship, and find common cause in joking about their 
dysfunctional political systems.
    When events happen in the Middle East, dissidents and opportunistic 
politicians in post-Soviet states may take advantage by organizing 
rallies, as they have done in Armenia and Azerbaijan, and are rumored 
to be planning in other states. But the Arab Spring is unlikely to 
embolden the mass public. Whereas a success in one Arab nation has a 
galvanizing effect on other Arab societies, in the post-Soviet region, 
people have no reason to believe that the institutional constraints on 
protest and freedom of expression in their own countries have changed 
significantly.
    Even the societies of Central Asia, which are predominantly Muslim, 
tend to look north rather than south or west. Economic, cultural, and 
political ties with Russia remain strong, despite the sporadic efforts 
of the region's leaders to distance themselves from their former 
imperial core. Young people who intend to seek work abroad learn 
English, or sometimes Turkish-but rarely Arabic. Central Asians see 
Turks as cousins, albeit patronizing ones. Central Asians consider 
Arabs distant ancestors, not relatives. Religious Central Asians feel 
somewhat insecure in comparison to Arabs, whom they consider ``good 
Muslims'' while calling themselves ``bad Muslims'' due to the Soviet 
legacy of atheism. But the dominant view among Central Asians is to see 
themselves as culturally more advanced than Arabs or Afghans. They see 
Arab Islam as too extreme and fundamentalism as retrograde and 
dangerous. I am, of course, generalizing about the opinions of diverse 
groups of people, but I believe this reflects the views of the 
majority, who would be in the vanguard of a pro-democracy revolution.
    There is a recent precedent for the spread of protest throughout 
the FSU, and that is the so-called color revolutions in Georgia in 
2003, Ukraine in 2004, and Kyrgyzstan in 2005. These uprisings happened 
in a short time period and involved similar demands and tactics, in 
part because activists monitored events in neighboring countries and 
communicated across national boundaries. All three revolutions involved 
unpopular autocrats, fraudulent elections, and large protests in the 
central squares of national capitals. All three caught their nations' 
leaders off guard and ended in a peaceful transfer of power. Protesters 
acted with the knowledge of what had happened in previous revolutions, 
and demonstrated the ability to learn from their predecessors' triumphs 
and mistakes. At the same time, the region's incumbent autocrats also 
showed a willingness to apply lessons from the missteps of their 
counterparts. And this brings me to my second point--the resilience of 
Central Asian regimes.
    After the overthrow of Kyrgyz President Askar Akaev in March 2005, 
the next domino that may have fallen was Uzbekistan, which faced an 
unprecedented large and peaceful protest in the city of Andijan in May 
of that year. As you know, it resulted in a humanitarian tragedy when 
the army opened fire on the crowd and killed hundreds of people. This 
was only the most severe of the measures that rulers took around the 
time of the color revolutions to shore up their power. Other examples 
included the closure of Western non-governmental organizations; the 
expulsion of the Peace Corps from Russia; the arrest and harassment of 
journalists and human rights activists; the use of violence against 
peaceful demonstrators in Azerbaijan and Belarus on several occasions; 
the Kremlin's creation of the pro-government youth movement Nashi and 
copycat groups in other states; the investment in building up ruling 
parties in Russia, Kyrgyzstan, Kazakhstan, Tajikistan, Georgia and 
Azerbaijan; the use of surveillance technology to monitor public 
gatherings and Internet activity; and the nationalization or increased 
state control of private businesses.
    The upshot of these measures was more resilient authoritarian 
regimes. Regime strength can be viewed as a kind of natural selection, 
in which the weakest ones were overthrown while those that could adapt 
would live on. Having endured a trial by fire in the last decade, 
incumbent post-Soviet regimes are highly adept at staving off 
opposition challenges without using overt repression, allowing them to 
preserve stability and even claim popular legitimacy. This is most 
apparent in Kazakhstan, where President Nursultan Nazarbaev appears to 
be genuinely popular despite closing off all space for independent 
voices. His soft touch enabled him to win the most recent presidential 
elections with a reported 91% and 96% of the vote without facing street 
protests. Kazakhstan's chairmanship of the OSCE, whatever its merits, 
also provided his regime an international stamp of approval. This is in 
contrast to the Mubarak and Ben Ali regimes, which had seemingly grown 
complacent from their many decades of successfully managing power. They 
appeared to have underestimated their citizens' frustration and their 
willingness to brave violence to make their voices heard.
    Central Asia also suffers from a deficit of civil society in 
comparison with Middle Eastern states. Despite their limited political 
freedoms, Tunisia, Egypt, and others have organized trade unions, a 
history of student activism, Islamic movements, and political parties 
with grassroots appeal. These organizations, although debilitated, 
aided in attracting ordinary people once protests began. Mobilization 
against authoritarian regimes is a high-risk activity, so the trust 
that held these groups together was a vital asset for the opposition.
    In contrast, civil society in Central Asia is very weak. In large 
part due to the Soviet legacy, there are few independent organizations 
with popular support through which people can be recruited to join 
protests. With the exception of Kyrgyzstan, people in the region lack 
collective memories of bottom-up political change, and have few 
cultural resources to draw on to build support for mass protests.
    This leads me to bring up one caveat to the premise of Central 
Asia's political stagnation--and that is the exceptionally tumultuous 
nature of politics in Kyrgyzstan. Some might even argue that Kyrgyzstan 
offers a way forward for the region. Unfortunately, though the country 
has seen many protests, these are mostly not grassroots demands for 
greater democracy. Instead, as I show in my book Weapons of the 
Wealthy, the 2005 Tulip Revolution occurred when businessmen and 
politicians launched protests against President Akaev after they had 
lost their parliamentary races, and inadvertently caused his downfall. 
Since then, politicians have continued to mobilize mobs to assert their 
interests; most street protests are elite struggles over spoils, not 
grassroots demands for democracy. The violence that occurred in April 
and June 2010 stemmed directly from these struggles.
    The Kyrgyz case, rather than Egypt or Tunisia, can be most 
instructive for the future of Central Asian regimes. As Kyrgyzstan 
demonstrated, opposition to the incumbent need not emanate from below, 
or occur through conventional channels such as political parties or 
NGOs. Threats to regimes can also be latent, undeclared, and informal, 
and can come from above: rival political elites within the regime, or 
businessmen who have pledged their loyalty but also have their own 
power base. A president's coalition can hold together for a long time, 
but it can also unravel abruptly, for example, as a result of imminent 
succession and the failure of officials to rally around a successor who 
can assure their privileges. Struggles over power can also occur over a 
shrinking economic pie, or from personal disagreements between 
influential figures. If such as struggle leads a regime to collapse, 
the unraveling will not necessarily lead to democracy and may in fact 
be violent. For 20 years, the rules for managing power in countries 
such as Kazakhstan, Uzbekistan, and Azerbaijan have worked well within 
the limited domain of satisfying elite interests. But these elites have 
no experience dealing with rapid change, and may not be able to resolve 
their differences peacefully when the old rules cease to function.
    In the coming decades, there is reason to expect Central Asian 
regimes to become increasingly vulnerable. With the partial exception 
of Kazakhstan, leaders have neglected to invest in maintaining capital 
inherited from the Soviet Union. The degradation of education systems, 
in particular, is causing a crisis in human capital. When the last 
generation of Soviet-educated professionals retires, it will be 
difficult to find qualified people to replace them. Young people today 
either seek to leave the country or invest in connections to help them 
to gain access to the state's diminishing spoils, rather than develop 
the skills needed to make a positive economic contribution. Unless 
governments in the region make basic investments to replace decaying 
capital, not only regimes, but also state institutions are at risk of 
collapsing. In the long run, the U.S. might be forced to reassess how 
it can best assist Central Asia: not by jumpstarting a stalled 
democratization process, but, more urgently, by helping to stave off 
state failure. There is a closing window of opportunity for the leaders 
of the region and their external partners to avert this scenario.

   Prepared Statement of Gulam Umarov, Sunshine Coalition, Uzbekistan

    Thank you for the opportunity to discuss the future of democracy in 
my homeland. Also, I'd like to take this opportunity to personally 
thank the members and staff of the Commission for their assistance and 
support in securing the release of my father, Sanjar Umarov, from an 
Uzbekistan prison in 2009.
    In thinking about the impact that the ``Arab spring'' may have on 
the Central Asian republics, one needs to remember the recent history 
of our region. My country, Uzbekistan, was founded on the ruins of the 
Soviet Union. As a result, we have never had a tradition of democracy, 
individual rights, freedom of assembly or freedom of speech. We have 
always been ruled from the top with no opportunity for average people 
to impact our government. Sure, people are tired of permanent rulers 
and tyranny, but there is no tradition of free speech and there is 
certainly no room for any expression of dissent.
    It is also important to remember that the vast majority of 
Uzbekistan's citizens are very, very poor. Tunisia, Egypt, Libya and 
Syria on a relative scale, possess much more wealth than the people of 
Uzbekistan. Their citizens, therefore, have a closer connection to the 
modern world and greater expectations for the future. Moreover, because 
of the terrible poverty in Uzbekistan, young people leave the country 
for work in Russia and other far away places. Those that are left 
behind, especially in the countryside, are the elderly and women. This 
does not mean that people are happy with the existing regime. It means 
their livelihood is submissive to this regime. Discontent grows 
widespread, but almost everyone is too preoccupied, trying to put food 
on the table, to think of anything else.
    We also need to remember some of the specific characteristics of 
the Uzbek regime. Time and time again, entire extended families are 
destroyed because a son, a nephew or cousin has offended even the most 
junior of bureaucrats in a local administration. The use of violence, 
terror and torture are so common that they have ceased to shock society 
and are, in a very sad way, accepted as the regular order of things. It 
is no surprise that people stay off the streets, fearful that the 
events that took place 6 years ago in May 2005 will repeat.
    Nonetheless, there is a growing expectation of change in Uzbekistan 
that is based not on a democratic movement, but on demographics. The 
current leadership is old, and a behind-the-scenes struggle for power 
has begun. Evidence of this power struggle can be seen in the often 
irrational actions of the government. While 2011 was supposed to be the 
year of support of small and medium Business, at the same time, the 
government began to destroy all of the major markets--bazaars--in major 
cities including capital city of Tashkent. This policy was adopted in 
the name of city beautification and ultimately destroyed thousands of 
jobs and raised the cost of living for everyone. Why? One can only 
deduce that the destruction will enrich one faction of the governing 
elite at the expense of another.
    As change in the government is inevitable, it will be useful to 
think about ways in which the United States can further engage with the 
government as it evolves. From my experience in the field of human 
rights, we took cases to the UN, engaged in extensive advocacy in the 
United States, and pursued international legal remedies, but of course 
it would be better if you could achieve the same aims through open 
dialog with the authorities. The imposition of ``sanctions'', or even 
the threat of sanctions, has proven to be, counterproductive.
    As a result, the United States should consider a series of 
incentives that could be implemented, provided that Uzbekistan accepts 
responsibility for its actions. A primary importance is the continued 
assistance reducing threat posed by religious extremism. Let there be 
no mistake, there is an active and increasingly assertive extremist 
threat in Uzbekistan. In order to address this threat, the United 
States needs to focus not only on police and military action, but also 
on the underlying causes of religious extremism in Uzbekistan. Among 
these are a wide spread sense of injustice caused by the absence of 
functioning civil institutions, monopolies in virtually all spheres of 
business and the destruction of Uzbekistan's most important asset, 
agriculture. Three specific initiatives that might begin to address 
these issues are:

    <bullet>  A concerted effort to support the authority and operation 
of the Parliament. If Uzbekistan can make a real transition towards 
democracy, a truly functioning Parliament is essential.
    <bullet>  De-monopolization. Over the past three years, the US has 
invested tens of millions of dollars in the development of the Northern 
Distribution Network to support operations in Afghanistan. Almost all 
of the economic benefits accruing from the operation of the NDN benefit 
a very small group of insiders. The US should use its investment in the 
NDN to encourage the growth of competition in Uzbekistan.
    <bullet>  Finally, as has been noted by the Senate Foreign 
Relations Committee, the mismanagement of water resources in Central 
Asia and Uzbekistan is causing great damage to agriculture, which 
accounts for 2/3s of the population's livelihood. The U.S. should 
greatly increase its support for the development of local, national, 
and international water management schemes in the region.

    In conclusion, just as Egypt has been considered the lynch pin of 
the Arab world, so Uzbekistan is considered the lynch pin of Central 
Asia. All good citizens of my homeland fervently pray that we can avoid 
a situation where the people utterly give up hope and take to the 
streets. Should this happen, it would be a disaster not only for 
Uzbekistan but the region as a whole.

                                 [all]




                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
